<html>
<title> - EXAMINING THE EFFECTIVENESS OF VETERANS BENEFITS ADMINISTRATION OUTREACH EFFORTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                      EXAMINING THE EFFECTIVENESS
                  OF VETERANS BENEFITS ADMINISTRATION
                            OUTREACH EFFORTS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2008

                               __________

                           Serial No. 110-89

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
43-055 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
MICHAEL F. DOYLE, Pennsylvania       MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              BRIAN P. BILBRAY, California
JOHN T. SALAZAR, Colorado            DOUG LAMBORN, Colorado
CIRO D. RODRIGUEZ, Texas             GUS M. BILIRAKIS, Florida
JOE DONNELLY, Indiana                VERN BUCHANAN, Florida
JERRY McNERNEY, California           STEVE SCALISE, Louisiana
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                              May 22, 2008

                                                                   Page

Examining the Effectiveness of Veterans Benefits Administration 
  Outreach Efforts...............................................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    45
Hon. Doug Lamborn, Ranking Republican Member.....................     4
    Prepared statement of Congressman Lamborn....................    46
Hon. Phil Hare...................................................     4

                               WITNESSES

U.S. Department of Veterans Affairs, Diana M. Rubens, Associate 
  Deputy Under Secretary for Field Operations, Veterans Benefits 
  Administration.................................................    30
    Prepared statement of Ms. Rubens.............................    74
U.S. Department of Defense:......................................
    Leslye Arsht, Deputy Under Secretary of Defense, Military 
      Community and Family Policy................................    31
      Prepared statement of Ms. Arsht............................    78
    Kevin Crowley, Deputy Director, Manpower and Personnel, 
      National Guard Bureau......................................    33
      Prepared statement of Mr. Crowley..........................    83

                                 ______

Advertising Council, Kate Emanuel, Senior Vice President, Non-
  Profit and Government Affairs..................................    21
    Prepared statement of Ms. Emanuel............................    63
American Legion, Jacob B. Gadd, Assistant Director, Veterans 
  Affairs and Rehabilitation Commission..........................    20
    Prepared statement of Mr. Gadd...............................    60
Disabled American Veterans, Kerry Baker, Associate National 
  Legislative Director...........................................    18
    Prepared statement of Mr. Baker..............................    55
Gold Star Wives of America, Inc., Kathryn A. Witt, Member, 
  Government Relations Committee.................................    11
    Prepared statement of Ms. Witt...............................    53
National Association for Uniformed Services, Richard A. ``Rick'' 
  Jones, Legislative Director....................................     9
    Prepared statement of Mr. Jones..............................    50
National Association of County Veterans Service Officers, Darlene 
  McMartin, President............................................     7
    Prepared statement of Ms. McMartin...........................    48
National Association of State Directors of Veterans Affairs, 
  Tammy Duckworth, Member, and Director, Illinois Department of 
  Veterans Affairs...............................................     5
    Prepared statement of Ms. Duckworth..........................    47

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Diana M. Rubens, Associate Deputy Under Secretary 
  for Field Operations, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs, letter dated June 2, 2008, and 
  VA responses...................................................    85
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Leslye Arsht, Deputy Under Secretary of Defense, 
  Military Community and Family Policy, U.S. Department of 
  Defense, letter dated June 2, 2008, and DoD responses..........    88
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Kevin Crowley, Deputy Director, Manpower and 
  Personnel, National Guard Bureau, U.S. Department of Defense, 
  letter dated June 2, 2008, and DoD responses...................    91


                      EXAMINING THE EFFECTIVENESS
                  OF VETERANS BENEFITS ADMINISTRATION
                            OUTREACH EFFORTS

                              ----------                              


                         THURSDAY, MAY 22, 2008

             U.S. House of Representatives,
              Subcommittee on Disability Assistance
      and Memorial Affairs, Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:45 p.m., in 
Room 340, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Hare, and Lamborn.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. The Veterans' Affairs Disability Assistance and 
Memorial Affairs Subcommittee hearing on Examining the 
Effectiveness of the Veterans Benefits Administration (VBA) 
Outreach Efforts will now come to order.
    I would ask everyone to rise for the Pledge of Allegiance. 
The flags are located in the front.
    [Pledge of Allegiance.]
    Mr. Hall. Thank you and welcome, and thank you for your 
patience.
    Over the last number of months, we have had a series of 
hearings on the U.S. Department of Veterans Affairs (VA) claims 
processing system, which resulted in the full Committee passing 
H.R. 5892, the ``Veterans Disability Benefits Claims 
Modernization Act of 2008.'' I am very pleased with the bill's 
progress, and am grateful that we have over 30 cosponsors 
already.
    However, during the course of those hearings, I have often 
heard words like confusing, misinformed, stigmatizing and 
overwhelmed to describe the way that veterans felt about 
accessing their duly-earned VA benefits.
    It occurred to me that there was a secondary problem that 
was not internal to VA operations, but was indicative of its 
outreach to the veterans they were supposed to be serving. 
Benefits information was not getting out in clear, simple 
language that was consistent and easy to use.
    As many of you know, the House recently passed H.R. 3681, 
the ``Veterans Benefits Awareness Act of 2007,'' which 
authorizes the VA to advertise.
    The U.S. Department of Defense (DoD) knows how to 
advertise. Congress gave DoD that authority in the fifties, and 
since then they have inspired many to join, ``The Few, The 
Proud;'' or to ``Be All That You Can Be.'' Today, DoD even uses 
TV commercials to educate the military community about its 
Military OneSource support program.
    But beyond the issue with advertising that I hope H.R. 3681 
will address, I felt we needed this oversight hearing to 
examine the effectiveness of all of VBA's outreach efforts, and 
asked the staff to further investigate.
    During that process it became evident that there were 
inconsistencies and gaps in how VA is informing the public 
about its benefits and services. Committee staff found that it 
was difficult to readily ascertain what, in fact, official VA 
information was, and what was incorrect.
    Even with all of the joint councils between the VA and DoD, 
there is no clear ability to correctly find VA through DoD 
sources. For instance, the DoD has three Web sites that offer 
servicemembers transition assistance, but none that connects 
with VA. When calling the DoD Military OneSource toll-free 
line, the operator gives the incorrect call line for VBA. It 
took our staff almost 30 minutes, three phone calls and six 
menu options to get to the right VBA operator to get claims 
questions answered. At what point would a disabled veteran have 
quit, stressed, frustrated, or worst of all, unassisted?
    Veterans service organizations (VSOs) and other nonprofits, 
which are doing their best to assist veterans and their 
families and survivors, are left on their own to create 
veterans benefits messages and lines of assistance which 
sometimes link to VA and sometimes do not.
    I believe that it is VA's responsibility to create 
promotional and educational materials that these organizations 
can use so that VA is readily recognizable and available, no 
matter how the veteran finds it.
    There have been inconsistencies reported in how VA conducts 
in-person outreach. VA is a primary component of the Transition 
Assistance Program, or TAP, briefings that take place for 
separating active duty servicemembers, National Guard and 
Reserves.
    VA reports that it attends these briefings when it knows 
they are taking place, but they are not always notified by the 
military commands when a briefing is scheduled, and not 
everyone eligible attends. DoD in turn has been reluctant to 
mandate TAP because it does not control all of those resources 
also. VA representatives have been reported to not show up for 
their portion of the briefing.
    TAP and the Benefits Delivery at Discharge (BDD) Program 
are not as readily available to the National Guard, Reserves or 
medical hold patients. VA has dismantled its Office of Seamless 
Transition and replaced it with the Federal Recovery Care 
Coordinators who primarily operate out of Veterans Health 
Administration (VHA), not the VBA. The VBA began a call center 
program to contact veterans about their benefits, but only 
after suicide rates became known.
    It seems clear that the VA needs a more proactive outreach 
approach. Each area of our country has its own unique 
challenges of meeting the population needs and its veterans 
population needs. That is why I am glad we have veterans 
service organizations, State and county representatives with us 
today, who can address the issues associated with reaching 
rural and urban communities, women and minorities, younger or 
older veterans, and those living in impoverished conditions.
    I look forward to the testimony of our witnesses and to 
hearing about their innovative practices and the outreach gaps 
that they have identified.
    I also look forward to the Ad Council testimony to hear 
what they can teach us about advertising veterans benefits. 
They have helped other Federal agencies to teach us that ``Only 
You Can Prevent Forest Fires.'' or how to ``Take a Bite Out of 
Crime'' or that ``Friends Don't Let Friends Drive Drunk'' or 
that ``Loose Lips Sink Ships.'' The genesis, of course, was 
with the War Department, which immortalized Rosie the Riveter, 
and later a more well-known one, ``This is Your Brain, This is 
Your Brain on Drugs'' and the frying pan with the eggs in it.
    Different branches of Government, including DoD, have 
advertised effectively enough to permanently implant these 
images into everyone's mind, not just veterans' minds, and 
hopefully we can do a similar type of outreach and advertising 
program that will make VA benefits or the way to access them so 
firmly implanted in everybody's mind that a veteran might be 
able to turn to somebody else on the street who is not a 
veteran and say where do I go to get my benefits and, just like 
I remembered, ``This is Your Brain'' or ``Only You Can Prevent 
Forest Fires,'' all citizens can be educated where those 
services can be accessed.
    Family members, caregivers, and survivors new to the VA's 
lingo, jargon and acronyms need materials and briefings that 
are user friendly with personnel dedicated to assisting them.
    On April 24, of this year, I held a roundtable discussion 
with organizations that assist survivors, and they brought up 
the need for a VA Survivor Affairs Office, so I have developed 
a draft bill that would create such an office and we will be 
asking the organizations for their feedback shortly.
    Finally, I am hopeful that the Departments will be able to 
provide insights into their joint efforts in cooperation with 
each other, to provide materials, briefings, and Internet and 
telephonic assistance that is accurate and consistent and 
readily available. Web links are simple, and it is a shame that 
such an obvious outreach tool has eluded the Departments so far 
and needs Congressional oversight.
    Bringing our men and women home is a responsibility that we 
all share in caring for them as best we can once they are home. 
It is great to see the efforts being made by the communities 
all around the Nation to support our veterans, especially those 
with disabling conditions. Hopefully, these efforts can be 
augmented with the efforts of the Departments of both the VA 
and Defense, and I hope that the message that the VA gets from 
us today is a friendly, cooperative and helpful offer of 
assistance to help to do better messaging, create better 
outreach materials, announcements, and Web resources tailored 
to different audiences and reaches the veterans, their families 
and survivors in clear and simple language that will make them 
all see the VA as a user friendly resource truly there for 
their benefit.
    I now recognize Ranking Member Lamborn for his opening 
statement.
    [The prepared statement of Chairman Hall appears on p. 45.]

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Mr. Chairman, thank you for yielding.
    I am pleased to have this opportunity for a collective 
discussion on the Department of Veterans Affairs outreach 
efforts. I believe the VA is doing a much better job of 
reaching Operation Iraqi Freedom/Operation Enduring Freedom 
(OIF/OEF) veterans now than it was at the beginning of the 
Global War on Terror. This is a commendable development, and I 
hope that a comparable improvement can be achieved in VA's 
effort to reach older veterans. Veterans cannot obtain the 
benefits they have earned if they don't know they are eligible 
to receive them.
    I am concerned that despite millions of dollars spent on 
outreach every year, we have not effectively reached many 
veterans of earlier conflicts. It is for this reason I was 
proud to join with my colleagues in supporting H.R. 3681, the 
``Veterans Benefits Awareness Act of 2007,'' which passed the 
full House this week.
    This measure, introduced by my good friend and Ranking 
Member of the Subcommittee on Economic Opportunity, John 
Boozman of Arkansas, authorizes the VA to conduct national 
advertising campaigns for benefits outreach.
    I believe that with the enactment of this bill and help 
from groups like the Ad Council, VA will be able to create 
public service announcements that will provide effective 
outreach for all veterans.
    The Department of Defense spends billions each year on 
recruitment ads, and I believe if VA spent just a fraction of 
this amount, it would be very effective for outreach purpose.
    Mr. Chairman, I would also like to recognize and thank 
veterans service organizations for their outreach efforts to 
veterans, and I encourage them to continue their excellent 
work.
    I look forward to our witnesses' testimony and a productive 
discussion on ways to improve VA outreach.
    I yield back the balance of my time.
    [The prepared statement of Congressman Lamborn appears on
p. 46.]
    Mr. Hall. Thank you, Mr. Lamborn, and thank you for 
mentioning Mr. Boozman, who was the originator of the bill that 
we passed this week.
    I would like to remind the panelists that your complete 
written statements have been made a part of the hearing record 
so you can limit your remarks to 5 minutes each. We have the 
clock system here. That way we will have sufficient time for 
followup questions once everybody has provided their testimony.
    Now I recognize Mr. Hare so he may introduce our first 
panelist.

              OPENING STATEMENT OF HON. PHIL HARE

    Mr. Hare. Thank you, Chairman Hall.
    Mr. Chairman, today I have the privilege and the honor of 
introducing one of the members of our first panel, the Director 
of the Illinois Department of Veterans Affairs (IDVA), Tammy 
Duckworth.
    Director Duckworth was appointed to the Illinois Department 
of Veterans Affairs by Governor Rob Blagojevich on November 1, 
2006, and has brought a high level of leadership, dedication 
and ingenuity to the IDVA ever since her appointment.
    Along with Governor Blagojevich, Director Duckworth worked 
tirelessly to help establish the Illinois Warrior Assistance 
Program. This first-in-the-Nation program requires that all 
returning Illinois National Guard members are screened for 
traumatic brain injuries, also known as TBIs, while offering 
other Illinois veterans that same opportunity.
    It also created a 24-hour toll-free psychological help line 
for veterans suffering from symptoms associated with post 
traumatic stress disorder (PTSD).
    As a member of the military, Director Duckworth is 
currently a Major with the Illinois National Guard. She served 
in Iraq as the Battle Captain and Assistant Operations Officer 
for a 500-soldier aviation task force and flew combat missions 
as a Black Hawk pilot.
    On November 12, 2004, Duckworth was co-piloting a Black 
Hawk helicopter north of Baghdad when a rocket-propelled 
grenade struck the cockpit of the aircraft and exploded. 
Director Duckworth lost her right leg and most of her left as a 
result of the attack.
    Director Duckworth has received the Purple Heart, the Air 
Medal, along with other decorations, citations, and badges.
    Director Duckworth speaks four languages. I have trouble 
speaking English. She has a BA in political science from the 
University of Hawaii and an MA from the George Washington 
University Elliott School of International Affairs.
    I am pleased and honored to have her testify today on the 
importance of veterans outreach programs.
    Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Hare, and welcome, Director 
Duckworth, and thank you for your service to our country and 
veterans.
    Joining you on the first panel is Ms. Darlene McMartin, 
President of the National Association of County Veteran Service 
Officers; Rick Jones, Legislative Director of the National 
Association for Uniformed Services (NAUS); and Kathryn Witt, 
member of Gold Star Wives (GSW). Welcome all.
    Director Duckworth, you are recognized for 5 minutes.

STATEMENTS OF TAMMY DUCKWORTH, DIRECTOR, ILLINOIS DEPARTMENT OF 
  VETERANS AFFAIRS, AND MEMBER, NATIONAL ASSOCIATION OF STATE 
  DIRECTORS OF VETERANS AFFAIRS; DARLENE McMARTIN, PRESIDENT, 
   NATIONAL ASSOCIATION OF COUNTY VETERANS SERVICE OFFICERS; 
   RICHARD A. ``RICK'' JONES, LEGISLATIVE DIRECTOR, NATIONAL 
   ASSOCIATION FOR UNIFORMED SERVICES; AND KATHRYN A. WITT, 
  MEMBER, GOVERNMENT RELATIONS COMMITTEE, GOLD STAR WIVES OF 
                         AMERICA, INC.

                  STATEMENT OF TAMMY DUCKWORTH

    Ms. Duckworth. Thank you, Mr. Chairman, Ranking Member 
Lamborn and Congressman Hare. I would like to thank the 
Subcommittee for holding this hearing today and providing the 
opportunity to testify on this extremely important issue.
    I am here on behalf of the National Association of State 
Directors of Veterans Affairs, of which I am a member. Each 
year, State Governments spend more than $4 billion to support 
our Nation's veterans and their families. In Army terms, we are 
a force multiplier for the Federal VA. Collectively, we are 
second only to the Federal Department of Veterans Affairs in 
providing benefits and services to the men and women who 
defended our Nation.
    Although each State is unique with its own traditions, 
programs and resources, we are united by our common goal to 
make a difference in the lives of our veterans.
    We all know that at this point in the current wars in Iraq 
and Afghanistan, there is a need to increase awareness among 
veterans about the benefits that are available to them. These 
are benefits that they have rightfully earned and deserve. We 
need to use every tool possible to ensure that they know about 
what benefits are available to them and their family members. 
Outreach is absolutely the key, especially with returning 
veterans of OIF and OEF. Educating them about their benefits 
through outreach and reaching them right now is essential to 
their future well-being.
    As the Director of the Illinois Department of Veterans 
Affairs, I can assure you that we are in dire need of 
additional resources at the State level to reach the new 
generation of veterans who are coming home, and to maintain 
communications with previous generations, specifically our 
aging Vietnam veterans who are retiring or reaching retirement 
age and have increased healthcare needs, many of whom are 
turning to the VA for the first time in 35 years.
    Most of the States have the capability and infrastructure 
to increase outreach but need the resources to do it. The 
members of the National Association of State Directors of 
Veterans Affairs would like Congress to pass a Federal grant 
program to provide outreach to veterans regarding the available 
benefits.
    Let me explain how this would work. In Illinois, Governor 
Blagojevich responded to the increased needs of our veterans by 
actually more than doubling the number of our veterans service 
officers. We now have 73 veterans service officers in 51 
offices across the State of Illinois. These are all State of 
Illinois employees. They are trained and certified by the U.S. 
Department of Veterans Affairs to assist veterans, their 
families and their survivors in completing applications for 
both State and Federal benefits.
    These service officers are part of the communities, and 
have lived in those communities and they have the ability to 
reach veterans in a way that the Federal Government cannot. 
They also work very closely with the county Veterans Assistance 
Commission, and together we form a partnership in researching 
not just Federal, but State and sometimes municipal benefits as 
well.
    Increased funding for outreach through the States would 
give veterans an opportunity to find out about and take 
advantage of both their State and Federal benefits after they 
have made it home.
    You know when I was in Iraq and when we received our 
briefings prior to being sent home, a lot of times your spouse 
is sitting in the parking lot with the engine of the car 
running as you are getting your TAP briefing, and our service 
men and women just want to hop in the car and go home. They are 
not paying that much attention, and it is important to get back 
to them 45 days later after they have had time to reconnect 
with their wives and their family. It is really important that 
maybe 6 months, maybe a year later, when they start to show 
some symptoms, to let them know of these benefits.
    At this point in time they are out of the reach of the 
Federal VA and the DoD. Many of them are going home to small 
towns, population 2,000, places like Anna, Illinois, El Paso, 
Illinois, you have similar towns in your own States, and that 
is why as a State entity we, living in these States, have that 
unique ability to reach out and provide services to veterans in 
their local communities.
    We also firmly believe that when a servicemember returns 
home from Iraq and Afghanistan, they need that extra time to 
reintegrate into their community, which is why Governor 
Blagojevich, at the 45-day mark, after our National Guard has 
come off of Federal order, he then uses Executive Order and has 
made the PTSD and TBI counseling mandatory for all Illinois 
National Guardsmen. It is an example of a way we are delivering 
services to our servicemembers.
    Unfortunately, we don't have similar access to the active-
duty forces. As a matter of fact, we don't get any information 
from the Federal VA or the DoD when a servicemember leaves 
active duty and comes home.
    When a young man from El Paso, Illinois, joins the Army, 
enlists, goes off, he does his tour, he comes home and nobody 
tells me that he is coming home, and the first time I hear 
about it is oftentimes from the State police because he has 
been self-medicating and has been drinking because he is trying 
to deal with his PTSD and ends up with a DUI.
    The first call I get should not be from the State police. 
The first call I should get should be from the VA or the DoD. 
We are inspected by the Federal VA. We are certified by the 
Federal VA, and we have information agreements. We need to know 
when our servicemembers are coming home to Illinois so that we 
can deliver the services that they deserve.
    Thank you.
    [The prepared statement of Ms. Duckworth appears on p. 47.]
    Mr. Hall. Ms. McMartin

                 STATEMENT OF DARLENE McMARTIN

    Ms. McMartin. Chairman Hall, Members of the Subcommittee, 
it is truly my honor to be able to present this testimony to 
you. As President of the National Association of County Veteran 
Service Officers, I am commenting on the National Association's 
views on the effectiveness of the Veterans Benefits 
Administration outreach efforts.
    The National Association of County Veteran Service Officers 
is an organization of local Government employees. Our members 
are tasked with assisting veterans in developing and processing 
their claims. A large percentage of the claims presented to the 
Veterans Administration each year originate in a county 
veterans service office.
    Each day our members sit across from those men and women 
who wish to file a claim for benefits. They are our friends, 
our neighbors, they are members of our community, with whom we 
see often daily.
    We exist to serve the veterans and partner with national 
service organizations and the Department of Veterans Affairs. 
Our association focuses on outreach, standardized quality 
training, claims development, and advocacy. We are an extension 
or arm of Government, not unlike the VA itself in service to 
the Nation's veterans and their dependents.
    In this changing world, there is a need for multiple 
approaches to outreach. Today we have our Nation's veterans of 
World War II, Korea, Vietnam, and those just returning from 
Iraq and Afghanistan.
    The Veterans Benefits Administration has a monumental task 
of reaching each of those veterans and making sure they 
understand the benefits available to them. In the realm of 
veterans outreach improvements, there is a clear need that the 
veterans being discharged from active duty, especially during a 
time of war, have access to information concerning veterans' 
benefits entitlement.
    Often, to reiterate what Ms. Duckworth said, often the 
veterans are just glad to be going home and they are not 
concerned about what benefits may be available to them. The 
National Association of County Veterans Service Officers 
proposes a partnership of the local county veterans service 
officers, VA, DoD, to reach out and assist returning veterans 
in their local areas.
    A first step would be to provide county veterans service 
officers a copy of the DD-214 and adding to that DD-214 a 
section where it has the veteran's cell phone number and the 
mailing address. This would provide the county veterans service 
officer a ready tool for reaching out to the veteran.
    Additionally, the National Association subscribes to 
Chairman Filner's solution to the problem of veteran suicide 
that requires the military to use qualified psychiatrists to 
interview every member before separation and determine who is 
in need of treatment while still on active duty. It has merit 
and is probably the only way to reach every soldier being 
discharged.
    Additionally, we believe that anyone found to be suicidal 
should be retained and retransferred to the VA for treatment, 
just as a soldier with a serious physical injury is being taken 
care of. Those who are in need of treatment for less serious 
diagnosis should be given a fee-basis card for use in the local 
community with a five-year renewal with VA approval.
    These veterans live 60, 70 miles away from a VA facility, 
and it is very difficult for them to get into a VA hospital 
without having transportation, and the cost of gas right now 
makes it very difficult for them to get to a VA hospital.
    Across the Nation there are veterans who still do not think 
they are a veteran because they didn't lose a limb or they 
didn't get injured in any way. They came home and started to 
work to support their families. They have never looked for any 
help from the Government. When the veteran dies, their family 
still does not know that they are entitled to benefits just 
because their husband or father served this country.
    These are people that need outreach. They are mostly lower 
income, have never heard or reached out to the VA, and 
therefore, don't think they are entitled to this help.
    I look at rural and urban America and see the great need to 
make these veterans aware of the benefits that they deserve. 
They earned entitlement, not welfare. These veterans have never 
made use of the VA Medical Centers, the GI bill, home loans, 
pensions or compensation benefits. They just served our country 
and they come home.
    It is so rewarding when we meet one of these veterans and 
tell them that they may be entitled, and see hope on their 
faces. It sometimes means the difference between eating or 
buying medicine. I am sure if a study was completed you would 
see a large number of these rural veterans have never used the 
VA for any services, and they didn't know they could.
    It is our responsibility to make sure that each of these 
veterans are getting their benefits. We do outreach to veterans 
and widows in nursing facilities, and everything we possibly 
can as a county office. In the State of Iowa, we just 
instituted legislation to where they are giving $10,000 to 
every county veterans service office, mandating that 99 
counties will have funds from the State to do outreach 
services. So in Iowa next year in 2009, there will be 99 county 
veterans service officers available and ready, and there are 
several more. We have thousands of them ready and willing to 
help with outreach benefits to our Nation's veterans.
    Thank you.
    [The prepared statement of Ms. McMartin appears on p. 48.]
    Mr. Hall. Thank you, Ms. McMartin.
    Mr. Jones, you are now recognized for 5 minutes.

             STATEMENT OF RICHARD A. ``RICK'' JONES

    Mr. Jones. Mr. Chairman, Mr. Lamborn, Mr. Hare, as we head 
toward Memorial Day, your Subcommittee takes a good and very 
well traveled road. It is critically important that our young 
men and women who defend us know what our great and generous 
country provides them following their service.
    Regarding VA outreach, it is clear to us that veterans are 
generally more aware about the availability of services today 
than they were say 4 or 6 years ago. Not everything of course 
is perfect and we can do better, but things are improved.
    Let me give you a quick comparative analysis.
    Six years ago, for instance, the administration was deeply 
opposed to spending resources aimed at making veterans aware of 
the benefits and services, and facilities were in decline. At 
one point in that past period we had a Secretary of Veterans 
Affairs who told the Nation, told Congress that the Department 
was fully budgeted, needed not one penny more. Only months 
following that announcement was the revelation of a $1.5 
billion shortfall in VA resources needed to provide those 
benefits to veterans.
    And prior to that revelation, our association and many 
other associations had pleaded with Congress for adequate 
funding, and told them if we did not have funding addressed, 
there would be cuts in services and healthcare, in education 
benefits, backlogs and claims, and all of these sorts of 
problems we face today.
    During that period, things were in fact so bad that there 
was a memorandum sent out by the Deputy Under Secretary for 
Operations and Management, this was in July of 2002, that 
actually directed all of its healthcare providers to stop 
marketing VA programs to veterans. Basically the July 2002 memo 
said too many veterans were coming in for services and the VA 
was spending too much money. It directed VA officials across 
the country to stop outreach to veterans. VA employees were 
directed to stop participating in health fairs and standdowns 
and related outreach projects all across the country. Medical 
facilities were prohibited even from putting out newsletters 
informing veterans about the services that they were legally 
entitled to receive.
    We are thankful that we no longer face that deeply 
troubling period. If such heartless, shameful, incompetence 
were in place today, our OEF/OIF folks would struggle virtually 
alone because we have a couple of reports that indicate a great 
number of folks face enormous stress, personal stress from 
their experiences in combat.
    The Defense Department shows that more than 1 in 4 of its 
commissioned officers on their third or fourth tour have 
symptoms commonly referred to as PTSD. That figure is of course 
higher than the roughly 12 percent who show those same symptoms 
after one tour and the 18.5 percent who show it after their 
second tour.
    Another recent report, this one from RAND, shows that 
almost half of those returning troops, who number nearly 
500,000, both reserve and active duty, will not seek treatment. 
Many of these veterans simply believe they are not at risk. 
They fear that the mental situation might be stigmatizing.
    We need to assure these folks that the VA is open and 
accessible for their benefit, and it is available. If not 
addressed, these symptoms can compound and the costs will be 
greater.
    Secretary Peake's recent announcement on outreach presents 
an opportunity for veterans to become more aware of VA's 
accessibility and in some cases these outreach efforts can be a 
matter of life and death for a veteran.
    They need to hear not only that the system is open and 
available to them, they need to hear that the system can tackle 
their stress.
    And believe me, we remain attentive that these most recent 
efforts, as optimistic as they are, actually take root. We have 
concerns, because residue from the previous attitude remains 
within the system. Take, for example, reports out of Temple, 
Texas, just a week or so ago that remind us that sometimes the 
cost of care takes precedence over the care of our greatest 
asset, the men and women who serve to protect us.
    There was an e-mail that simply said we need to have less 
time taken to examine these veterans coming in for PTSD exams 
and to give them less of an effort because it costs too much 
money--and takes too much time.
    We are very fortunate to have the Secretary come out and 
repudiate that e-mail and do it immediately and indicate that 
is just one small e-mail that doesn't show the system-wide 
efforts to serve our veterans.
    Mr. Chairman, I thank you very much for this opportunity. 
Hopefully we have reached a turning point, and we appreciate 
your overview of this operation.
    [The prepared statement of Mr. Jones appears on p. 50.]
    Mr. Hall. Thank you, Mr. Jones. I too was glad to see Mr. 
Peake repudiate that e-mail in the strongest possible terms.
    Next is Mrs. Kathryn Witt from Gold Star Wives.

                  STATEMENT OF KATHRYN A. WITT

    Ms. Witt. Thank you for allowing me to testify today. Most 
of my testimony was about a survivor's office and the need for 
a survivor's office, but you have already addressed that and 
said you have drafted legislation on the issue. So I will just 
skip over that.
    The one thing I would like to mention is that the Army has 
an excellent long-term family care office, and that would make 
a great model for a VA survivors office. We would like to see 
our national service officers trained by the VA in survivor 
affairs, have a specific module of their training on survivor 
benefits.
    We would also like to see that training available to the 
survivor representatives of other veterans organizations, 
including GSW.
    We have had some problems. There is a rather obscure 
benefit where a lot of the survivors of veterans, as opposed to 
those killed on active duty or are in retired status, are 
entitled to military ID cards. It seems to me to be obscure and 
very hard to get the information on this. You have to have a 
letter from the VA, and they are not always aware that this 
benefit is available or what the person is talking about. And 
then you go to the military service, the ID card lab, and they 
don't quite know what to do with it. We would like to see some 
outreach on that and some clarification.
    Another thing we would like to see some outreach and 
clarification on is the State property tax exemptions. It is 
very difficult to find information about these property tax 
exemptions and reductions. Some of the ladies receive a letter 
from the VA, and they don't even know why they are receiving 
this. It is a VA Form 2. Others can't find anybody that knows 
what they are talking about. It seems to depend on the State. 
Some of these are substantial reductions and very important. It 
seems to depend on the State that the VA is located in. It is 
the Federal VA that is sending these letters out, and then in 
some States they don't even seem to know what it is all about.
    We would also like to see an online newsletter perhaps e-
mailed out specifically to survivors that could include any new 
programs, discuss old benefits. You have a recurring cycle of 
people needing to understand what their benefits are and how 
they obtain them.
    I would like to see an online newsletter on the VA Web site 
e-mailed out encouraging people to forward it. I think that 
would probably reach a whole lot of people.
    I think we have made a whole lot of improvements in 
outreach, and thank you for letting me testify.
    [The prepared statement of Ms. Witt appears on p. 53.]
    Mr. Hall. Thank you very much, Mrs. Witt, and all our 
witnesses.
    I will recognize myself now for 5 minutes or so.
    Director Duckworth, in your testimony you suggested that 
the VA or DoD notify the States when a veteran returns to his 
or her home of record, but the Joint Executive Committee 
reported that it began a State Seamless Transition Initiative 
in 2007, and now 43 States and Territories have asked to be 
notified of returning servicemembers. Is the association aware 
of this initiative and why have not all of the States asked to 
participate?
    Ms. Duckworth. Yes, we are aware. Illinois has signed up 
for it, and we have received seven notices, and that is it. We 
have been told about seven veterans. The way that the procedure 
works, and there are two procedures, one with the VA and one 
with the DoD. When the servicemember leaves the VA and they are 
injured, such as myself, you are then told, Would you like your 
information to be released to your State? You have to actually 
say ``yes'' and fill out a form that gets faxed to the State.
    That is the Seamless Transition Initiative. It is very 
cumbersome, it doesn't happen, and it only applies to those who 
are severely injured, like myself, who are actually some place 
in the VA system upon their discharge.
    Illinois has received seven faxes.
    Mr. Hall. That would be seven out of how many veterans 
returning?
    Ms. Duckworth. Tens of thousands.
    The other aspect is the DD-214. When a servicemember leaves 
active duty, at the very bottom of the form they are given the 
option, would you like this sent to your State. When the 
servicemember takes the time to sign that, we get that. But 
most servicemembers are not told why it is important for them 
to do that, and the additional benefits they will be able to 
find out about. We get about 15 percent of the total number of 
servicemembers. So we do not get the information, and we cannot 
get to the veterans.
    Mr. Hall. The VA and the DoD have worked together with the 
National Guard Bureau to create 57 Transition Assistant 
Advisors in the last 2 years. Feedback on the TAA seems to be 
positive. Why can't these positions be utilized instead of 
creating another grant program for the States?
    Ms. Duckworth. The difference between what happens with the 
National Guard, you are talking about one or two positions at 
the National Guard Bureau. I have 73 service officers, and we 
have all of the county service officers.
    The difference is we will go to someone's home and sit at 
their kitchen table. I have sent my service officers into 
hospital rooms for Vietnam veterans dying from leukemia from 
Agent Orange to fill out forms so that the survivor, his wife, 
will get the benefits. That is the difference.
    These folks are dealing with so many people they cannot 
provide that personalized service that we can from the State 
level and the county level. We actually will go and follow up 
and keep calling you until you get the benefits that you 
deserve. And we are federally certified.
    Mr. Hall. Thank you for that explanation and for the work 
that you do.
    Ms. McMartin, you mentioned a proposed partnership between 
your organization and VA and DoD. What has been the response 
from the Departments to this proposal?
    Ms. McMartin. Basically what we have gotten, several of our 
service organizations are also certified. We have gone through 
the accreditation process, the TRIP training. We actually have 
access to virtual VA on a pilot program so we can get into the 
computer system to know. So we have had some good positive. It 
is only a pilot program, it is not out to all of our members.
    They don't recognize us as an arm of Government. We still 
have to do power of attorneys (POAs) and we still have to do 
all of the steps to make sure that we can get the benefits for 
the veterans. The veteran can't sign a release and we can't 
assist the veteran without that power of attorney that is 
necessary.
    But we are out there with the veteran trying to help them, 
and we still have another barrier that is very difficult to get 
through. We have to call the 800 number just like every veteran 
to get the information.
    So when the veteran comes in and he is 80 years old and we 
are trying to call an 800 number for them, we are still bound 
by the same unfortunate problems that they have. Virtual VA has 
helped that. We can go in and access the information if the 
file has already been generated or information is already in.
    But a new claim that is just processing and going through, 
it is difficult to get the discharge from the State office. We 
have to call them. If they don't have it, we send down to St. 
Louis to try to get their DD-214s. Older veterans are being 
billed to get a copy of their DD-214. We received a copy. We 
sent down to St. Louis to get a copy of his DD-214 for an 80-
year-old veteran. He received a statement stating he had to pay 
$15 to get that because it has been archived. So that is a 
barrier.
    Mr. Hall. That is a shame and a mistake that perhaps we can 
do something about.
    Rural veterans have been a concern of this Subcommittee for 
some time, and although most people might not think of New York 
State as rural, I know that we do have sections of the State 
that are, and where we have a challenge in reaching all of our 
veterans. I am curious what are some of the outreach tools the 
counties have found to be effective to inform rural veterans 
about their benefits?
    Ms. McMartin. Well, you are talking to a good person. I 
live in Iowa in a rural community. I have a population of 200 
people that live in my community where I live. We are 50 to 60 
miles from the closest VA facility. My county is 45 miles long, 
so what we have done is I have an outreach office out in the 
rural part of my community so the veterans can come into that 
office 1 day out of the week.
    I also do outreach to nursing facilities. We have seven 
nursing facilities in our community, and we contact those 
facilities on a daily basis as to new admits, new discharges, 
to make sure that every widow and veteran that is going into a 
nursing facility or an assisted-living facility is given a 
call, a letter, contacting the family member to apply for those 
benefits.
    We assist with supermarkets of veterans benefits out in a 
lot of our areas to make sure that certain populations of 
veterans can go in. We go where the veterans live. If a veteran 
calls, we go out to that community.
    You were talking about the National Guard. They have that 
one individual. Well, we have 99 individuals that can help. We 
live with those veterans. We know them. They are our neighbors. 
We know when somebody gets sick. They call me at home when 
someone in our community is ill and needs to use a VA facility. 
We partner and work together. We know the resources.
    That is the other thing. We know what other resources are 
out there in the communities. We know what the Department of 
Health and Human Services offers and what Community Action 
Agency offers. Those partnerships in doing outreach with those, 
we go to those meetings and we go to the service organization 
meetings. That is what local community advocacy is all about. 
We can sit down with that veteran across the table at their 
table, at their convenience, not at ours, and we are accessible 
to them.
    Mr. Hall. Thank you. And thank you for the work that you 
are doing.
    Mr. Jones, you make an interesting comparison to the 
healthcare outreach efforts conducted by VHA, and pointed out 
the horribly misguided steps some VA employees took to try to 
limit services when the system became overloaded. What does 
NAUS see as the lesson learned from the VHA outreach 
experience, and how can the VBA be better positioned to respond 
to an increase in workload demand?
    Mr. Jones. One might ascribe VA's change in attitude as 
simply a change in attitude, but that might not reach the real 
reason for VA's changed approach toward outreach. It might 
really be more a factor of a successful lawsuit brought against 
the VA some years ago, and that lawsuit was initiated on two 
fronts, one by a former Member of Congress, currently Governor 
of Ohio, Ted Strickland, and also a sister organization of 
ours, the Vietnam Veterans of America brought lawsuit following 
that memo I spoke of in testimony. They were successful in that 
suit and the court ordered VA to begin this outreach.
    So what might be learned is that veterans need always to be 
on guard for the rights and privileges and entitlements they 
earned while defending this country. And that advocacy groups 
in this State of affairs need always to be on the alert as well 
to guard against any retreat of these benefits due to a loss of 
funds or a lessening of priority.
    I think that is the lesson to be learned. Advocacy groups 
play an important role, and serve an important role with 
Members of Congress who champion veterans issues and understand 
that the freedoms we have today are directly a result of 
service given by generations of Americans.
    Mr. Hall. Thank you, Mr. Jones. I am going to ask one 
question of Mrs. Witt before turning it over to the Ranking 
Member, Mr. Lamborn, for his questions.
    I am interested in your suggestion for a VA survivor 
newsletter. Has the Gold Star Wives made that suggestion to VA 
previously?
    Ms. Witt. No, they have not made it to the VA previously.
    Mr. Hall. Do you have any idea how far into the survivor 
community an electronic or e-mail newsletter would work? In 
some of the meetings I have had with veterans in my district, 
some of the older veterans or survivors of veterans are not as 
computer literate or don't have a computer that they have 
access to.
    Ms. Witt. I think it would go pretty deeply into our GSW 
community, and they tend to pass it on to other survivor 
communities.
    Many, many of our ladies can receive e-mail. Some of them 
can't respond to it, but they can receive it. And they tend to 
share the information by telephone. So I think it would 
penetrate very well.
    Mr. Hall. Good, and I am glad to hear that. Of course they 
can print it out and pass it on in printed form, and maybe the 
Web site could suggest that. If you know someone who doesn't 
have a computer and needs this information, please print it out 
and pass it on.
    I recognize the Ranking Member, Mr. Lamborn.
    Mr. Lamborn. Ms. Duckworth, and thank you and all of you 
for testifying today.
    How much do your current veterans service officers spend on 
outreach?
    Ms. Duckworth. It is their everyday job, sir. We actually 
have itinerant offices. In each of our 51 field offices, we man 
office hours. But all of our service officers spend at least 
some part of every day going to a community, visiting people's 
homes, or actually holding similar things, benefit fairs. We 
are everywhere.
    That is the benefit of going down to the State and county 
level, is, as I said before, we are force multiplier and we 
know about their State benefits. We are part of those 
communities. We are not being resourced by the Federal VA. They 
are not giving us information we need so we can conduct the 
outreach. We do outreach on a mass basis, but we can't actually 
pick up the phone and call a recently discharged soldier 
because we don't know that he has come home. Nobody tells us. 
The DoD just gives him a plane ticket home, and nobody tells us 
that he has come home.
    The first call should not be when the State police calls me 
and says I have one of yours. He has a DUI. Or when a sister 
agency, a homeless shelter calls me and says, hey, we have a 
guy. We can't do the person-to-person outreach, which we want 
to do and can do.
    Mr. Lamborn. Kind of a followup, if additional funding was 
provided to States for veteran outreach, how would the States 
use this funding and what type of outreach would they provide 
to veterans that the VA is not currently doing?
    Ms. Duckworth. Definitely more staff so we can do more in-
home visits and hospital visits, actually getting out into 
people's homes, especially with the case of the younger 
veterans, sir. Many of them do not think that they need these 
benefits or don't know about them, and so they don't initiate.
    The way the system works now, if they initiate and contact 
us, then we can tell them about the benefits. But if they don't 
know about them, we can't help them. If they don't apply, we 
can't help them. So additional funding would actually allow us 
to visit the veterans, pick up the phone and call them. It 
would allow us to go into their homes and get even deeper into 
the community and follow up on a repeated basis.
    Even though we have 73 service officers, it is still not 
enough when I have 1.2 million veterans.
    Mr. Lamborn. They are doing that right now?
    Ms. Duckworth. We are doing that to the best of our 
ability.
    Mr. Lamborn. So it would be more quantity, but not any 
qualitative difference?
    Ms. Duckworth. The quality would be more one on one, 
actually going into their homes. Right now we run offices and 
visit homes when we get the request. But this would actually 
allow us to penetrate even deeper and do more of the bringing 
ourselves more into the local communities than just the offices 
in that community.
    Mr. Lamborn. Ms. McMartin, if additional funding was 
provided to counties for veterans outreach, how would they use 
that funding and what would they do differently compared to 
what the VA is doing now?
    Ms. McMartin. Currently now a lot of our counties have 
limited budgets. Word of mouth is our outreach. We go to the 
service organization meetings and do those. The funding that we 
would get to do outreach would be to have, to host more veteran 
fairs, host more PSA news releases, news articles, the funding 
that the counties can't afford to do at this point in time.
    In my local community if I got a grant, $1 per veteran, I 
can send out flyers on a monthly basis to the veterans in the 
community.
    We can host different programs that are at nursing 
facilities. We do these things, but we can do these with 
funding. Right now we are doing them on such bare bone funds 
that our funds are paying for the staff. It is not for a 
billboard. It is not for PSAs. Those things when we get funds 
coming in from an organization or donated, then we can do those 
outreach efforts.
    But right now the counties don't need to--like you said, 
quantity, we need quality. We need quality outreach efforts. 
Plus we need the referrals from the VA. If we don't get the 
referrals from the VA, piggybacking on them. If we can get a 
DD-214 that knows that veteran is coming home, we can send him 
a welcome-home letter.
    It is so disheartening to have a veteran come into my 
office and say I didn't know you were here. We do news 
releases. We do those things that our newspapers give, but it 
is disheartening to not get that information out into the 
community. And we would try and get as much information out 
there as we possibly can.
    If the VA has this money now to do outreach, the referral 
down to the local level is very important. Just putting out an 
800 number is not outreach. Putting out a flyer saying you are 
eligible, you have got to know where to go to get the 
assistance. And telling them that they can go to the State or 
local offices, that is very important.
    Mr. Lamborn. With the permission of the Chairman, one more 
question.
    Along those lines, how much time do county veterans service 
officers spend on outreach right now, and what types of 
outreach do they provide currently?
    Ms. McMartin. Right now we spend, like she said, it is our 
day-to-day job. When they don't walk in, we seek them out. We 
try to find a way of doing that.
    In Iowa, our Governor just passed a bill to mandate 20 
hours a week in every county employee. No matter if they have a 
thousand or 500 veterans, a minimum of 20 hours, and it is 
based on population. So outreach is very important.
    What we do on a day-to-day basis is outreach. It is calling 
different organizations, finding out what services that we can 
provide, sending out flyers or putting up things in newspapers 
or going to the local libraries to tell them that we are 
available and ready.
    We don't have time to go out to every organization meeting, 
but we could. I mean, with additional funding to assist with 
that, then we could go out and just meet the veterans when they 
come home. The active-duty soldier that comes back to my local 
community I don't know until they need us. They don't 
automatically come into the office.
    If DoD would say you need to go see a local county service 
officer and there was one available in every county, that would 
help.
    Record their DD-214. We get referrals on a database. The 
recorder sends them over to our office to see if they might be 
eligible for benefits. That also piggybacks on military tax 
exemption to make sure that they apply for all benefits that 
they are entitled to.
    Mr. Lamborn. Thank you for your answer, and I thank you all 
again for testifying today.
    Mr. Hall. I have a couple of quick questions.
    Director Duckworth, what would you think of having more VA 
benefits counselors located throughout the State, such as co-
located in Community-Based Outpatient Clinics, or CBOCs, or at 
Vet Centers, for example? And in addition to that, what would 
you think of extended hours or weekend hours like a Medical 
Center at such places?
    Ms. Duckworth. I think that is good, sir, but the problem 
with the VA representative is that they do not know about the 
State benefits, and there are so many State benefits.
    Illinois has a $350,000 mortgage loan program, as an 
example, for each veteran of OEF/OIF. We give you 20 percent, 
zero percent interest, and the other 80 percent is the lowest 
rate, and we give a grant for the closing cost. The Federal VA 
rep does not know about that.
    There may be grants at the county level. We know about 
them. I think it is great and we certainly need more and 
extended hours. But on top of that, we need representation at 
the State and municipal level.
    Mr. Hall. What we need is to connect the Federal, the 
State, and the county levels?
    Ms. Duckworth. Yes, sir.
    Mr. Hall. So if there are links electronically or by mail 
to let people know through whatever media.
    Mrs. Witt, do you think it would be beneficial if the VA 
processed all survivor claims at one location rather than at 
all of the 57 regional offices so there can be specialized 
training for those types of claims?
    Ms. Witt. Yes, sir, that is in writing that we would like 
to see a survivor's office that also processed claims and that 
could then expedite the routine claims.
    Mr. Hall. Thank you very much.
    Anything else, Mr. Lamborn?
    Mr. Lamborn. I have one final question I would like to ask 
Mrs. Witt.
    When you talked to the VBA about the need for a survivor's 
office, what was their response?
    Ms. Witt. It requires Congressional action, basically.
    Mr. Lamborn. Thank you.
    Mr. Hall. Thank you, Mr. Lamborn.
    I thank all of our witnesses on panel one. You have been 
most helpful. You are now excused, and we are going to ask, as 
the guard changes, our second panel to join us, which includes 
Mr. Kerry Baker, Associate National Legislative Director of 
Disabled American Veterans (DAV); Mr. Jacob B. Gadd, Assistant 
Director for Management, National Veterans Affairs and 
Rehabilitation Commission for the American Legion; and Kate 
Emanuel, Senior Vice President of Non-Profit and Government 
Affairs at The Advertising Counsel (The Ad Council).
    Welcome to our panelists. I remind you that your written 
statements are already entered into the record so you can feel 
free to summarize them and that will leave time for questions.
    Mr. Baker, we will start with you. You are recognized for 5 
minutes.

   STATEMENTS OF KERRY BAKER, ASSOCIATE NATIONAL LEGISLATIVE 
DIRECTOR, DISABLED AMERICAN VETERANS; JACOB B. GADD, ASSISTANT 
   DIRECTOR, VETERANS AFFAIRS AND REHABILITATION COMMISSION, 
 AMERICAN LEGION; AND KATE EMANUEL, SENIOR VICE PRESIDENT, NON-
     PROFIT AND GOVERNMENT AFFAIRS, THE ADVERTISING COUNCIL

                    STATEMENT OF KERRY BAKER

    Mr. Baker. Thank you, Mr. Chairman and Ranking Member. We 
appreciate your invitation to testify today.
    The VA has proven successful in ensuring that new veterans 
receive outreach that truly sets high standards. As some of its 
initiatives pertaining to OEF/OIF veterans, VA has reduced 
claim processing time to an average of 110 days, hired 100 new 
outreach coordinators specifically for new veterans, now 
employs its own casualty assistance officers, and has entered 
in a joint VA/DoD effort to ensure VA is notified of members 
referred to the Physical Evaluation Board followed by a VA-
initiated contact to all those who have not yet applied for 
benefits.
    There are also numerous other ongoing outreach efforts that 
target new veterans, such as transition and disabled transition 
assistance programs, the Veterans Assistance at Discharge 
Program, the Benefits Delivery at Discharge Program, and the 
Coming Home to Work Program.
    In addition to the foregoing, VA recently announced that 
beginning in May 2008, it would begin contacting nearly 570,000 
veterans by telephone to ensure they know about VA benefits.
    These efforts are unprecedented. It is uncertain, but they 
may be in part the result of the Veterans Benefits Improvement 
Act of 2004 or Public Law 108-454.
    This Public Law required the Secretary to submit a report 
to Congress setting forth a detailed description of: (1) VA's 
outreach efforts to inform veterans of the current benefits to 
which they are entitled; and (2) the current level of awareness 
of such benefits.
    Congress required this report to include the following: (1) 
a description of VA's outreach activities; (2) the result of a 
national survey of veterans to determine their level of 
awareness of benefits and whether they know how to access those 
benefits; and (3) recommendations on how to improve those 
outreach and awareness activities.
    The VA was required to include in the survey a valid sample 
of veterans from the following groups: World War II, Korean 
conflict era, Vietnam era, Persian Gulf era, and family members 
and survivors as well as other groups.
    In response, VA published a report in December 2006. VA 
claimed that its report complied with the first and third 
requirement of the Public Law. However, VA failed to comply 
with the second requirement of reporting to Congress the 
results on a national survey to determine the level of 
awareness of benefits.
    To address this deficiency, the report indicated that VA is 
planning to develop awareness measures in the next national 
survey scheduled for 2008, which is 4 years after the law's 
enactment and 3 years after the deadline given by Congress. VA 
simply determined that the data on hand at the time did not 
comply with the Congress' mandate. Moreover, VA could not have 
complied with the third requirement that it recommend how to 
improve outreach activities before it was able to understand 
the true results of the second requirement. Nonetheless, the 
DAV commends VA's outreach efforts for the newest generation, 
but we can and do condemn the VA for ignoring all other groups.
    Congress made clear in the 2004 legislation its intention 
for VA to locate and reach out to older groups and younger 
groups, and we commend it for such. In turn, VA failed to honor 
Congress' mandate and is poised to continue such failure. We 
believe that outreach efforts should be uniformly distributed 
across the veteran population, which includes the newest 
generation, the greatest generation and everyone in between. 
The reasons for this are obvious. Approximately 10 percent of 
World War II veterans, 5 percent of Korean war veterans, and 12 
percent of Vietnam war veterans are service connected for 
disabilities incurred during their military service. Yet by the 
end of 2007, over 25 percent of discharged OEF/OIF veterans 
were receiving benefits for service-connected disabilities.
    These figures do not show that the new veterans are 
disabled at more than twice the rate of older veterans, but 
that they are receiving benefits over twice the rate, five 
times the rate of Korean War veterans. However, do not 
interpret DAV's position as disagreeing with enhanced outreach 
for the Nation's newest veterans. Rather, we feel the degree of 
outreach to the newest veterans in comparison to the outreach 
offered the oldest veterans is very lopsided.
    World War II veterans are still receiving benefits by the 
tens of thousands for the first time in their entire lives. The 
same group is dying at a thousand per day. Many have and will 
continue to die without ever receiving the benefits they have 
earned, not because VA refuses to grant such, but because they 
simply never knew they were entitled to the benefits.
    Many lessons have been learned through past mistakes and 
older veterans have paid a high price for that knowledge. With 
respect to outreach, we left those older veterans behind. Now 
in a rush not to repeat those mistakes with the newest 
generation, we are leaving them behind once again.
    That concludes my statement, and I will be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Baker appears on p. 55.]
    Mr. Hall. Thank you, Mr. Baker. And Mr. Gadd, you are now 
recognized for 5 minutes.

                   STATEMENT OF JACOB B. GADD

    Mr. Gadd. Thank you, Mr. Chairman and Members of the 
Subcommittee. Thank you for this opportunity to present the 
American Legion's view on the effectiveness of VBA outreach 
efforts. The American Legion commends the Subcommittee for 
holding a hearing to discuss the importance of benefit outreach 
to veterans.
    VA in the last several years has improved its outreach 
efforts, especially its efforts to reach and inform active-duty 
servicemembers preparing to leave the military. The American 
Legion remains concerned, however, that many transitioning OEF 
and OIF veterans are not being adequately advised of the 
benefits and services available to them from VA and other 
Federal and State agencies.
    This is especially true of Reserve and National Guard units 
that are often demobilized in hometown reserve centers and 
National Guard armories rather than active-duty demobilization 
centers.
    VA and DoD have made strides toward improved outreach. The 
number of TAP programs and other military service briefings 
conducted by VBA has suddenly increased since 2003, as has the 
number of servicemembers attending the briefings.
    Unfortunately, VA's efforts regarding TAP are hampered by 
the fact that only one of the services, the Marine Corps, 
requires that separating servicemembers attend these briefings. 
This flaw in the system did not escape the Veterans Disability 
Benefits Commission and resulted in the recommendation that 
Congress mandate TAP briefings and attendance throughout DoD.
    The American Legion strongly agrees with this 
recommendation as well. In order for all separating 
servicemembers to be properly advised of all their benefits, it 
is crucial that Congress adequately fund and mandate both TAP 
availability and attendance in all of the military services.
    VA also affords separating servicemembers the opportunity 
to start the disability claims process, at least 6 months prior 
to separation from active duty, through its Benefits Delivery 
at Discharge Program. Unfortunately, this program is not 
available to all separating servicemembers, and it is only at 
140 military installation. Necessary measures, including 
adequate funding, should be taken to ensure that all separating 
servicemembers, including members of the National Guard and 
Reserve, have the opportunity to participate in the BDD process 
if they so desire.
    An overall weakness in VA's outreach program is that its 
efforts to target veterans already in the VA system. Oftentimes 
various mailings discussing changes in law, new benefit 
entitlements and other pressing issues are only sent to 
individuals currently receiving those benefits, or those that 
are participating in one of VA's registry programs, such as 
Gulf War or Agent Orange.
    Unfortunately, this method drastically limits the number of 
veterans reached since many are not currently receiving VA 
benefits or being treated at a VA medical facility. In fact, 
there are many veterans that have never even applied for VA 
benefits. These are the veterans who fall through the cracks, 
especially when it comes to being advised to changes in the law 
or a regulation.
    For example, it is not unusual for American Legion service 
officers to encounter in-country Vietnam veterans diagnosed 
with Type II diabetes that were not aware they were eligible to 
receive disability compensation and free VA healthcare for 
their condition despite the fact that the disability was 
recognized as an Agent Orange presumptive disability 7 years 
ago.
    In most, if not all of these cases, the veteran was not 
currently in the VA system. It is very apparent that VA needs 
to expand its outreaches to reach these veterans. Some of the 
American Legion outreach programs are conducted by department 
service officers who have specialized training and experience 
with VA regulations and are familiar with the many VA programs 
and services.
    Heroes to Hometowns Program. In an effort to increase 
cooperation between DoD and the American people, the American 
Legion entered a Memorandum of Understanding (MOU) with the 
Secretary of Defense's Office of Military Community and Family 
Policy to assist in outreach and assistance efforts to 
transitioning severely injured servicemembers.
    Heroes to Hometowns is a program that focuses on 
reintegration back into the community with networks established 
at the National and State levels to better identify the 
extraordinary needs of returning servicemembers and families.
    In 2007, the Heroes to Hometowns Program expanded its 
vision to the National Guard and Reserve components. This hard 
to reach population lives in rural America, disconnected from 
the traditional services provided by DoD or VA. The American 
Legion, with its 2.7 million members and 14,000 posts, reaches 
into these communities to convey strong support for America's 
military personnel. With the Heroes to Hometowns Program, the 
American Legion reaches out to provide support long after the 
deployment is over.
    Thank you again, Mr. Chairman, for allowing the American 
Legion to present comments on these important matters. As 
always, the American Legion welcomes the opportunity to work 
closely with you and your colleagues to reach solutions to an 
array of problems discussed here today.
    Thank you.
    [The prepared statement of Mr. Gadd appears on p. 60.]
    Mr. Hall. Thank you, Mr. Gadd. Thank you for your service. 
And now we will recognize Ms. Emanuel for 5 minutes.

                   STATEMENT OF KATE EMANUEL

    Ms. Emanuel. Thank you, Mr. Chairman, and thank you for 
asking the Ad Council to testify today. We have a long and 
proud history of working with the Federal Government.
    As the Chairman alluded to, we were founded in 1942 when 
President Roosevelt asked the leading ad execs of the day to 
help with World War II efforts. We created campaigns such as 
Buy War Bonds, Rosie the Riveter, and Loose Lips Sink Ships. 
And 65 years later we are still tackling the country's most 
pressing social issues and remain the Nation's leader of public 
service announcements (PSAs).
    We represent a unique collaboration between the advertising 
and media companies. Ad agencies throughout the country lend us 
their top creative teams pro bono, and media donate their time 
and space to our PSAs to deliver our messages to the public.
    Presently we have about 22 campaigns with the Federal 
Government that represents 50 percent of our docket. We work 
with many Federal departments and agencies, including the U.S. 
Departments of Transportation, Agriculture, Homeland Security, 
Justice, Energy, Treasury, Health and Human Services (HHS), the 
Environmental Protection Agency, and the Library of Congress. 
We address a host of social issues with these Federal partners, 
obesity prevention, gun violence, energy efficiency and 
financial literacy, just to name a few.
    While most of our campaigns tend to raise awareness or 
change behaviors, we do have some prior campaigns on Federal 
benefits. In 2003, we partnered with the National Women Infants 
and Children (WIC) Association to generate awareness of the WIC 
Program. We also partnered with HHS on a campaign to raise 
awareness on the State Children's Health Insurance Plan (SCHIP) 
program in the 1990s.
    Whether it is promoting awareness about a social issue or a 
Federal benefit, the Ad Council recommends the following best 
practices for creating successful campaigns. One--know your 
audience. This is one of the golden rules of advertising and 
PSAs are no exception. This entails gathering existing 
information about your target audience, conducting focus 
groups, and figuring out what they think about the issue.
    Also, a good PSA should stick to one target audience, don't 
try to be all things to all people.
    Two, know the PSA proposition. A good PSA is one that takes 
a complex issue and drills it down to an individual action that 
is achievable. There are lots of important social issues out 
there, but not all of them lend themselves to a PSA campaign.
    Three, stick to one idea. An effective PSA, whether it is a 
TV spot, newspaper ad or billboard, should say one thing. Your 
message has to have a laser focus. This is perhaps the hardest 
thing for many of our nonprofit and Federal Government sponsors 
to embrace.
    Four, let your Web site do the heavy lifting. All PSAs 
should have a concise and easy to remember uniform resource 
locators (URLs) that links to a Web site that is easy to 
navigate and entertaining yet constructive. At the same time, 
the Web site should keep to the campaign's message and not 
overwhelm the user.
    Typically we create separate campaign Web sites for our 
Federal Government partners so that the public is directed to a 
very user friendly Web site. In my written testimony, I have 
submitted samples of our home pages of several of our Federal 
Government campaigns.
    Beyond Web sites, it is also really important to have 
multiple fulfillment sources, such as a 1-800 number, materials 
and brochures. I just want to add too, just listening to the 
prior testimony, having a very strong and credible fulfillment 
is very important. If services aren't there through a 1-800 
number or if people can't really explain the process, national 
PSAs aren't really going to do you any help and maybe frustrate 
people even more.
    Five, strive for creative excellence. We can all recall a 
TV ad or PSA that was poignant or powerful or funny. It can 
really strike a cord and motivate people to do something. It 
will also motivate your average PSA director or radio station 
to run your PSA.
    Six, think long term. It is not surprising that the Ad 
Council's most effective campaigns are our longest running-- 
Smokey Bear, McGruff the Crime Dog, Friends Don't Let Friends 
Drive Drunk. In our experience, PSA effort should be at least 
three years in duration to truly make a difference.
    Seven, venture outside the PSA box. In today's cluttered 
media environment, PSAs must be part of an integrated 
comprehensive program that relies on public relations, grass 
roots marketing, community events and cause marketing. You have 
to think beyond the 30-second TV PSA.
    One last tip is to establish clear metrics for success. No 
matter how clever a PSA is, it needs to work. That is, you need 
to motivate people to do something or think differently. 
Therefore, you should establish clear metrics to evaluate your 
efforts such as tracking donated media, tracking visits to the 
Web site, and tracking attitudinal shifts among your target 
audience. That is what we do for all of our campaigns.
    Lastly, one campaign I would like to briefly mention today 
is in an effort we are doing in partnership with the Iraq and 
Afghanistan Veterans of America ((IAVA). As you may be aware, 
IAVA is the Nation's first and largest group dedicated to the 
troops and vets in these two wars. The goal of the campaign is 
to decrease the depression and PTSD-related outcomes among 
returning vets. A separate and complimentary effort will create 
overall support for vets among the general public.
    As this Subcommittee well knows, as many as 50 percent of 
the 1.64 million vets returning from Iraq and Afghanistan will 
struggle with serious mental health issues, and unfortunately 
many of them not getting treatment, and many don't seek help 
because of stigma or isolation.
    So, in addition to the PSAs we created, we are also 
creating a very comprehensive Web site with links to resources 
and an online community exclusively for these vets. The on-line 
community will allow them to simply listen in and share their 
experiences in a judgment-free environment. Topics discussed 
may include jobs, reconnecting with family, PTSD benefits and 
more.
    As we develop this Web site, we would welcome any guidance 
from the VA. We would be very open to working with them to 
jointly raise awareness to the benefits and services the VBA 
provides.
    Thank you again for asking us to be here today. I am happy 
to provide additional expertise as the Subcommittee looks at 
this issue..
    [The prepared statement of Ms. Emanuel appears on p. 63.]
    Mr. Hall. Thank you very much, all three of our panelists.
    I would start out by asking Mr. Baker, in your testimony 
the DAV provided a recap of VBA's requirements to report 
outreach efforts which they have not sufficiently done. What 
other steps should we in Congress take to ensure more 
consistent and detailed reporting?
    Mr. Baker. Well, I believe the law that was passed in 2004 
is a very good one. How you could provide oversight to VA to 
ensure they actually comply with that, I am not sure of your 
oversight abilities. But that law required VA to conduct a 
study of all veterans from World War II up to the present, 
including survivors, and gauge their knowledge of benefits.
    Now as I stated in my testimony, they concluded that they 
come forth with ideas on how to improve those outreach 
activities. I don't see how they could have done that if they 
didn't do the second requirement.
    Congress went a little further in 2006 when it passed 
another similar law that required VA to put out a plan of 
exactly what it was going to do to reach out to those veterans. 
That plan was due in 2007, October 1st, 2007. To my knowledge, 
that has not been completed either. And that is in my written 
testimony.
    So potentially some oversight hearings as to why these 
things have not been done, I believe Congress took the right 
steps and the right directions to ensure that the outreach that 
we want for all of our veterans were done. I can't tell you why 
VA has not complied with those. Maybe they can. But I believe 
some outreach activities to find out, or oversight activities 
to find out exactly how and why they are going to comply could 
be a good starting point for the Committee.
    Mr. Hall. Thank you. You also pointed out that VBA has not 
done a good job in reaching out to previous generations of 
veterans. DAV has a lot of experience in outreach with its 
program and outreach plans. What do you suggest VA do to reach 
different generations of veterans and other minority groups?
    Mr. Baker. Well, I can tell you some of the things that DAV 
does. We get assistance from the VA to do some of these things. 
We have mobile service offices that are basically two-person 
vans that are pretty large rolling offices. We have numerous of 
these throughout the country. I was in the field when this 
program got rolled out for the first time. And we would get 
names and addresses from VA, and we would tell them which zip 
codes we are going to be in. And we would get addresses from 
those individuals from the VA. And we would send a letter out 
to every single one that was identified as a veteran or 
survivor in those zip codes and we would advertise that that 
rolling service office was going to be at a specific location.
    I remember one of the first times I took it out, I had 
about 70 some people show up in one day, almost more than one 
or two people can handle. And a lot of these people were World 
War II veterans, Korean war veterans. And they never knew about 
VA benefits or they didn't know what they were entitled to. 
They were filing claims for the first time. And this is not a 
very difficult procedure.
    Now I don't know exactly how VA obtains that information, 
but they have had it. It may be a mix of DoD and VA 
information. I can certainly find out for you if you would 
like. But that is one place to start. They have a lot of 
contact information. It is just a matter of sending out 
material to let these people know what they might be entitled 
to and where to go to go get that.
    Mr. Hall. Thank you. This question could be for both DAV 
and the American Legion. Mr. Gadd, the Subcommittee staff 
noticed there was very inconsistent information about VA 
benefits on several of the VSO home pages, and that they often 
did not link directly to the VA with the exception of the 
Veterans of Foreign Wars of the United States, who did a 
commendable job of creating resources and links. I see this, 
however, as primarily VA's responsibility. If the VA gave you 
Web materials and links, would your organizations use them?
    Mr. Baker. Absolutely. If VA gave them to us?
    Mr. Hall. Yes.
    Mr. Baker. We would certainly use them.
    Mr. Hall. I assume the Legion also?
    Mr. Gadd. Yes, sir.
    Mr. Hall. Mr. Gadd, it sounds like the Heroes to Hometowns 
Program enjoys a positive relationship with DoD and the States, 
and it has just begun a pilot program with VA. Why has VA's 
involvement only just begun and why is it on such a limited 
basis?
    Mr. Gadd. Great question. Recently we decided that with 
Heroes to Hometowns, since it is a community program and VA is 
in that community, that the transitioning servicemembers were 
going back to their communities and by utilizing VA in their 
hospital to access veterans and see who needs assistance as far 
as personal--you know, with transportation, other services that 
VA doesn't provide, by having someone from Heroes to Hometowns 
in the hospital it is a win-win for the VA and also for our 
program because VA can't solicit donations or community support 
because it is a Federal agency. Whereas, our robust volunteer 
program was able to realize that we can look in the community 
and pinpoint those resources that the veteran needs with the 
community resources.
    Mr. Hall. Good. Thank you. About the Heroes to Hometowns 
Program, do you know about how many disabled veterans have been 
assisted since the program began and what type of services they 
have needed? And what is your referral percentage to VA?
    Mr. Gadd. Sir, I don't have those statistics with me, but I 
know we have helped out over 5,000. It varies so much by State.
    Just recently, as of last week, I found out that there was 
a veteran who just got back home from Iraq and he had spent 18 
months at Walter Reed. And while he was there, his basement 
flooded in his home back in Cleveland. And with our resources 
and the Heroes to Hometowns Program, this servicemember was 
able to be given $8,000 in one week from community resources to 
fix his home. And this is just an example of how different each 
of those requests are. They don't really come through VA.
    We have our flyer that we pass out at military treatment 
facilities. We also have a very good Web site. So those are 
some of the different ways that we outreach to them.
    Mr. Hall. And very laudable ones. That sounds like great 
work.
    Based on your experience with outreach, which VA efforts 
would you say are the most successful? Outreach efforts, which 
ones would you say are the best?
    Mr. Gadd. The American Legion just started supporting the 
VA Welcome Home celebrations. That was a big improvement that 
we noticed. It started here at the DC VA Medical Center. We 
supported it last year and will again this year on June 14th. 
It is a great event to bring in veterans in the catchment area 
of each VA Medical Center. It has been mandated that each VA 
Medical Center have a welcome home for every OEF/OIF veteran. 
It gives an opportunity for those veterans coming back and 
their family members to understand their benefits. That is one 
of the newest things that we support.
    Mr. Hall. Thank you.
    Mr. Gadd. And certainly recognize.
    Mr. Hall. I agree. That is very promising.
    Ms. Emanuel, the Ad Council has had an impressive 60-year 
history while finding new ways to communicate proactive and 
timely messages to the American people on behalf of our 
Government. Can you briefly tell me what is the Ad Council's 
process in working with Federal agencies? Do you approach them 
or do they approach you?
    Ms. Emanuel. Both.
    Mr. Hall. Has VA ever asked you for your assistance in 
educating veterans about benefits or services?
    Ms. Emanuel. No.
    Mr. Hall. Have they assisted with the IAVA mental health 
outreach project that you were talking about?
    Ms. Emanuel. Not yet, but I know that IAVA had a very good 
meeting with the VA about 2 weeks ago and they left that 
meeting with an agreement to work together and see about 
possible collaborations.
    Mr. Hall. That is good. The number of volunteer 
organizations and free media that you work with are impressive 
and commendable. And I, from my previous life, know a little 
bit about advertising and radio and TV and the power that it 
wields. You did mention hard costs. Can you explain that more 
and who incurs those costs?
    Ms. Emanuel. Sure, the sponsoring organization incurs those 
costs, so the Federal Government or a nonprofit sponsor. So 
while the ad agencies donate their creative services pro bono, 
there are certain hard costs to develop a PSA campaign such as 
TV production, radio production, and distribution. We send out 
Beta tapes to 28,000 media outlets throughout the country. It 
pays for tracking the media where it is played and it pays for 
any travel for the ad agency. It is mostly the production and 
the tracking, the hard costs.
    Mr. Hall. Do you find that the PSAs that the Ad Council 
produces are played during broadcasts on TV or radio at good 
times or what you consider to be high viewership times or do 
they get shunted off into the middle of the night when they can 
count toward the licensee's requirements to play them without 
interfering with their income?
    Ms. Emanuel. That is a great question. Actually there is no 
real requirement for stations to play PSAs. In the '70s it was 
deregulated. But what we found, we look at this really 
closely--we monitor all our PSAs. And globally what we have 
found is about 60 to 75 percent of our PSAs play in favorable 
day parts so they are not at that 12:00 midnight to 5:00 a.m. 
time slot. They are actually playing in very, good times.
    Mr. Hall. Prime time?
    Ms. Emanuel. It is not prime time necessarily. It depends 
on the media. We get a lot more support from radio versus TV, 
there are just more radio stations--it is cheaper for them to 
donate their air time. We have been very pleased. You have to 
do it right. I think you have to have the right components and 
appeal to stations. They want to do what is right and they 
would want to run something that they think is appropriate and 
match it with a demographic, too. So if it is a kid targeted 
message we really try and target for example Nickelodeon.
    Mr. Hall. Right. I am just wondering if the service time on 
the Super Bowl for instance to advertise, you know, ``Be All 
You Can Be or the Marine The Strong and Proud,'' the lightning 
bolts, the images that are manly and you see during the 
National Collegiate Athletic Association (NCAA) playoffs. I am 
sure that they are buying, I would guess, this time?
    Ms. Emanuel. Absolutely.
    Mr. Hall. You talk about prime income generating time for 
the networks or cable channels. Is it realistic to expect that 
they will play a PSA during those types of events?
    Ms. Emanuel. Probably not, but I know that the Kaiser 
Foundation has a very prominent campaign on HIV/AIDS awareness 
with Viacom, and they got a spot donated during American Idol. 
So it just depends on your relationship with the media.
    We have a campaign with HHS on preventive health. It is to 
get older men to go to their doctor. We did a partnership with 
ESPN to play those spots during ESPN's prime time. So it 
depends on your relationships with the media basically.
    Mr. Hall. Well, that is good. Maybe we need to have a 
better relationship. Maybe the Committee should ask some of the 
broadcast company executives to come in here and talk to them 
about a patriotic gift of broadcast time for these PSAs.
    Ms. Emanuel. Sure.
    Mr. Hall. In describing the PSA proposition, you noted that 
some issues don't work well with PSAs. Do you think a message 
about veterans benefits would work?
    Ms. Emanuel. Absolutely, I think that is a very PSA-able 
proposition. You are trying to raise awareness about a specific 
benefit. I think the challenge here would be it might not lend 
itself to a donated media model. We rely strictly on donated 
media. VA may want to consider paid media as well or do a combo 
of the two. If you are trying to target Korean and World War II 
vets, and Vietnam vets, as well as newly returned vets, those 
would be a much different feel and look to the campaign. So if 
it is a smaller population you are talking about, World War II 
vets, a mass national PSA campaign probably wouldn't make 
sense. You might want to do direct mail or something very 
specific.
    Mr. Hall. I believe that the VA should spend some money and 
not just expect to get everything free in terms of broadcast 
time. I gather from the Ranking Member's remarks that he would 
agree with that. I think he said a couple percent or something, 
but that is still significant compared with what is happening 
now.
    What is your opinion of the VA's Web site? Is it 
entertaining, instructive or easy to navigate? And how does it 
compare to other agencies that you work with?
    Ms. Emanuel. Well, I did go to the Web site. I would say 
that the VA Web site is typical of most Federal Web sites, and 
no offense to any Federal Government or agency or department in 
the room. Most Federal Government Web sites are not user 
friendly. That is not what they were built for. They kind of 
appeal to everybody. So I know the VA had a kids page. And you 
have your executive staff bios. And I think that is true of 
most Federal agency Web sites. If you look at HHS's it has got 
everything on there, same with the National Institutes of 
Health, Department of Transportation. And that is no criticism 
of those Federal agencies. I think they are trying to do what 
they know and have a mass appeal. And that is why we really 
always create separate URLs with the Federal Government. I 
think the VA would probably be well-suited to do the same.
    Mr. Hall. Do you believe that the VA could utilize some of 
the other multimedia outlets that you mentioned?
    Ms. Emanuel. Sure. I think you have to be at all places 
where everyone is. So if it is newspaper, billboards, new 
media. You asked a question about on-line, I think it is really 
important that you recognize that older folks or low income 
folks are not on-line as much. So maybe a 1-800 number or 
collateral materials are more important. But really there are 
children of veterans who are on-line, so you really should be 
everywhere. We don't really stick to one media outlet when we 
take on a campaign look at one media, we usually do a 
multimedia approach and do it all.
    Mr. Hall. Thank you. I am going to ask Minority Counsel to 
ask a question for Mr. Lamborn.
    Mr. Lawrence. Thank you, Mr. Chairman. Mr. Baker, Ranking 
Member Lamborn wanted me to let you know that he had high 
commendation for the DAV Mobile Service Officer (MSO) Program. 
In fact he was so impressed by it that he introduced a bill 
that the House passed, H.R. 1863, which would create a VA pilot 
program that basically models the VA program after what DAV has 
done.
    Do you have the stats with you on what type of claims the 
DAV is continuing to get from its service program? How many 
claims are open and how many are granted? That type of 
information.
    Mr. Baker. I don't have the stats specific to the mobile 
service office. I can get those for you rather easily. As you 
know, in addition to the mobile service office we do 
presentations that are just at a specific location out in the 
field, not much different than the mobile service office. We 
sometimes utilize the same type of method. We will send out 
flyers to people in a certain zip code.
    So you probably want it to be accurate, you want to have 
both of those stats.
    I do have in my--I don't know if this really goes to your 
question in my written statement, in the past 17, 16 months if 
you count the World War II claims and the Vietnam war claims 
and Korean war claims, DAV represented well over 30,000 of 
those just to receive brandnew service connections ever. I 
couldn't get the VA's numbers up for that amount. Now, some of 
those are from the MSO and some are from people coming into our 
office. The fact is those are brandnew claims.
    Mr. Lawrence. 30,000 service connections?
    Mr. Baker. Over 30,000 service connections just in the past 
16 months just for those three groups. Using VA's own numbers, 
veterans over 56 years old, for 2006 there were 67,000 brand 
new claims that have never been in the system before. And in 
2005, there were 68,000 that had never been in the system 
before. Those numbers undoubtedly show that there are countless 
numbers of veterans out there from these old wars and simply 
had never been in the system. And there are not laws being 
passed that grant a lot of new presumptive service connections 
that would get these guys in the door. These are benefits that 
they have always been entitled to, that they are just not 
getting. They are now through various outreach efforts, but 
this simply isn't enough.
    I can get you those numbers if you would like to have them. 
We do track the new service connections and the increases and 
the survivor claims. So I could probably track pretty much 
whatever numbers you need to get.
    [DAV provided information to Minority Counsel.]
    Mr. Hall. Mr. Lamborn is here himself, and I recognize him 
for the rest of his questions.
    Mr. Lamborn. Yes, let me follow on to what the staff was 
asking you a moment ago, but we do commend you for your efforts 
and the outreach that you have done. I know we are talking 
about further and better outreach, but some of your 
organizations do a great job. And you in particular, I just 
want to say you have done a great job in that connection, so 
thank you.
    Mr. Baker. Thank you.
    Mr. Gadd. Thank you.
    Mr. Lamborn. Yes, thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Lamborn. Mr. Baker, Mr. Gadd and 
Ms. Emanuel, thank you for your testimony. You have been very 
helpful and given us a lot to work with. So you are now excused 
and thanks for your testimony and for your dedication to our 
Nation's servicemembers and veterans.
    And now I will ask our third panel to step forward and join 
us at the table. Ms. Diana Rubens, Associate Deputy Under 
Secretary for Field Operations of the Veterans Benefits 
Administration for the U.S. Department of Veterans Affairs; Ms. 
Leslye Arsht, Deputy Under Secretary for the Department of 
Defense; and Mr. Kevin Crowley, Deputy Director of Manpower 
Personnel for the National Guard Bureau for the U.S. Department 
of Defense.
    Welcome, all of you and as usual your statements are 
entered in full. The written statements have been entered into 
the record, so feel free to abridge them if you wish.
    Ms. Rubens, you are now recognized for 5 minutes.

STATEMENTS OF DIANA M. RUBENS, ASSOCIATE DEPUTY UNDER SECRETARY 
 FOR FIELD OPERATIONS, VETERANS BENEFITS ADMINISTRATION, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS; LESLYE ARSHT, DEPUTY UNDER 
  SECRETARY OF DEFENSE, MILITARY COMMUNITY AND FAMILY POLICY, 
U.S. DEPARTMENT OF DEFENSE; AND KEVIN CROWLEY, DEPUTY DIRECTOR, 
MANPOWER AND PERSONNEL, NATIONAL GUARD BUREAU, U.S. DEPARTMENT 
                           OF DEFENSE

                  STATEMENT OF DIANA M. RUBENS

    Ms. Rubens. Thank you, I appreciate the opportunity to 
appear before you today and provide you some information on 
what Veterans Benefits Administration has been doing for 
outreach activities designed to address the needs of our brave 
men and women who are still actively serving our country and 
our distinguished veterans.
    I believe that the VBA outreach programs exemplify our 
pursuit of providing the best possible service to our Nation's 
heroes. VA and DoD work through joint initiatives to assure the 
wide dissemination of information on the array of benefits and 
services available to servicemembers, including healthcare, 
educational assistance, home loans, vocational rehabilitation, 
employment, disability compensation, pension insurance, burial 
and memorial services. For example, VA distributes the summary 
of VA benefits in pamphlets to new recruits at military 
entrance processing stations and the graduating cadets at the 
military academies as well today.
    In conjunction with DoD, Homeland Security, and the 
Department of Labor (DOL), VBA personnel are located at 
benefits delivery at discharge intake sites, where we conduct 
Transitional Assistance Program briefings to retiring and 
discharging servicemembers, and their spouses, and Disability 
Transition Assistance briefings for servicemembers who have 
applied for or anticipate applying for service-connected 
compensation from VA.
    These briefings are presented to both regular active-duty 
servicemembers and pre- and post-deployment Reserve and 
National Guard members. It is generally followed by an 
opportunity for personal interview and assistance with the 
submission of claims for benefits.
    Last year, VA conducted over 8,000 briefings to almost 
300,000 attendees. In the TAP briefings we introduced attendees 
to VA's Vocational Rehabilitation and Employment (VR&E) Program 
and used this opportunity to present information on innovative 
VR&E Programs, such as our Coming Home to Work Initiative, a 
collaborative partnership between VR&E and Federal agencies to 
provide civilian work experiences to interested servicemembers 
who are interested in a medical hold status at a medical 
treatment facility.
    In 2006, transition assistance advisers were hired by the 
National Guard and trained by the VA to provide outreach 
services to servicemembers returning from OEF/OIF. The primary 
function is to serve as the statewide point of contact and 
coordinator, as well as provide information regarding VA 
benefits and services to Guard members and their families, and 
assist in resolving any problems they may have with VA 
healthcare, benefits, or TRICARE.
    Using our Veterans Assistance at Discharge system, we send 
welcome home packages for recently separated servicemembers, 
including the Reserve and National Guard members, containing a 
letter from the Secretary of Veterans Affairs along with 
pamphlets describing the benefits available.
    These mailings are sent to the address provided to VBA by 
the Department of Defense at the time of separation. To ensure 
a seamless transition, in 2003 VA began to assign permanent and 
full-time representatives to all key military treatment 
facilities. We also began hiring recovery care coordinators. 
These VA employees monitor patient progress and coordinate 
submission of claims for benefits.
    In our regional offices, case managers ensure that the 
claims of the most seriously injured are expedited. VA and DoD 
jointly sponsor our Benefits Delivery at Discharge Program. At 
over 150 military facilities we accept disability claims within 
60 to 180 days prior to release from active duty, collecting 
service treatment records, conducting physical exams, and 
completing disability rating decisions. We try to do that just 
prior to or just after separation so that disability benefits 
will commence as quickly as possible.
    VA and DoD are also piloting a single disability evaluation 
system with a rating decision that forms the basis for both the 
Military Medical Evaluation Board process and the VA disability 
rating process. In the event of an in-service casualty, the VA 
regional office Casualty Assistance Officers visit family 
members and assist them in applying for VA death benefits. We 
coordinate these visits with the Military Casualty Assistance 
Officers.
    In order to ensure that the surviving spouse and dependent 
children are aware of all benefits, the VA has established a 
special survivor benefits Web site and mails a 6-month followup 
letter to surviving spouses reminding them of benefits and 
services available.
    Outreach to other targeted veteran constituencies and their 
dependents, such as homeless, Gulf War, Vietnam, elderly, 
women, and POW veterans is often accomplished through 
cooperation and a personalized outreach.
    Mr. Chairman, we at VA are proud of our continuing role in 
the transition of servicemembers from military civilian life 
and continue to improve our quality and breadth of outreach 
efforts to all servicemembers and veterans.
    Thank you for allowing me to appear before you today. I 
would be pleased to respond to any questions from you or Mr. 
Lamborn.
    [The prepared statement of Ms. Rubens appears on p. 74.]
    Mr. Hall. Thank you so much for your testimony, and for 
finishing in record time. And we now have the whole full-length 
version and the abridged version. Thank you.
    Ms. Arsht, you are recognized for 5 minutes.

                   STATEMENT OF LESLYE ARSHT

    Ms. ARSHT. Good afternoon, Mr. Chairman and Mr. Lamborn. 
Thank you for this opportunity to express the Department of 
Defense's commitment to facilitating successful transitions 
from military to civilian life, for military members, and to 
support for families as these transitions occur.
    Collaboration between DoD, the Department of Veterans 
Affairs, the Department of Labor, and the National Guard Bureau 
is more complete than ever before. My written testimony 
outlines our groundbreaking approaches and a renewed spirit of 
collaboration to deliver support to our military community 
members, whether they live near or far from an installation.
    Today I will concentrate on just a few of those programs 
that feature improved information and service delivery. You 
have heard about some of these programs and will hear about 
other from other participants on these panels.
    One of our newest outreach and benefits awareness 
initiatives, the Joint Family Assistance Program, was 
originally started in 15 States and is now, with Governors' 
agreements, projected to expand to all 50 States and the 4 
Territories by the end of 2008. This program facilitates 
partnerships among Federal, State and local organizations; 
builds benefits and transition assistance outreach for 
deploying units; and provides a vital State-by-State database 
for around the clock family assistance.
    Another initiative comes from a paradigm shift that 
recognizes the continuum of financial readiness, military and 
veterans benefits, and transition assistance. In March 2008, we 
created a new directorate, the Office of Personal Finance and 
Transition. This directorate offers a new approach that will 
ensure 24/7 global access to educational resources and 
individualized financial and transition plans using the latest 
technology and multiple delivery methodologies throughout the 
servicemembers and their families' life cycles.
    In creating this office, we have addressed the needs of 
National Guard and Reserve members and their families which 
differ from those of the active duty servicemembers. Building 
on the traditional Transition Assistance Program, we launched 
TurboTAP, a dynamic, automated, Web-based system for delivery 
of transition assistance and related information. It allows 
each National Guard and Reserve member to obtain a lifelong 
account and a tailored individual transition plan that can also 
connect them to information on military and veterans benefits, 
many of which have significant cash value. This is a 21st 
century approach to delivering individualized information and 
benefits to servicemembers and families.
    We have created multiple high-tech, high-touch initiatives, 
both online and in person, which exist to better serve our 
troops and families with their transition, financial readiness, 
and benefits awareness needs. To augment the online system, in 
the fall of 2007, we established the DoD TurboTAP mobile 
training teams to support the National Guard and Reserve.
    By the end of 2009, our goal is to have the TurboTAP mobile 
training teams fully integrated and the deployment support 
transition assistance in financial awareness programs in all 50 
States. We will expand and enhance our new network of financial 
professionals to provide financial counseling and planning 
services ranging from budgeting and debt consolidation to 
advanced financial planning.
    Two other online resources we sponsor that would serve the 
total force throughout their careers, as well as during 
transitions, are Military OneSource and MilitaryHOMEFRONT, our 
``Google'' for quality of life information. Military OneSource 
is the hub of our online support services. It is available 24/
7, for all troops and families, with a friendly voice to help 
solve problems. It offers free, convenient access to 
confidential resources and referrals support. Military 
OneSource is especially beneficial to those geographically 
separated from installation services. Additionally, Military 
OneSource offers in-person counseling and now also features 
telephonic counseling.
    In conclusion, our servicemembers and their families have 
sacrificed much in support of the global war on terror. It is 
our duty to provide our troops with the decisionmaking tools 
they need to help them with the key financial and transition 
decision points in their lives. On behalf of the men and women 
in the military today and their families, I thank you and the 
other Members of the Subcommittee for your steadfast support 
during these demanding times.
    [The prepared statement of Ms. Arsht appears on p. 78.]
    Mr. Hall. Thank you, Ms. Arsht. Mr. Crowley, you are now 
recognized for 5 minutes.

                   STATEMENT OF KEVIN CROWLEY

    Mr. Crowley. Chairman Hall, Ranking Member Lamborn, I am 
here on behalf of the Chief, National Guard Bureau, Lieutenant 
General H. Steven Blum to testify about the Veterans Benefits 
Administration's outreach efforts. I am grateful for the chance 
to testify regarding veterans outreach for the National Guard.
    In the National Guard we know that our people are our most 
valuable resource. Accordingly, we understand the importance of 
assuring that our soldiers and airmen returning from deployment 
receive the support they need to serve the National Guard and 
are federally transitioned to civilian life.
    We are proud of our relationship with the Department of 
Veterans Affairs, and specifically the Veterans Benefits 
Administration. In 2004, Lieutenant General Blum met with the 
Department of Veterans Affairs to develop a strategy to support 
National Guard members who will have been deployed. As a 
result, General Blum signed a memorandum of agreement with the 
Department of Veterans Affairs and Under Secretary of Benefits 
and Under Secretary of Health. Forty-eight States and 
Territories have signed local MOUs with regional Veteran 
Benefits Administration offices.
    Since May 2005, 62 National Guard Transition Assistance 
Advisers have been jointly trained by the National Guard and 
Department of Veterans Affairs. Transition Assistance Advisers 
are responsible for educating National Guard members and their 
families on veteran benefits. Transition Assistance Advisers 
also act as a conduit to the National Guard and the local 
Veterans Affairs personnel.
    Of the 62 Transition Assistance Advisers, 57 are veterans, 
30 of which are disabled, and the remaining transition advisers 
are spouses of active National Guard members.
    The Transition Assistance Adviser initial training was held 
in February 2006 at the Veterans Benefits Administration 
training academy in Baltimore. Since that initial training, the 
National Guard and the Veterans Affairs conducted annual 
refresher training that included representatives for the 
Veterans Benefit Administration. This training is further 
supported by a jointly written and published Transition 
Assistance Adviser quarterly newsletter that includes up-to-
date information on Veteran Benefit Administration issues.
    When National Guard members return from overseas 
deployment, they learn about veteran benefits available to them 
through various means. We believe the most effective briefings 
are those delivered locally. They allow National Guard members 
to follow up with the same individuals who brief them and 
allows family members to be present. We find that the Guard 
families play a pivotal role in the application for benefits by 
and for our airmen and soldiers.
    In April 2008, the National Guard Bureau published our 
First Warrior Support newsletter that was specifically directed 
at the benefits of National Guard members. This newsletter is 
distributed to the local transition advisers who add local 
contact information.
    Transition Assistance Advisers submit a monthly report to 
the Veterans Affairs beginning this year. The report is 
modified to include referral information to the Veterans 
Benefit Administration, Veterans Health Administration, and Vet 
Centers. The National Guard Bureau and Veterans Affairs will 
use this data to measure the effectiveness of our education 
outreach programs to make modification improvements where 
necessary.
    Additionally, we believe Congressional initiatives like the 
inclusion of Beyond the Yellow Ribbon in the 2008 National 
Defense Authorization Act will continue to improve our 
collective outreach activities to provide airmen and soldiers 
the education and counsel available to them as they transition 
back into communities and civilian lives.
    The two key pieces are, one, that educational meetings are 
scheduled to be conducted at the 30-, 60-, and 90-day mark. And 
two, that the education is being conducted locally and 
harnessing available resources at that level. We appreciate 
that the Office of the Secretary of Defense Reserve Affairs is 
working with us to provide the guidance to meet Congressional 
intent.
    As Ms. Arsht acknowledges, our close relationship with the 
Office of the Secretary of Defense's Military Community and 
Family Policy is another example of their partnering with us to 
provide the needed support services and outreach for our 
geographically disbursed servicemembers and their families. The 
collaborative nature of our relationship with the Office of the 
Secretary of Defense has allowed them, through the Joint Family 
Support Assistance Program, to be able to effectively outsource 
the resources to all 54 States and Territories to address the 
needs for all Reserve component members.
    We welcome the opportunity to discuss these important 
matters with Congress and with the National Guard Bureau, and 
look forward to working with your Committee to ensure these 
programs remain robust. I would like to thank the Committee for 
its continued support of the men and women of the Armed Forces. 
Thank you.
    [The prepared statement of Mr. Crowley appears on p. 83.]
    Mr. Hall. Thank you, Mr. Crowley. And thank you all for 
your testimony and for your work on behalf of our Nation's 
veterans. It is good to hear about all the progress you are 
making and the new things you are trying. And one thing that is 
for sure is that we are all moving on these issues and on 
trying to solve some these problems.
    Ms. Rubens, I wanted to start by asking you why with Joint 
Executive Council (JEC), Benefits Executive Council, Health 
Executive Council (HEC), and the Senior Oversight Committee, no 
one has figured out that there should be links to the VA home 
page on the DoD Web site.
    Ms. Rubens. I will tell you I made a note during the 
earlier testimony to pursue that opportunity. It doesn't make 
sense to me that we are not connected. It is an opportunity 
where those servicemembers are going in to look at that current 
information as they are part of DoD and what might be available 
to them when they are discharged. And so I will pursue that as 
I go back to the office.
    [The VA response is included in the response to Question #1 
in the post-hearing questions for the record, which appears on 
p. 85.]
    Mr. Hall. Thank you, that was easy. Well, sometimes in 
business or governmental affairs, the obvious eludes us, but 
that would be great.
    In earlier testimony from the DAV they mentioned the 
biannual plan for outreach activities due to Congress on 
October 1, 2007. What has happened to that report?
    Ms. Rubens. I have to be honest with you I am embarrassed 
to tell you that I am not certain, but I will go back and look 
into that and get back to you and follow up.
    [The VA response is included in the response to Question #2 
in the post-hearing questions for the record, which appears on 
p. 85.]
    Mr. Hall. Thank you. They also mention 2008's National 
Veterans Survey. Do you know if that process has begun?
    Ms. Rubens. I believe that has begun. I also will tell you 
that we have begun, under the guidance of Secretary Peake, to 
do real hands-on outreach with telephone calls being made 
currently to over 17,000 veterans that are currently being care 
managed as well as over 500,000 OEF/OIF returnees to ensure 
that they are aware that we are still here. If they need us, we 
are available.
    We have a variety of benefits available that are going to 
be presented to them from the healthcare and benefits side as 
well as to ensure that if they hadn't taken advantage of us 
when they first were discharged we are still available, ready 
to talk to them and provide any services that we can.
    Mr. Hall. And I want to thank you also for providing the 5-
year breakdown on TAP attendance. Can you also tell us how many 
of those briefed were active duty, Guard, Reserve, survivors, 
or other family members?
    Ms. Rubens. I don't have those numbers right in front of 
me, but yes, we can give you the breakdown on how many of those 
were active duty. 300,000, if I am not mistaken, was actually 
just last fiscal year.
    [The VA response is included in the response to Question 
#3(a) in the post-hearing questions for the record, which 
appears on
p. 86.]
    Mr. Hall. Do you know or could you guess why the numbers 
have gone down significantly between 2006 and 2007?
    Ms. Rubens. I don't have the breakdown with me, but I will 
look at that. If there is something that we can develop that 
will give us an explanation as to why, I will absolutely 
provide that for you.
    [The VA response is included in the response to Question 
#3(b) in the post-hearing questions for the record, which 
appears on p. 86.]
    Mr. Hall. This probably falls in the same category, but why 
are the numbers that you reported for briefings attendees about 
double of those reported by DOL to DoD for the same time 
periods?
    Ms. Rubens. I have not seen their numbers, but we will look 
into that.
    Mr. Hall. If you can find information about that, I would 
appreciate it.
    [The VA response is included in the response to Question 
#3(c) in the post-hearing questions for the record, which 
appears on p. 86.]
    Mr. Hall. In examining the TAP Program it was brought to 
the Subcommittee's attention that one of the major problems 
with conducting TAP briefings is the VBA personnel don't always 
show up for their portion of the briefing. How do the regional 
officers ensure that they are present at all of the TAP 
briefings? And how do you handle it when your staff are no 
shows or cancel?
    Ms. Rubens. To be honest with you, that is the first time I 
had heard that. If you have specific examples, I would like to 
pursue that. I think there is an issue of accountability there. 
Our regional offices are working very closely with their nearby 
military partners in an effort to be there. We have worked very 
hard to ensure there is a consistent presentation, no matter 
what facility whether it is Pendleton or Fort Lewis or any of 
the other facilities, and so we will pursue this.
    [The VA response is included in the response to Question #4 
in the post-hearing questions for the record, which appears on 
p. 86.]
    Mr. Hall. We will provide you with some examples.
    Do you provide unique benefits briefings to survivors or 
for caregivers of the severely injured who will need assistance 
in accessing the additional supportive resources such as aid 
and attendance or housing adaptation?
    Ms. Rubens. If I am tracking your question, we have an 
array of benefits that are available, you are correct. When it 
comes to the caregivers, I know we are developing a process and 
program that will help support them. When it becomes an issue 
of home adaptation or of vocational rehabilitation, if a 
veteran is expressing interest to us or has a need, for 
instance, for that home adaptation, we have folks that are in 
that business line that will make themselves available to 
provide that specific information.
    [Additional information was provided by VA in the response 
to Question #5 in the post-hearing questions for the record, 
which appears on p. 87.]
    Mr. Hall. Ms. Rubens, what would you think of the VA 
creating an Office of Survivor Affairs?
    Ms. Rubens. You know, I thought I did make a note when the 
Gold Star Wives mentioned that and looked at it in their 
testimony, and I will go back and pursue that. To be honest 
with you, I don't know that it is something that requires 
legislation, and so I think it is something for VBA to pursue.
    We have under the previous Under Secretary made it a 
priority and elevated it, if you will, as to maintain and track 
how long and how well we are doing specifically on that 
Dependency and Indemnity Compensation claim from those widows 
and widowers, and we continue to be aware of the fact that for 
those family members it is critical for us to be there. It is a 
difficult time for them.
    [Additional information was provided by VA in the response 
to Question #7 in the post-hearing questions for the record, 
which appears on p. 87.]
    Mr. Hall. In your experience or during your tenure, has VA 
ever tried to develop PSAs of its own or worked with the Ad 
Council as other Federal agencies have done?
    Ms. Rubens. I will tell you that I have actually already 
asked Ms. Emanuel for her card so we can become the next Smokey 
Bear ad campaign.
    Mr. Hall. I suppose I will ask each of you, if you have any 
ideas for what the pitch should be, the slogan or whatever, 
that is something that I am sure a lot of us would like to 
know.
    Do you track the response rate generated from Veterans 
Assistance Discharge System mailings that the VA sends out?
    Ms. Rubens. I do not know the answer to that, but I will 
find out for you.
    [The VA response is included in the response to Question #6 
in the post-hearing questions for the record, which appears on 
p. 87.]
    Mr. Hall. The number of BDD sites you reported, 142, does 
not match the number that VA and DoD report in their annual JEC 
report, which was 130 sites. Can you explain the discrepancy? 
And why are only 40 regional offices BDD participants and not 
all of them?
    Ms. Rubens. I believe that all of our regional offices are 
available to provide BDD, but I will also tell you that we have 
some very concentrated separation points where we work with DoD 
and have permanent full-time employees at those facilities.
    As to the rationale for why my numbers don't match, no, I 
will have to go back and figure out where we added some.
    Ms. Arsht. I might be able to answer this. I think it may 
be determined by the number of MOUs that have actually been 
signed. I am on the EC Working Group on BDD.
    Mr. Hall. Ms. Arsht, the Subcommittee reviewed three of DoD 
Web sites that offer supportive services to servicemembers and 
the families and found that they don't easily link to the VA 
home page. This is sort of the same question again. Would that 
be problematic?
    Ms. Arsht. I actually was a little surprised to hear that, 
too. TurboTAP, for instance, was designed to connect DoD, 
Department of Labor, and VA and to make it easy in the 
transition venue to use a zipcode and go directly to the office 
that would be serving you. That is especially designed for 
Guard and Reserve members, of course. I am glad to go back and 
look at that as well.
    [The DoD response is included in the response to Question 
#1 in the post-hearing questions for the record, which appears 
on p. 89.]
    Mr. Hall. Thank you. And when the Subcommittee staff called 
the Military OneSource toll free line and asked about veterans 
benefits, we were told we had to contact VA for any 
information. Then we were given another toll free line, but 
that was the number for VA's health revenue facility, which was 
the wrong number.
    Does DoD or VA train Military OneSource operators on VA 
benefits? And what kind of quality checks do you do on 
referrals done by Military OneSource?
    Ms. Arsht. Again, this was a very surprising comment that 
you made in your opening. We do train Military OneSource 
consultants. The stakeholder is usually responsible for helping 
us with that training, and we have for some period of time had 
VA reps who assist us. This is one of those things we have to 
go back and see. It would be great if we had an actual case 
that we could go back and try to understand what actually 
happened when the call came in and get the whole case history 
on it.
    Mr. Hall. Okay, we can provide you with that. Could there 
be more information on VA benefits integrated into Military 
OneSource or does the VA need to have a Veteran OneSource 
counterpart?
    Ms. Arsht. The important thing to remember about Military 
OneSource's concept is that it is a referral system. There are 
certain things that we provide that are DoD-centric, but, as it 
builds out it becomes more and more a central information 
delivery system. It is important that there be expertise that 
backs up the question and answering process. So it is better 
when the people who are preparing the answers and the protocols 
to respond to a series of questions actually know what 
questions will likely come up and get prepared in that way. The 
deeper their understanding is, the better the performance is 
going to be. You would want VA to be deeply involved in the 
creation of such a thing.
    Mr. Hall. DoD has had a lot of successful experience since 
the fifties with advertising, especially in recruiting. The new 
Military OneSource commercials are commendable, and I am just 
wondering if you could suggest what the VA could be doing to 
match DoD's communications level or level of effort?
    Ms. Arsht. I really think the Ad Council is the expert in 
the room here on that.
    Mr. Hall. Okay. TAP seems to be the best way to reach 
transitioning servicemembers and their families in person. 
However, I have heard that the VA does not consistently show up 
to provide their portion of the veterans benefits briefing. 
Conversely, I have also heard that the VA does not also always 
know when these briefings are taking place. So how can the 
process be improved? And where is the Joint Executive Council 
oversight on this issue? And why was TAP removed from its 2007 
annual report?
    Ms. Arsht. TAP removed from whose annual report?
    Mr. Hall. The JEC annual report.
    Ms. Arsht. Okay, well, I don't know. I will have to find 
out. But on the content of TAP, just yesterday I was at the 
quarterly meeting of the Advisory Committee for Veterans 
Employment Training and Employer Outreach. ACVETEO is what it 
goes by its acronym. It is co-chaired by the Departments of 
Labor, VA and DoD. All have ex officio positions on this 
Committee. It also has a number of employers, and they are 
devoting themselves to doing a review and an assessment of the 
current TAP program and curriculum to establish even more 
consistency. We have been trying repeatedly over the years to 
get more and more consistency into the delivery of the 2\1/2\-
day program. This is yet another effort to achieve that kind of 
uniformity in the content, the sequencing, and the delivery of 
the program.
    So there is a concerted effort underway to have TAP be at 
the level that we need it to be in order to be effective.
    It is important to say also, as other members of the panels 
have said, that we need more than one delivery system for 
getting information into the hands of our different 
populations, because we still do hear repeatedly that our 
servicemembers coming home, just want to go home, and what we 
are trying to do is get with the 21st century. You know, the 
young generation, does everything on-line, and we are trying to 
digitize and be 24/7 and make it available to them as they need 
it. That is different from sitting in a classroom for 2\1/2\ 
days.
    [The following was subsequently received from DoD:]

    The VA Office of Seamless Transition provided the 
information for the 2006 report on the Transition Assistance 
Program. Upon discontinuation of the VA Seamless Transition 
Office, the task to provide information was not passed to 
another entity for the 2007 report. The Department is working 
with the VA to include current information in the 2008 report.

    Mr. Hall. What I am hearing is there are a lot of good 
programs and efforts being made, and what needs to happen is to 
complete the link and find the places and the things that are 
falling through the cracks. And if there are briefings taking 
place that the VA doesn't know about, there has to be a system 
where they are automatically notified of all of them.
    I want to ask you one more question; and that is, can 
veterans come back and attend the TAP class after they are 
discharged? A TAP briefing?
    Ms. Arsht. I will find out. My guess is, yes, but I don't 
know for sure.
    [The following was subsequently received from DoD:]

    Yes, veterans can access the Transition Assistance Program 
after they are discharged. The Department's recent initiative, 
TURBOTAP, is a dynamic automated Web-based system that is the 
backbone of the Department of Defense's TAP process. It allows 
each servicemember to receive customize accounts of benefits 
prior to and after separation.

    Additionally, separated servicemembers can be authorized to 
attend workshops up to 180 days after their date of separation. 
If more than 180 days have elapsed since their date of 
separation, and they are seeking employment assistance and 
counseling, they will be referred to the local One-Stop Career 
Center System where they can access an array of services, 
including those provided by a Disabled Veterans' Outreach 
Program specialist or Local Veterans' Employment 
representative.

    Mr. Hall. It might be a good idea, especially, as you 
mentioned, when they first come home, they just want to go 
home.
    Ms. Arsht. I am certain that the answer is yes, because the 
Guard and Reserve do that. They have been doing that for a long 
time.
    But one of the reasons that we want to have the online 
service is that we can provide more on-demand service. You 
don't have to go to class to learn. And in the curriculum, the 
TAP managers at the installations have the information 
available to them.
    Mr. Hall. I am going to hold my questions to Mr. Crowley 
and defer to Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    For Ms. Rubens, what type of outreach does the VA provide 
specifically for survivors? You have talked about different 
populations, but could you refer to again, if you didn't 
already do this, the survivor, such as the Gold Star widows?
    Ms. Rubens. DoD and VA's casualty assistance officers maybe 
visits together, and then we have 6-month followups. Those are 
for the individuals. For the survivors, it is part of our 
overall outreach. There is nothing specifically that I'm aware 
of that is targeted to survivors, although I will make sure 
that I am not telling you a tale and look at what else we can 
do to improve that outreach and target that group specifically.
    Mr. Lamborn. Good. Because for the Gold Star Wives, I 
think--you heard the testimony. I think maybe some kind of 
outreach there might be good and appropriate.
    For Ms. Arsht, it is my understanding that in a hearing 
held by our colleagues on the Subcommittee on Economic 
Opportunity last week in South Bend, Indiana, it became 
apparent that DoD is doing a much better job of reaching out to 
active duty and National Guard members, but, in contrast, it 
was clear that Reservists had a higher chance of falling 
through the cracks and on average did not receive the same type 
of transition support as their counterparts. And could you 
please comment on specific ways the DoD is trying to address 
this problem?
    Ms. Arsht. Well, our Joint Family Assistance Program, which 
is being established in the States--and Mr. Crowley can speak 
to this, also. We have 15 States currently in that program. The 
Reserve components, both Guard and Reserve, are actively 
engaged in the participation of those programs and they are 
obviously eligible for Military OneSource and many of the other 
things that I mentioned here, including transition assistance 
and so forth.
    I am not sure where that impression came from. They are 
very much a part of our target audience, to reach what you 
would consider to be off-installation populations that are away 
from the normal delivery of services.
    Mr. Lamborn. Thank you.
    Ms. Rubens, you have already commented briefly on this, but 
just as kind of a followup, what are your thoughts--do you have 
any further thoughts of working with the Ad Council and doing a 
national campaign? I noticed you got her business card.
    Ms. Rubens. It is something within VBA that we are focused 
on and concerns us greatly. We recognize that the World War II 
generation needs a different form of communication and a 
different message than today's discharging servicemember, and 
we are very interested in trying to figure it out.
    If we pursue the Ad Council, while it has to be 
overarching, it needs to be specifically targeted so we are 
really speaking to that World War II generation and the Korean 
generation and those that are in the process of retiring, the 
Vietnam-era veteran, versus our newer generation.
    As I was listening to Ms. Emanuel and her discussion about 
some of our Web site issues, the variations between the TV 
ads--and the radio ads--and what about radio and the Internet? 
What about XM and Sirius? How do we plug into those as well for 
the different generations that are taking advantage of 
different public media, whether it is print or audio or 
television? It is something that I am excited about the 
opportunity to pursue.
    Mr. Lamborn. Thank you.
    I yield back the balance of my time.
    Mr. Hall. Thank you, Mr. Lamborn.
    Ms. Rubens, I would hope, because Congress gave the VA 
permission to advertise, that we don't have to require you to 
advertise. I know that may not be your decision, but I think we 
probably all up here feel that you can only do so much with 
PSAs, and it may be necessary, as DoD has found for recruiting 
purposes, to buy some time during prime advertising hours. In 
tight budgetary times, there is obviously a lot of demand for 
what dollars there are. I hope some of them go toward paid 
advertising if it seems that is the best way to reach a certain 
audience.
    Mr. Crowley, previous witnesses have noted that it has been 
hard for the VA to reach into the Guard and Reserve. Is that 
the reason for creating the TAA positions? They are fairly new 
positions. You mentioned that the advisers submit a monthly 
report and have included VBA referral information. Do you know 
how many Guardsmen transitioned and how many were referred to 
VA?
    Mr. Crowley. I would like to get that information and 
submit it for the record on the numbers.
    [The following was subsequently received from DoD]

    For the month of April 2008 (the first month will all 
States/territories reporting), there were 781 referrals from a 
National Guard transition assistance advisor (TAA) to the 
Veterans Benefits Administration. This number just represents 
the month of April 2008. Since this is a new report, we believe 
this number may be low. Some of our TAAs are new; however, 
reporting methodologies are in their infancy. We will continue 
to track these numbers.

    Mr. Crowley. The answer to the original part of your 
question, the VA approached us back in the 2004 time frame, and 
the concern was look at their structure, access and eligibility 
to the facilities at the time, and that is what that 
partnership grew out of. It was a recognition on their part, 
with the numbers of National Guard that were redeploying back 
since the war started in 2003, what was in place. It really was 
VA approaching us. How can we partner out there better 
addressing those issues?
    Mr. Hall. What are some of the challenges you have 
encountered in reaching out to your people, and are there 
special populations that should have different materials and 
outreach efforts to better target their needs?
    Mr. Crowley. Mr. Chairman, Ranking Member Lamborn 
acknowledged an issue about other, past veterans. What we are 
seeing, maybe it was an unintentional byproduct, but some 
States, like New Hampshire, for example, is very progressive. 
What we found as recently as two years ago, we are servicing 
Vietnam veterans through our traditional systems advisers. Not 
all of them are coming through.
    But to get to the point of your question, we are relying on 
folks to self-identify. That is the key piece. So the outreach 
has to get beyond those folks who recognize that they have a 
problem or are being referred to by somebody. So the question 
is, how do we appropriately get to that group? And that is that 
piece of iceberg that is below the waterline. These people 
don't think that they have a problem, and families don't know 
if they have an issue.
    That is a key piece our program is addressing, not the very 
seriously injured like Director Duckworth. It is those folks 
who have come back and trying to beat the demobilization 
process and doing everything they can to get home. We are 
trying to address those issues post redeployment.
    Mr. Hall. Thank you.
    Are the problems different for Guard and Reserve members 
when they are wounded or become ill?
    Mr. Crowley. That is a good question, Mr. Chairman.
    No, when all is said and done, I don't think the issues are 
different. But, obviously, there is an inherent difference in 
somebody being injured on active duty and somebody being 
injured in title 10 status but reverting back to their home 
State and territory.
    For example, for Army installations, we have 23 Army 
installations in 21 States, yet we have 54 States and 
territories where our guardsmen redeployed back to. So, 
clearly, there are not enough active-duty installations for 
them to fall back into. And, obviously, we look at the VA as a 
piece as well and the community based health center 
organizations that are out there.
    So, to answer your question, I am not sure that it is 
handled exactly the same. But the geographic dispersion, the 
availability of facilities, whether they are military 
facilities or whether they are VA facilities are a handicap for 
us.
    Mr. Hall. Can you tell me more about the Beyond the Yellow 
Ribbon Initiative that you mentioned in your testimony?
    Mr. Crowley. Beyond the Yellow Ribbon was an initiative in 
2008. What it allowed for was mandatory, in our case, the 
National Guard, mandatory briefings. This was to provide 
education at the 30 day--and by that, Mr. Chairman, I mean 30 
days from release from active duty, to come back in an 
organized training event at the 30-, 60- and 90-day mark.
    Our belief is that we should capture all individuals that 
at least start to self-identify, but within a 90-day period we 
are visibly seeing every soldier, every airmen who is coming 
into that training event.
    Mr. Hall. Thank you.
    I just have one more question for Ms. Arsht, which is, from 
one of our previous panels, we learned that the Marine Corps is 
the only service that is currently requiring members upon 
separation to attend TAP briefings. Is that accurate and can 
that or should that be changed?
    Ms. Arsht. It is a two-part answer.
    The pre-separation counseling part of TAP is required for 
everyone. They can complete a form to opt out of the remainder, 
but pre-separation counseling is required for everyone. The 
Marines are the only ones who have required that everyone 
attend the complete TAP course.
    What we have recommended and encourage is that commanders 
know and recognize that the TAP curriculum is important to 
servicemembers and that when they want to go, they should be 
allowed to go. And that is the spirit in which we think TAP is 
being implemented.
    Mr. Hall. Thank you.
    Ms. Rubens, if I may ask you a couple of more questions.
    It seems like the VA was having success with the Office of 
Seamless Transition and establishing a better working 
relationship with the VBA, the VHA and the DoD. Why did the VA 
decide to close that office and how do the Federal Recovery 
Coordinators employed by VHA learn how to brief on VBA 
benefits?
    Ms. Rubens. I will tell you I am not sure why they decided 
to change the title from Seamless Transition. The Federal 
Recovery Coordinators have been trained through our 
cooperation. I will also tell you that VBA and VHA, at least at 
my level, are very focused on working together to ensure 
particularly our most seriously injured servicemembers and 
veterans are getting coordinated care.
    [The VA response is included in the response to Question #7 
in the post-hearing questions for the record, which appears on 
p. 87.]
    There was cooperative training for half the country. It was 
tough duty in Palm Springs a couple of weeks ago, from the 
Federal Recovery Coordinators down through I think their 
Transition Advocates where they are also former patients, 
veterans that have gone through the system and are assigned to 
some of the seriously injured to help ensure that they are 
making their way through whatever the corridors might need to 
be made, whether it is from a military transition facility or a 
polytrauma center or a more convenient local Medical Center.
    We have at each Regional Office an OEF/OIF coordinator. 
They jointly went to the training in Palm Springs. There will 
be followup training in Florida for the other half of the 
country where the Regional Office coordinators will join in an 
effort to, as a team, be cognizant of how we ensure we are not 
losing those folks through the cracks, that we are managing 
their care as they come out of the military and make their way 
through the VA system.
    Mr. Hall. Thank you.
    Lastly, in the JEC annual report, there are several special 
categories of veterans with exposure issues that VA notes it 
provides outreach to. This includes Agent Orange, Gulf War 
syndrome, SHAD and Edgewood. Why has VA not included the women 
from Fort McClellan in its efforts, knowing how much less 
likely women are to identify with VA programs?
    Ms. Rubens. I will have to get back to you on that.
    [The VA response is included in the response to Question #8 
in the post-hearing questions for the record, which appears on 
p. 88.]
    Ms. Rubens. I will tell you that I think that we are 
working to ensure that women veterans are more well-informed. 
We have Women Veterans Coordinators in all of our regional 
offices. Obviously, as women take on larger roles in the 
military, they are a larger audience for us.
    Mr. Hall. I appreciate that thought.
    I also sit on the Board of Visitors for West Point, which 
is in my district; and we have been briefed recently on 
incidents of sexual harassment; and they are dealing with a 
change in the mentality and the culture of the Armed Forces and 
the Army, in particular, as women take on a larger role and men 
get used to it. And trying to teach them that they protect each 
other, regardless of gender. Not to mention that today's 
officers have a very high standard that they need to live up 
to.
    And I have heard some comments in those meetings that women 
who have been not just at the academies but in the services who 
experience unwanted sexual attention from male members of the 
force frequently come back suffering from mental health 
problems that are caused maybe in part by combat, that 
everybody, regardless of gender, experiences, but also that are 
caused by these episodes of harassment or whatever experiences 
they have gone through that are unique to being female.
    As a result, they are reluctant to join a discussion group 
or a briefing or a meeting where they are sitting. They might 
be more likely to go to a nonmilitary women's support group 
than to go a veterans--an all-veterans group where they are 
sitting mostly with men.
    I am just throwing that out there because I am sure you are 
aware of this, and I am interested in seeing what programs come 
out of the VA to try to help with that.
    I want to thank you all for your testimony. It has been 
illuminating, and thank you for your work on behalf of our 
soldiers and our veterans and our Guard and Reserve.
    We may have reason to hold a roundtable discussion, which, 
if we do, we will ask you to participate in and maybe bring 
some of our friends back from the Ad Council, from the 
advertising and communications fields, and maybe even some of 
the network broadcast executives who can tell us how patriotic 
they are and how much time they are going to give us. But that 
is for another day.
    So thank you everybody for your patience, those of you who 
hung in for the whole long hearing. We value your insights and 
opinions, and we will try to do the best we can to put them to 
work.
    This hearing stands adjourned.
    [Whereupon, at 4:07 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                Prepared Statement of Hon. John J. Hall,
  Chairman, Subcommittee on Disability Assistance and Memorial Affairs

    Good Afternoon:
    I would ask everyone to rise for the Pledge of Allegiance--flags 
are located in the front and in the rear of the room.
    The last few months we have had a series of hearings on the VA 
claims processing system, which resulted in the Full Committee passing 
the Veterans Disability Benefits Claims Modernization Act of 2008, HR 
5892. I have been very pleased with the bill's progress and am grateful 
that we have 30 cosponsors already.
    However, during the course of those hearings, I often heard words 
like ``confusing,'' ``misinformed,'' ``stigmatizing,'' and 
``overwhelmed'' to describe how veterans felt about accessing their 
duly earned VA benefits. It occurred to me that there was a secondary 
problem that was not internal to VA operations, but indicative of its 
outreach to the veterans they were supposed to be serving. Benefits 
information was not getting out in clear, simple language that was 
consistent and easy to use.
    As many of you may know, the House recently passed the Veterans' 
Benefits Awareness Act of 2007, H.R. 3681, which authorizes VA to 
advertise. DoD knows how to advertise. Congress gave DoD that authority 
in the 1950s and since then they have inspired many to join ``The few, 
the proud'' or to ``Be all that you can be.'' Today, DoD also even uses 
TV commercials to educate the military community about its Military 
OneSource support program.
    But, beyond the issue with advertising that I hope H.R. 3681 will 
address, I felt we needed this oversight hearing to examine the 
effectiveness of all of the VBA's outreach efforts, and asked staff to 
further investigate. During that process, it became evident that there 
were a lot of inconsistencies and gaps in how VA is informing the 
public about its benefits and services.
    Staff found it difficult to readily ascertain what--in fact--
official VA information was, and what was incorrect. Even with all of 
the joint councils between VA and DoD, there is no clear ability to 
correctly find VA through DoD sources. For example, DoD has three 
websites that offer service members transition assistance, but none 
that connects with VA and when calling the DoD Military OneSource toll 
free line, the operator gives the incorrect call line for VBA. It took 
staff almost 30 minutes, three phone calls, and six menu options to get 
to the right VBA operator to get claims questions answered. At what 
point would a disabled veteran have quit--stressed, frustrated, and 
worst of all, unassisted?
    Veteran Service Organizations and other nonprofits, which are doing 
their best to assist veterans, families, and survivors, are left on 
their own to create veterans' benefits messages and lines of 
assistance, which sometimes link to VA, but often do not. I believe it 
is VA's responsibility to create promotional and educational materials 
that these organizations could use, so that VA is readily recognizable 
and available no matter how the veteran finds it.
    There have also been inconsistencies reported in how VA conducts 
in-person outreach. VA is a primary component of the Transition 
Assistance Program or TAP briefings that take place for separating 
active duty service members, National Guard, and Reserves. VA reports 
that it attends these briefings when it knows they are taking place. 
But, they are not always notified by the military commands when a 
briefing is scheduled, and that not everyone eligible attends. DoD, in 
turn, has been reluctant to mandate TAP because it does not control all 
of the resources. VA representatives have been known to not show up for 
their portion of the briefing. TAP and the Benefits Delivery at 
Discharge program are not as readily available to the National Guard, 
Reserves, or Medical Hold patients. VA dismantled its Office of 
Seamless Transition and replaced it with Federal Recovery Care 
Coordinators who primarily operate out of VHA, not VBA. VA began a Call 
Center program to contact veterans about their benefits, but only after 
suicide rates became known. It seems clear that VA needs a more 
proactive outreach approach.
    Each area of the country has its own unique challenges in meeting 
its populations' needs. That is why I am glad that we have veteran 
service organizations and state and county representatives with us 
today who can address the issues associated with reaching rural or 
urban communities, women and minorities, younger and older veterans, or 
those living in impoverished conditions. I look forward to their 
testimony and hearing about their innovative practices and the outreach 
gaps that they have identified.
    I also look forward to the Ad Council testimony to hear what they 
can teach us about advertising veterans' benefits. They have helped 
other Federal agencies teach us that ``Only You Can Prevent Forest 
Fires'', how to ``Take A Bite out of Crime,'' and that ``Friends Don't 
Let Friends Drive Drunk''. Interestingly, their genesis was with the 
War Department, which immortalized Rosie the Riveter and warned, ``Lose 
lips sink ships.'' Currently, they are working on PSAs with the Iraq 
and Afghanistan Veterans of America.
    Furthermore, family members, caregivers, and survivors new to VA's 
lingo, jargon, and acronyms, need materials and briefings that are 
user-friendly with personnel dedicated to assisting them. On April 
24th, I held a roundtable discussion with organizations that assist 
survivors. They brought the need for a VA Survivor Affairs Office to my 
attention. So, I have developed a draft bill that would create such an 
office and will be asking the organizations for their feedback shortly.
    Finally, I am hopeful that the Departments will be able to provide 
insights regarding their joint efforts and cooperation with each other 
to provide materials, briefings, and Internet and telephonic assistance 
that is accurate, consistent, and readily available. Web links are 
simple--it is shameful that such an obvious outreach tool has eluded 
the Departments and needs congressional oversight.
    Bringing our men and women home is a responsibility that we all 
share. It is great to see the efforts being made by the communities all 
around this Nation to support our veterans, especially those with 
disabling conditions. However, these efforts should be augmentations to 
the ones being provided by the Departments. I hope the message VA gets 
today is how to do better messaging--to create outreach materials, 
announcements, web resources and briefings that are tailored to its 
different audiences and can talk to veterans, families and survivors in 
clear, simple language that will make them see VA as a user-friendly 
resources and truly there for their benefit.

                                 <F-dash>
                Prepared Statement of Hon. Doug Lamborn,
                       Ranking Republican Member,

       Subcommittee on Disability Assistance and Memorial Affairs
    Thank you, Mr. Chairman, for yielding.
    I am pleased to have this opportunity for a collective discussion 
on the Department of Veterans Affairs' outreach efforts.
    I believe VA is doing a much better job of reaching OIF/OEF 
veterans now than it was at the beginning of the War on Terror.
    This is a commendable development, and I hope that a comparable 
improvement can be achieved in VA's efforts to reach older veterans.
    Veterans cannot obtain the benefits they have earned if they don't 
know they are eligible to receive them.
    I am concerned that despite millions of dollars spent on outreach 
every year, we have not effectively reached many veterans of earlier 
conflicts.
    It is for this reason, I was proud to join with my colleagues in 
supporting H.R. 3681, the Veterans' Benefits Awareness Act of 2007, 
which passed the full House this week.
    This measure, introduced by my good friend and Ranking Member of 
the Subcommittee on Economic Opportunity John Boozman, authorizes VA to 
conduct national advertising campaigns for benefits outreach.
    I believe that with the enactment of this bill and help from groups 
like the AD Council, VA will be able to create public service 
announcements that will provide effective outreach for all veterans.
    The Department of Defense spends billions each year on recruitment 
ads, and I believe that if VA spent just a fraction of this amount it 
would be very effective for outreach purposes.
    Mr. Chairman, I would also like to recognize and thank veterans' 
service organizations for their outreach efforts to veterans and I 
encourage them to continue their excellent work.
    I look forward to our witnesses' testimony and a productive 
discussion on ways to improve VA outreach. I yield back.

                                 <F-dash>
                 Prepared Statement of Tammy Duckworth,
    Director, Illinois Department of Veterans' Affairs, and Member, 
      National Association of State Directors of Veterans Affairs

    I would like to first thank the Subcommittee on Disability 
Assistance and Memorial Affairs for holding this hearing today and 
providing the opportunity to testify on this extremely important issue. 
I'm here on behalf of the National Association of State Directors of 
Veterans Affairs, of which I am a member.
    Each year state Governments spend more than $4 Billion to support 
our nation's veterans and their families. Collectively, we are second 
only to the Federal Department of Veterans Affairs in providing 
benefits and services to the men and women who defended our Nation. 
Although each state is unique, with its own traditions, programs, and 
resources, we are united by our common goal to make a difference in the 
lives of our veterans.
    The members of National Association of State Directors of Veterans 
Affairs bring together the best of all states and territories. We work 
together to find real solutions to the common problems we face, and the 
pooling of expertise and knowledge allows our organization to serve as 
a resource for each state, the Department of Veterans Affairs, and 
Congress.
    We all know that at this point, over six years into the current 
wars in Iraq and Afghanistan, there is a need to increase awareness 
among veterans about the benefits that are available to them. These are 
benefits that they have rightfully earned and deserve. We need to use 
every tool possible to ensure that they know about what benefits are 
available to them and their family members.
    Outreach is the key, especially with the returning veterans of 
Operation Enduring Freedom and Operation Iraqi Freedom who have young 
families and are facing plenty of challenges when they return home. 
Educating them about their benefits through outreach and reaching them 
right now is essential to their future wellbeing.
    As a veteran of the Iraq war, an advocate for fellow veterans, and 
the Director of the Illinois Department of Veterans' Affairs, I can 
assure you that we are in dire need of additional resources at the 
state level to reach the new generation of veterans and to maintain 
communication with previous generations. Specifically our aging Vietnam 
veterans who are retiring or are reaching retirement age and have 
increasing healthcare needs.
    Most of the states have the capability and infrastructure to 
increase outreach but need the resources to do it. The members of 
National Association of State Directors of Veterans Affairs would like 
to Congress pass a Federal grant program to provide outreach to 
veterans regarding available benefits, programs, services. We strongly 
believe that outreach grants should be provided through the state 
veterans' agencies [S. 1314].
    Let me explain how this would work. In Illinois, we have 73 Veteran 
Service Officers (VSOs) who are trained and certified by the U.S. 
Department of Veterans Affairs to assist veterans, their families and 
their survivors in completing applications for state and Federal 
benefits. They are located in 51 offices throughout the state of 
Illinois. These Service Officers are a part of the community and in the 
communities already, so they have the ability to reach veterans in ways 
that the Federal Government cannot.
    The Veteran Service Officers work in conjunction with the Federal 
Government because they are trained and certified to assist veterans in 
applying for Federal benefits. In addition, there are state benefits 
that they make veterans aware of that are especially helpful to them 
and their family members. So, increasing funding for outreach through 
the states would give veterans the opportunity to find out about and 
take advantage of their state and Federal benefits.
    Like many states, Illinois is extremely generous in state benefits. 
These benefits include additional compensation, education, healthcare, 
housing, burial, employment, real estate, and permits. They also assist 
incarcerated veterans due for release. They do not, however, recruit 
veterans into any of the veterans' organizations.
    If the Federal Government invested in that structure of veteran 
service officers currently existing in the states and in communities 
across the country, they could provide the successful outreach that is 
needed to assist these veterans. A Federal grant program can provide 
outreach to veterans regarding available benefits, programs and 
services. Again, we strongly believe that outreach grants should be 
provided through the state Veterans' agencies.
    We also firmly believe that the states ability to educate veterans 
on Federal benefits would be greatly enhanced if the Federal Department 
of Veterans Affairs and the Department of Defense would share 
information with the states about when the veteran comes home. This 
information would allow states to better serve the veteran on their 
arrival or soon thereafter.
    For example, when a service member returns from Iraq or 
Afghanistan, the State of Illinois does not know that he or she has 
returned to the state unless they enter one of our offices or we are 
contacted by another Government entity. It is often when a veteran has 
already had some type of issue that we hear from them instead of having 
the ability to reach out to them beforehand.
    For example, if a recently returned veteran of the war in Iraq is 
having trouble dealing with the symptoms associated with Post-Traumatic 
Stress Disorder, he or she might self medicate with alcohol. If that 
veteran is drinking and driving and is pulled over for a DUI, we will 
hear from the State Police first, before we can tell that veteran about 
the assistance that might be available for symptoms of PTSD, like the 
VA helpline or the Illinois Warrior Assistance Program. That is a sign 
of a broken system.
    If the Federal Government shared information about returning and 
existing veterans, it would greatly increase our collective outreach 
capabilities because the states can assist in getting these veterans 
their Federal benefits. As you know, states already have plenty of 
programs in different areas that allow for sharing of information with 
the Federal Government.
    Currently, in cases of the veteran population, the Federal 
Government will share information when they are entering our veteran 
nursing homes. As part of that information sharing with the Federal 
Government, the states are regularly inspected and audited. These are 
procedures that states are already familiar with and complying with on 
a regular basis. This should reassure the Department of Veterans 
Affairs that the states are willing and capable to adhere to any 
Federal privacy of data regulations.
    If the Federal Government shared information with the state when a 
veteran returns home, we would increase the outreach capabilities for 
the Federal Government and assist the veteran in making a smoother 
transition back to civilian life.
    Again, I would like to thank the Subcommittee on Disability 
Assistance and Memorial Affairs for holding this hearing today and the 
opportunity to testify on this extremely important issue. The members 
of National Association of State Directors of Veterans Affairs will 
continue to work together to assist our nation's veteran population in 
every way possible.
    Thank you.

                                 <F-dash>
                     Statement of Darlene McMartin,
  President, National Association of County Veterans Service Officers
Introduction:
    Chairman Hall, members of the Subcommittee, it is truly my honor to 
be able to present this testimony before you. As President of the 
National Association of County Veterans Service Officers (NACVSO), I am 
commenting on NACVSO's views on the effectiveness of Veterans Benefits 
Administration's Outreach Efforts.
    The National Association of County Veterans Service Officers is an 
organization made up of local Government employees. Our members are 
tasked with assisting veterans in developing and processing their 
claims. A large percentage of the claims presented to the Veterans 
Administration each year originate in a county veterans office. Each 
day, our members sit across from those men and women who wish to file a 
claim each day. They are our friends and neighbors, members of our 
communities whom we see often daily. We exist to serve veterans and 
partner with the National Service Organizations and the Department of 
Veterans Affairs to serve veterans. Our Association focuses on 
outreach, standardized quality training, and claims development and 
advocacy. We are an extension or arm of Government, not unlike the VA 
itself in service to the nation's veterans and their dependents.
    In this changing world there is a need for multiple approaches to 
outreach. Today, we have in our Nation veterans of WW2, Korea, Vietnam 
and those just returning from Iraq and Afghanistan. The Veterans 
Benefit Administration (VBA) has a monumental task of reaching each of 
these veterans and making sure they understand the benefits available 
to them.

Veterans' Outreach Improvements:
    There is a clear need that veterans being discharged from active 
duty, especially during time of war, have access to information 
concerning VA benefits entitlement. Often veterans are just glad to be 
going home and are not concerned with what benefits may be available to 
them. NACVSO proposes a partnership of the local County Veterans 
Service Officers, VA and DoD to reach out and assist the returning 
veterans in their local area.
    A first step would be providing the CVSO's a copy of the DD-214 and 
the addition of the veterans' cell phone number in the mailing address 
after separation block of the DD-214. This would provide the CVSO a 
ready tool for reaching out to the veteran. Additionally, NACVSO 
subscribes to Chairman Filner's solution to the problem of veterans 
suicides, that requires the military to use qualified physicians to 
interview every member before separation and determine who is in need 
of treatment while still on active duty, has merit and is probably the 
only way to reach every soldier. Additionally we believe that anyone 
found to be suicidal should be retained and transferred to the VA for 
treatment just as a soldier with a seriously physical injury. Those who 
are in need of treatment for a less serious diagnosis should be given a 
Fee Basic Card, for use in the local community with a five year renewal 
with VA approval.

Veterans Outreach Background:
    Across our Nation there are veterans that do not think they are a 
veteran because they did not lose a limb or get injured in anyway. They 
came home and started to work to support their families. They have 
never looked for any help from the Government. When the veteran dies 
their families still do not know they are entitled to benefits just 
because their husband or father served his country. These are the 
people that need outreach. They are mostly lower income and have never 
reached out to the VA and therefore they don't think they are entitled 
to this help.
    I look at rural and urban America and see the great need to make 
these veterans aware of the benefits that they deserve, that are earned 
entitlement not welfare. These veterans have never made use of the 
VAMCs, the GI Bill, Home Loan, Pension or Compensation Benefits. They 
just served their country and came home. It is so rewarding when you 
meet one of these veterans and tell them what they may be entitled to 
and see the hope on their face. It sometimes means the difference in 
eating or buying medicine. I am sure if a study was completed you would 
see a large number of rural veterans have never used the VA for any 
service and did not know they could. The VA has a responsibility to 
reach out and make everyone aware of their entitlement. One of the ways 
is for the County Veterans Service Officer to spread the word. To go 
into the communities with the message those veterans and their 
dependents have benefits due them. While many counties do fund a County 
Veteran Service Officer, the vast majority do not provide funding for 
outreach and other informational services.
    Outreach efforts must be expanded in order to reach those veterans, 
dependents and survivors that are unaware of their benefits and to 
bring them into the system. Nearly 2 million poor Veterans or their 
impoverished widows are likely missing out on as much as $22 billion a 
year in pensions from the U.S. Government, but the Department of 
Veterans Affairs has had only limited success in finding them, 
according to the North Carolina Charlotte Observer.
    Widows are hardest hit. According to the VA's own estimate, only 
one in seven of the survivors of the nation's deceased Soldiers, 
Sailors, Airmen and Marines who likely could qualify for the pension 
actually get the monthly checks. What's more, participation in the 
program is falling. Veterans and widows are unaware that the program 
exists. They simply don't know about it and the VA knows that many are 
missing out on the benefit. ``We obviously are here for any veteran or 
survivor who qualifies,'' said a VA Pension official. ``But so many of 
these people--we don't know who they are, where they are. ``The VA's 
own report from late 2004 recommended that the agency ``improve its 
outreach efforts'' with public service announcements and other pilot 
programs. While it made limited efforts to reach veterans or their 
widows through existing channels, it is difficult to determine whether 
such efforts have been successful.
    Of all those likely eligible, only 27 percent of veterans and 14 
percent of widows receive the money. It is obvious that there is a 
great need for outreach to into the veteran's community and the local 
CVSO is the advocate closest to the veterans and widows and with 
minimal funding could reach the maximum number of eligible veterans and 
widows.
    Therefore, NACVSO continues to support H.R. 67, introduced by 
Congressman Mike McIntyre of North Carolina, and S. 1315, by Feingold 
of California, both Outreach Bills that would allow Secretary Peake to 
provide Federal, state, local grants and assistance to state and county 
veteran's service officers to enhance outreach to veterans and their 
dependents. We are already present in most communities and stand ready 
to assist the Department of Veterans Affairs with this monumental task.
Conclusion:
    This concludes my comments. I am ready to answer any questions the 
committee may have. Thank you.

                                 <F-dash>
            Prepared Statement of Richard A. ``Rick'' Jones,
   Legislative Director, National Association for Uniformed Services

    Chairman Hall, Ranking Member Lamborn, and members of the 
Subcommittee:
    On behalf of the National Association for Uniformed Services 
(NAUS), I am pleased to be here today as you examine the effectiveness 
of VBA outreach efforts.
    The National Association for Uniformed Services celebrates its 40th 
year in representing all ranks, branches and components of uniformed 
services personnel, their spouses and survivors. NAUS membership 
includes all personnel of the active, retired, Reserve and National 
Guard, disabled veterans, veterans community and their families. We 
also serve as the main contact for the Society of Military Widows. We 
support our troops, honor their service, and remember our veterans, 
their families and their survivors.
    While much publicity is directed at VA outreach to health care, the 
question at hand for today's hearing is whether similar attention is 
being delivered to addressing the problems associated with VBA.
    Clearly, the benefit programs under the jurisdiction of VBA, 
including the provision of disability compensation payments, fulfill a 
primary obligation to make up for the economic and quality of life 
losses veterans suffer as a result of service-connected diseases and 
injuries. While we can never fully repay those who have stood in harm's 
way, a grateful Nation has a duty and obligation to provide benefits 
and health care to its veterans as a measure of its share of the costs 
of war and national defense.
    Understanding the benefits side of the Department, it must also be 
clearly understood that VBA is closely linked to the Health side of the 
VA. Both focus on securing appropriate attention to the relief of 
eligible veterans and serve in coordinating a veteran's earned benefits 
and services.
    As the National Association for Uniformed Services assesses the 
effectiveness of VBA outreach, we believe it is important that we first 
have an understanding on the number of OEF/OIF troops using the 
Department's health care system.
    At present, approximately 1.6 million troops have served in the two 
theatres of operation since the beginning of the conflicts in Iraq and 
Afghanistan. More than 837,000 Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF) veterans have left active duty and become 
eligible for VA health care since fiscal year 2002. According to the 
Department of Veterans Affairs, approximately half these veterans are 
former active duty troops (414,588) and half are Reserve and National 
Guard members (422,870).
    As is well known, advancement in battlefield medicine has improved 
the chances of survival in warfare. However, many of our present day 
wartime casualties suffer from multiple severe injuries such as 
amputation, traumatic brain injury (TBI) and post-traumatic stress 
disorder (PTSD). Care for these individuals requires an intense 
management of treatment for their injuries and special consideration of 
their families who stand by these returning heroes.
    Reports from VA indicate that from fiscal year 2002 through the 
current date 39 percent (325,000) of the total separated OIF/OEF 
veterans have obtained VA health care. Among this group, 96 percent 
were evaluated and been seen as outpatients only, not hospitalized. The 
remaining 4 percent (13,000) OIF/OEF patients have been hospitalized at 
least once in a VA health care facility.
    VA informs the National Association for Uniformed Services that of 
the OIF/OEF veterans who have sought VA health care approximately 
166,000 were former active duty troops and 159,000 were Reserve and 
National Guard members. Again, the population seeking care is nearly 
half active duty and half Reserve Component troops.
    In total, over the last six years VA reports that 6 percent of the 
5.5 million veterans in the VA medical care system are veterans of the 
most recent military conflict, OEF/OIF veterans.
    The Department attributes the rate of VA health care used by recent 
veterans to two major factors. First, the department says that recent 
combat veterans have ready access to the VA system, which is free of 
charge for five years following separation. In addition, the Department 
attributes a high rate of veteran participation is due to an extensive 
outreach effort developed by VA to inform veterans of their benefits, 
including ``a personal letter from the VA secretary to war veterans 
identified by DoD when they separate from active duty and become 
eligible for VA benefits.''
    The National Association for Uniformed Services applauds the 
recent, May 1, Department announcement of a dedicated outreach program 
directed at nearly 570,000 Afghanistan and Iraq combat veterans. The 
effort, according to VA, is to make sure these veterans are aware of 
``VA's medical services and other benefits for which they are 
entitled.'' In making the announcement, James B. Peake, Secretary of 
Veterans Affairs, said, ``VA is committed to getting these veterans the 
help they need and deserve.''
    The newly initiated VA Outreach program is set out in two phases. 
Phase one will contact ``the estimated 17,000'' who are sick or injured 
in Iraq and Afghanistan. VA assures the public that each of these 
veterans will have ``the opportunity'' to have a care manager appointed 
to their case. It is not clear to NAUS how this choice will be 
presented, but we understand the faith with which it is being 
presented.
    The second phase of VA's outreach program will target 550,000 OIF/
OEF veterans who have been separated from military service but have not 
sought VA care or services. We are encouraged to hear Dr. Edward 
Huycke, chief of the VA-DoD coordination office, say, ``We will leave 
no stone unturned to reach these veterans.''
    In examining the effectiveness of the outreach effort, it is 
important to recognize the stark difference in today's VA's language 
over that used in the recent past several years. We commend this change 
in expression and tone.
    However, we remain attentive to see that the most recent effort and 
the improved tone it reflects does not fail. Clearly there are 
concerns. Residue from a previous attitude remains within the system.
    We are seriously concerned, for instance, about reports at the 
Temple, Texas, VA Medical Center, which suggest that time and money 
could be saved if diagnosis of PTSD were stopped or deeply discounted.
    A PTSD program coordinator and psychologist at the Olin E. Teague 
Veterans Center sent an email with the subject line ``Suggestion'' to 
several VA staffers working with PTSD cases. The email suggested that 
VA doctors and clinicians give altered diagnosis to patients exhibiting 
symptoms of PTSD in order to save time and money. In the email, the 
staffer said, ``We really don't . . . have time to do the extensive 
testing that should be done to determine PTSD.''
    In a statement, however, VA Secretary Peake repudiated the email 
and said, ``a single staff member, out of VA's 230,000 employees, in a 
single medical facility sent a single e-mail with suggestions that are 
inappropriate and have been repudiated at the highest level of our 
health care organization.''
    The National Association for Uniformed Services appreciates the 
Secretary's promise to see that VA gives ``absolute accuracy in a 
diagnosis.'' His immediate response and public commitment to veterans 
is welcome and well received. Nevertheless, the incident is deeply 
troubling because veterans not only need to hear about the services 
they earned and deserve; they need to know that once they come to VA 
their exams are completed and their services are delivered.
    Mr. Chairman, as we head into Memorial Day next week, your 
Subcommittee takes a good, well-traveled road. In sending young men and 
women to defend our Nation, it is important that we let them know what 
our great and generous country provides them following their service. 
Indeed, we have a strong moral obligation to do so because without 
American patriots in uniform freedom itself might well be extinguished.
    It is clear to NAUS that veterans are generally more aware about 
the availability of benefits and services than they were four to six 
years ago. Not everything is perfect and we can do better. But things 
are improved.
    Six years ago, for instance, the administration was deeply opposed 
to spending resources aimed at making veterans aware of the benefits 
and services available at the Veterans Department. And facilities were 
in decline.
    At one point in that past period, a former Secretary of Veterans 
Affairs told the Nation that the Department budget was adequate. This 
announcement, made in April of that year, told Congress that VA did not 
need one-penny more. However, only a month later the Secretary reversed 
his statement to tell the Nation that his Department would fall $1.5 
billion short of the resources needed to carry veterans services 
through the remainder of the year.
    Prior to this revelation, NAUS and other associations had presented 
ample witness to deficiencies throughout the system. We pleaded with 
Congress and the Administration that funding levels were totally 
inadequate and, if not addressed, would lead to cuts in veterans health 
care services, reductions in veterans education benefits, and logjams 
in veterans disability claims for service connected injury or illness.
    During that period, things were so bad that a memorandum sent out 
by the Deputy Under-Secretary for Operations and Management (July 19, 
2002) actually directed all of its health care providers to stop 
marketing VA programs to veterans.
    In basic, the July 2002 memo said too many veterans were coming in 
for services and VA was spending too much money. It directed VA 
officials across the country to ``Stop Outreach to Veterans.'' VA 
employees were directed to stop participating in VA health fairs, Stand 
Downs and related outreach events that informed veterans about programs 
available to them. Medical facilities were prohibited even from putting 
out newsletters informing veterans about the services they were legally 
entitled to receive.
    We are thankful that we no longer face that deeply troubling 
period. If such heartless, shameful incompetence were in place today, 
many of OEF/OIF would struggle alone.
    Studies conducted by The Army surgeon general's Mental Health 
Advisory Team clearly show that our troops and their families face 
incredible stress today. According to the Department of Defense (DoD), 
27 percent of noncommissioned officers on their third or fourth tour 
exhibited symptoms commonly referred to as post-traumatic stress 
disorder. That figure is far higher than the roughly 12 percent who 
show those symptoms after one tour and the 18.5 percent who demonstrate 
these disorders after a second tour.
    And among the approximately half-million active-duty soldiers who 
have served in Iraq, more than 197,000 have deployed more than once, 
and more than 53,000 have deployed three or more times.
    A recent Rand Corporation study suggests that almost half of these 
returning troops will not seek treatment. Many of these veterans do not 
believe they are at risk or they fear that admitting to a mental health 
problem will mean being stigmatized. Yet if these brave individuals and 
their families are made aware of access to VA facilities, to which they 
are entitled, they are likely to find a treatment therapy that leads to 
health.
    If not addressed, stress symptoms can compound and lead to more 
serious health consequences in the future.
    Secretary Peake's recent announcement presents an opportunity for 
veterans to become more aware of VA's accessibility and readiness to 
meet their health care needs. The Secretary's effort is commendable. In 
some cases, a successful outreach can be a matter life and death. 
Veterans need to hear that VA is part of our nation's commitment to 
them. They need to hear that with appropriate care, our veterans can 
tackle stress and get themselves back on track.
    NAUS believes that Secretary Peake's announcement marks a turning 
point in outreach efforts. We are guardedly optimistic. But it is clear 
that more needs to be done, including follow-through throughout the VA 
system.
    Of course, there is a financial cost to improved outreach. But as 
important is the fact that if we do not make veterans aware of the 
benefits and services available to them, there is a hidden cost in 
lives lost, families disrupted and long suffering in homelessness and 
related problems for decades to come.
    We urge the Subcommittee to continue its excellent work with other 
champions in this Congress to ensure resources are ready not only for 
the provision of a veteran's earned benefits but for the veteran's 
awareness of these services as well. It is important that we do so. 
After all, these brave men and women shouldered a rifle and risked 
everything to accomplish their mission, to protect another people's 
freedom and our own country from harm.
    As a Nation, we need to understand that the value of their service 
is far greater than the price we pay for their benefits and services.
Appreciation for Opportunity to Testify
    As a staunch advocate for veterans, the National Association for 
Uniformed Services recognizes that these brave men and women did not 
fail us in their service to country. They did all our country asked and 
more. Our responsibility is clear. We must uphold our promises and 
provide the benefits they earned through honorable military service.
    Mr. Chairman, you and the members of your Subcommittee are making 
progress. We thank you for your efforts and look forward to working 
with you to ensure that we continue to protect, strengthen, and improve 
veterans benefits and services.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to examine with you outreach efforts to 
veterans, families and survivors on the benefits available to them.

                                 <F-dash>
                     Statement of Kathryn A. Witt,
  Member, Government Relations Committee, Gold Star Wives of America, 
                                  Inc.

    ``With malice toward none; with charity for all; with firmness in 
the right, as God gives us to see right, let us strive to finish the 
work we are in; to bind up the nation's wounds, to care for him who has 
borne the battle, his widow and his orphan.''

. . . . President Abraham Lincoln, Second Inaugural Address, March 
                                                            4, 1865

    Thank you for your invitation to testify before the Subcommittee on 
Disability Assistance and Memorial Affairs of the Committee on Veterans 
Affairs.
    I am Kathryn Witt, and I am the widow of SGM Keith M. Witt, U.S. 
Army (Retired). I would like to say that my husband received excellent 
care and superb service from our local VA and VA Medical Center.
    Gold Star Wives of America, Inc. (GSW) was founded in 1945 and is a 
Congressionally chartered Veterans Service Organization comprised of 
surviving spouses of military service members who died while on active 
duty or as a result of a service-connected disability. GSW currently 
has approximately 10,000 members who are surviving spouses of those who 
served in World War II, the Korean war, the Vietnam war, the current 
wars in Iraq and Afghanistan and other smaller conflicts.

                            Survivors Office

    GSW would very much like to see a Survivors Office at the 
Department of Veterans Affairs (VA). Ideally a Survivors Office would 
represent survivors at the Policy level as well as have personnel who 
are trained to assist survivors with claims and provide the necessary 
information on survivor benefits and how to apply for them.
    Survivors are often referred to and thought of as family members, 
but survivors really are not family members. Survivors are a separate 
and distinct category of beneficiaries. The VA benefits survivors 
receive are very different from the benefits of other beneficiaries.
    GSW has numerous reports of survivors who have called the VA 
Regional Offices and either been given erroneous information, 
incomplete information or no information. Apparently the personnel 
answering the phones have little or no training on survivor benefits 
and no readily accessible source for survivor benefit information.
    Ideally claims for survivor benefits would also be handled 
exclusively by this office and routine, properly documented claims 
could be expedited.
    We have numerous complaints from all categories of survivors who 
have filed for Dependency and Indemnity Compensation (DIC) and waited 
months and years for a routine, properly documented application to be 
processed. In some instances these spouses have lost their homes, 
ruined their credit ratings, had to file for bankruptcy, or had to 
defer needed medical care or go heavily in debt to obtain medical care. 
The spouses who suffer the most in this particular situation have been 
long term caregivers for their husbands who had a service connected 
disability and have therefore been unable to maintain a career or 
acquire personal resources.

                       Army Long Term Family Care

    The Army Casualty and Mortuary Affairs office of the Human 
Resources Command in Alexandria, VA, provides training and Army 
certification on VA survivor benefits to every Army Casualty Assistance 
Officer (CAO). The Army Long Term Family Care office gives every 
survivor a loose leaf notebook that contains a copy of the VA handbook, 
``Federal Benefits for Veterans and Dependents'' and lists of mailing 
addresses, website addresses and phone numbers the survivor might need 
in addition to the necessary Army information. The Casualty Assistance 
Officer also assists the survivor in locating a VA office and filing 
the necessary VA claims. The Army Long Term Family Care office also 
offers assistance to surviving spouses and children for as long as they 
need assistance. Although the primary mission of the Army Long Term 
Family Care office is to assist survivors of Army personnel who died on 
Active duty, they will also assist survivors of other military 
services, retired survivors, and veterans when they are asked to do so. 
These folks do a tremendous job of assisting survivors and others in 
need of assistance. This program should be duplicated for all the 
military services. This Army Long Term Family Care office would be an 
extremely good model for a VA Survivors Office.

         National Service Officers Trained on Survivor Benefits

    Our recent surviving spouses are overwhelmed with grief and with 
everything that needs to be done when their military spouses die. Some 
are not even aware that they are entitled to VA benefits; others do not 
know the benefits to which they are entitled, let alone how to go about 
obtaining those benefits. They are confused about which benefits are 
from DoD and which benefits are from the VA. Some are unaware that they 
must file a claim for VA survivor benefits.
    Training for the National Service Officers (NSO) from the Veterans 
Service Organizations (VSO) should include a substantial segment on 
survivor benefits. Training on survivor benefits should also be 
available to members of organizations like GSW.

                      ChampVA and Medicare Part B

    ChampVA requires disabled surviving spouses under the age of 65 to 
purchase Medicare Part B at a cost of approximately $100 per month. 
Many disabled surviving spouses are not aware that ChampVA requires 
that they purchase Medicare Part B to retain their ChampVA benefits. 
The requirement for disabled  surviving spouses to purchase Medicare 
Part B needs to be revoked, but at a minimum an outreach program needs 
to be established to ensure that disabled surviving spouses are aware 
of the need to purchase Medicare Part B in a timely manner.

    In most cases they were not made aware of the requirement to 
purchase Medicare Part B until ChampVA denied coverage for medications 
or a claim was denied. When they discovered that they had to purchase 
Medicare Part B, they were also required to pay penalties and interest.
    Only those receiving Social Security Disability payments under the 
age of 65 are required to purchase Medicare Part B. Enabled persons 
under the age of 65 entitled to ChampVA are not required to purchase 
other health insurance to receive ChampVA benefits. The Federal 
Employees Health Benefits Plan (FEHBP) does not require those under 65 
to purchase additional health insurance to receive benefits from FEHBP. 
This ChampVA requirement not only discriminates against the disabled, 
but it is levied against those least able to pay.
    GSW strongly recommends that all those entitled to Medicare Part B 
purchase it; however we believe that the ChampVA requirement to 
purchase it discriminates against the disabled and is just plain wrong.

                           Military ID Cards

    GSW also has many members who are unaware that they are entitled to 
a military identification card for commissary and exchange privileges 
if their deceased spouse was a 100 percent disabled veteran, and they 
are eligible for DIC. These surviving spouses are not receiving the 
information or the required letter from the VA. Additionally, the 
personnel in the military who are supposed to issue the identification 
cards do not know how to get the information into the various computer 
systems as required and therefore cannot issue the identification 
cards. Outreach to the surviving spouses who are eligible for the 
military ID card and more coordination with DoD would be very much 
appreciated.

                Property Taxes Exemptions and Reductions

    Many of our surviving spouses are entitled to property or real 
estate tax exemptions on their homes. In some states the VA provides 
letters to these surviving spouses that are to be given to their local 
tax office to verify that they are entitled to this exemption or 
reduction. In some cases the surviving spouse receives the letter from 
the VA and has no idea what the letter is for or that he or she is 
entitled to a property tax exemption or reduction. In other states the 
surviving spouse is aware that she is entitled to the property tax 
exemption or reduction, but no one at the VA who is familiar with this 
issue and either can provide her with the appropriate letter or refer 
her to someone who can provide the letter. We need more outreach and 
clarification on this issue.

                               Newsletter

One way to increase outreach to survivors might be to have a newsletter 
for survivors.
    As the cost of printing and mailing a newsletter would be 
prohibitive, I would suggest that a survivors' newsletter be attached 
to the VA website www.va.gov. The website could contain a request that 
those who read the online newsletter pass a link to others in a similar 
situation. There should also have a subscriber list so that either 
copies of a new newsletter could be emailed to them or a notice that a 
new newsletter is available could be mailed to them.
    The newsletter could contain information about changes in VA 
benefits, new benefits, COLAs, etc. Each addition could contain an 
article about an existing benefit, the criteria for receiving that 
benefit and how to apply for that benefit. It could include the email 
addresses and phone numbers a survivor might need to obtain information 
about different benefits. It could also contain a ``contact us'' link 
that would allow a survivor to ask questions and a database of prepared 
answers to frequently asked questions.
    As we all know, improvements and new ideas are needed to make the 
VBA outreach efforts more effective.
    Thank you for this opportunity to testify before you today.

                                 <F-dash>
                       Statement of Kerry Baker,
  Associate National Legislative Director, Disabled American Veterans

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the 1.3 million members of the Disabled American 
Veterans (DAV), I am honored to appear before you today to discuss the 
effectiveness of the Veterans Benefits Administration's (VBA's) 
outreach efforts. In accordance with our congressional charter, the 
DAV's mission is to ``advance the interests, and work for the 
betterment, of all wounded, injured, and disabled American veterans.'' 
Such a goal is not attainable for all disabled veterans without proper 
outreach efforts.
    Outreach to service members, veterans, and their dependents is an 
integral part of the VBA. Outreach is a cooperative effort among the 
five VBA business lines (Compensation and Pension, Education, Loan 
Guaranty, Insurance, and Vocational Rehabilitation and Employment) and 
among VA elements including field organizations, VHA, NCA, and the 
Office of Public Affairs (OPA). This testimony will focus on VBA 
outreach centered in the field of compensation and pension.
    In June 2006, Congress passed the ``Veterans' Housing Opportunity 
and Benefits Improvement Act of 2006'' (S. 1235). Pub. L. No. 109-233, 
Title IV, Sec. 402(a), 120 Stat. 408 (codified at 38 U.S.C. chapter 
63). Congress intended this legislation to, among other things, improve 
and extend outreach and benefits programs provided under the laws 
administered by the Secretary of Veterans Affairs (the ``Secretary'').
    Congress declared in S. 1235 that the outreach services program is 
to ensure that all veterans (``especially those who have been recently 
discharged or released from active military, naval, or air service and 
those who are eligible for readjustment or other benefits and services 
under laws administered by the Department'') are provided timely and 
appropriate assistance to aid and encourage them in applying for and 
obtaining benefits. Such benefits and services are to assist those 
veterans in achieving a rapid social and economic readjustment to 
civilian life, and to obtain a higher standard of living for themselves 
and their dependents. Specific to the outreach services program 
authorized by S. 1235, Congress charged the Department of Veterans 
Affairs (VA) with ``the affirmative duty of seeking out eligible 
veterans and eligible dependents and providing them with such 
services.'' 38 U.S.C.A. Sec. 6301(a) (West 2002 & Supp 2007).
    Under section 6302 of the forgoing statute, the Secretary must, 
during the first nine months of every odd-numbered year (2007 being the 
first odd-numbered year), prepare a biennial plan for the outreach 
activities of the VA for the two-fiscal-year period beginning on 
October 1 of that year--October 1, 2007, was the beginning of the 
current two-fiscal-year period. The statute requires the VA to include 
the efforts in each biennial plan utilized to identify eligible 
veterans and dependents who are not enrolled or registered for benefits 
or services under the programs administered by the VA. The report must 
also include plans for informing eligible veterans and dependents of 
modifications of the benefits and services under the programs 
administered by the VA. Based on DAV's research, we must conclude that 
the VA has failed to issue this report, despite its due date of October 
1, 2007.
    In carrying out the purposes of title 38, United States Code, 
Chapter 63, the VA is required to provide outreach services as follows:

          (b) Individual notice to new veterans. The Secretary shall by 
        letter advise each veteran at the time of the veteran's 
        discharge or release from active military, naval, or air 
        service (or as soon as possible after such discharge or 
        release) of all benefits and services under laws administered 
        by the Department for which the veteran may be eligible. In 
        carrying out this subsection, the Secretary shall ensure, 
        through the use of veteran-student services under [38 U.S.C.A. 
        Sec. 3485] that contact, in person or by telephone, is made 
        with those veterans who, on the basis of their military service 
        records, do not have a high school education or equivalent at 
        the time of discharge or release.
          (c) Distribution of information. (1) The Secretary--
          (A) shall distribute full information to eligible veterans 
        and eligible dependents regarding all benefits and services to 
        which they may be entitled under laws administered by the 
        Secretary; and
          (B) may, to the extent feasible, distribute information on 
        other Governmental programs (including manpower and training 
        programs) which the Secretary determines would be beneficial to 
        veterans.
          (2) Whenever a veteran or dependent first applies for any 
        benefit under laws administered by the Secretary (including a 
        request for burial or related benefits or an application for 
        life insurance proceeds), the Secretary shall provide to the 
        veteran or dependent information concerning benefits and health 
        care services under programs administered by the Secretary. 
        Such information shall be provided not later than three months 
        after the date of such application.

    Through this Act, Congress also mandated that VA provide, ``to the 
maximum extent possible, aid and assistance (including personal 
interviews) to members of the Armed Forces, veterans, and eligible 
dependents with respect to subsections (b) and (c) and in the 
preparation and presentation of claims under laws administered by the 
Department.'' 38 U.S.C.A. Sec. 6303(d).
    In December 2006, Congress passed another bill affecting, among 
other things, outreach to veterans concerning health care: The 
``Veterans Benefits, Health Care, and Information Technology Act of 
2006'' (S. 3421). Pub. L. No. 109-461, Title II, Sec. 213(a), 120 Stat. 
3422. Since health care is not the subject of this hearing, we are 
providing this for informational and persuasive purposes only. In the 
foregoing section of S. 3421, Congress mandated the following:

          The Secretary of Veterans Affairs shall conduct an extensive 
        outreach program to identify and provide information to 
        veterans who served in the theater of operations for Operation 
        Iraqi Freedom or Operation Enduring Freedom and who reside in 
        rural communities in order to enroll those veterans in the 
        health care system of the Department of Veterans Affairs during 
        the period when they are eligible for such enrollment.

    The foregoing provisions of law, and other existing provisions, 
have proven rather successful in ensuring that Operation Enduring 
Freedom/Operation Iraqi Freedom (OEF/OIF) veterans receive outreach 
that truly sets new standards for the very proposition. For example, 
According to VA Pamphlet 2-01-08, which briefly outlines the 
Department's strategic goals, OEF/OIF initiatives are reported as 
follows:

    <bullet>  In 2007, prioritized claim processing for OEF/OIF 
veterans, finalizing claims received in an average of 110 days.
    <bullet>  Hired 100 new outreach coordinators to provide services 
to returning OEF/OIF veterans.
    <bullet>  Created an Advisory Committee on OEF/OIF Veterans and 
Families to advise the Secretary.
    <bullet>  Coordinated 8,236 transfers of OEF/OIF service members 
and veterans from a military treatment facility to a VA medical 
facility.
    <bullet>  Received 39,000 referrals from the Post Deployment Health 
Reassessment (PDHRA) initiative.
    <bullet>  Participated in 805 PDHRA On-Site and 247 Call Center 
events since November 2005. A total of 32,321 referrals were made to 
VAMC and 15,842 to Vet Centers.
    <bullet>  Contacted 91% of severely injured or ill OEF/OIF service 
members/veterans, by a VA case manager, within 7 days of notification 
of transfer to the VA health care system.

    In addition to the above, VBA employees conducted 8,154 Transition 
Assistance Program (TAP) briefings in 2007 with 296,855 attendees, 
including 100,976 individual interviews. Through April of FY 2008, 
those numbers are 4,877; 195,037; and 47,909 respectively. The Disabled 
Transition Assistance Program (DTAP) works in conjunction with the TAP 
program for those members leaving service because of disability.
    Under the Veterans Assistance at Discharge (VADS) program, VA 
generates the mailing of a ``Welcome Home Package'' that includes a 
letter from the Secretary, VA Pamphlet 21-00-1, A Summary of VA 
Benefits, and VA Form 21-0501, Veterans Benefits Timetable, to all 
veterans recently separated or retired from active duty. A follow-up 
letter is mailed six months later.
    The Benefits Delivery at Discharge (BDD) program is a program that 
provides transition assistance and continuity of care to service 
members who are separating from active duty. Under the BDD Program, 
service members may begin the disability claims process with VA up to 
180 days prior to separation. As of December 2006, there were 140 BDD 
sites that actively process claims from separating service members. VA 
and DoD signed a memorandum of agreement (MOA) in November 2004 which 
established a Cooperative Separation Process/Examination under the BDD 
program. The MOA stipulates that only one examination is to be 
conducted, using VA protocols, which meet the needs of VA and DoD.
    Another program, Coming Home to Work (CHTW) is an early outreach 
effort with special emphasis on OEF/OIF service members at military 
treatment facilities who are pending medical separation from active 
duty. Participants work with a VA Vocational Rehabilitation Counselor 
(VRC) to obtain unpaid work experiences at Government facilities to 
learn skills they may use to ease transition to civilian employment.
    The VA and DoD are also collaborating to ensure VA is notified of 
service members referred to the Physical Examination Board (PEB) who 
may be medically separated or retired and transitioning to VA and 
civilian life. Under this initiative, DoD is providing VA with the 
names of service members entering the PEB process. The monthly list 
enables VBA to contact service members who have not yet applied for 
disability compensation to ensure that they are informed of potential 
benefits administered by VA.
    The VA now employs Casualty Assistance Officers (CAOs) that visit 
family members of veterans who die on active duty and assist them in 
applying for benefits. The visits are coordinated with military CAOs to 
ensure that family members are aware of and linked with the necessary 
VA services.
    In addition to the foregoing, the VA recently announced in an April 
24, 2008, Department News Release that beginning May 1, 2008, VA would 
``begin contacting nearly 570,000 recent combat veterans to ensure they 
know about VA's medical services and other benefits.'' The News Release 
quoted the Secretary as stating: ``We will reach out and touch every 
veteran of Operation Enduring Freedom and Operation Iraqi Freedom to 
let them know we are here for them,'' and that ``VA is committed to 
getting these veterans the help they need and deserve.''
    A contractor-operated ``Combat Veteran Call Center'' will telephone 
two distinct populations of veterans from Iraq and Afghanistan. In the 
first phase, calls will go to an estimated 17,000 veterans who were 
sick or injured while serving in Iraq or Afghanistan. The VA will offer 
these veterans a ``care manager'' to ensure they each receive 
appropriate care and know about their VA benefits.
    The second phase will target 550,000 OEF/OIF veterans who have been 
discharged from active duty but have not contacted VA for services. 
Once contacted, these veterans will be informed about VA's benefits and 
services. VA employees will make follow-up calls if needed. The Chief 
of the joint VA and Department of Defense coordination office, Dr. 
Edward Huycke, was quoted in the News Releases stating: ``We will leave 
no stone unturned to reach these veterans[.]''
    These outreach efforts are truly unprecedented. They appear to be 
mainly the result of Congress' passage of S. 1235. However, these and 
other ongoing outreach efforts may be in part the result of the 
``Veterans Benefits Improvement Act of 2004'' (S. 2486), passed in 
December 2004. Pub. L. No. 108-454 (see Title VIII, Sec. 805).
    Just as section 402 of S. 1235 requires VA to prepare a 2-year plan 
for outreach activities, for which it has not complied, section 805 of 
S. 2486 also requires a similar plan, but for which it has only 
partially complied. Specifically, section 805 of S. 2486 requires the 
Secretary to submit a report to Congress setting forth a detailed 
description of:

          (1) the outreach efforts of the [VA], as of the date of the 
        enactment of this Act, to inform members of the uniformed 
        services and veterans (and their family members and survivors) 
        of the benefits and services to which they are entitled under 
        laws administered by the Secretary, and (2) the current level 
        of awareness of those members and veterans (and family members 
        and survivors) of those benefits and services.

    Congress required this report to include the following:

          1.  A description of the outreach activities conducted by the 
        Secretary in each of the three Administrations of the [VA] and 
        outreach activities conducted by other entities within the 
        Department.
          2.  The results of a national survey, conducted as described 
        in subsection (c), to ascertain service members' and veterans' 
        level of awareness of benefits and services referred to in 
        subsection (a) and whether service members and veterans know 
        how to access those benefits and services.
          3.  Recommendations by the Secretary on how outreach and 
        awareness activities to veterans and service members may be 
        improved.

    The national survey required by subsection (b)(2), is outlined in 
subsection (c), and must include a statistically valid sample of 
persons in each of the following groups:

          1. World War II veterans;
          2. Korean conflict era veterans;
          3. Vietnam era veterans;
          4. Persian Gulf era veterans;
          5. Active duty service members;
          6.  National Guard and Reserve members activated under title 
        10, United States Code;
          7. Family members and survivors

    Public Law 108-454 prompted VA to publish an Interim Report on 
Outreach Activities (Interim Report) in December 2006, despite its due 
date to Congress of December 2005.
    The VA claimed that its Interim Report complied with the first and 
third requirements of P.L. 108-454. However, as to the second 
requirement, that VA report on the results of a national survey of 
service members and veterans to determine their level of awareness of 
benefits and services available to them, the Interim Report states that 
``VA reviewed all available survey and program data, but none was able 
to provide us with a comprehensive or objective measure of awareness.'' 
The reason given by VA for its noncompliance with the second 
requirement of P.L. 108-454 was that ``existing information was 
collected only from those veterans who were already receiving a VA 
service or benefit. This excluded the possibility of measuring 
awareness among all populations identified.''
    To address this deficiency, the Interim Report states that VA's 
Office of Policy and Planning (OPP) is planning a Department-wide 
effort to develop awareness measures and implement these measures in 
the conduct of the next national survey scheduled for 2008. 
Acknowledging this, the DAV senses a disconnect between Congress' 
mandate and the VA's resulting actions.
    For example, P.L. 108-454 expressly requires VA to conduct a survey 
that includes a statistically valid sample of the following: (1) World 
War II veterans; (2) Korean conflict era veterans; (3) Vietnam era 
veterans; (4) Persian Gulf era veterans; (5) active-duty service 
members; (6) National Guard and Reserve members activated under title 
10, United States Code; and, (7) family members and survivors. The VA 
is then required to use the results of that study to determine the 
collective awareness of benefits and services available to those groups 
under laws administered by the Secretary.
    The VA's actions were nothing more than a review of available data 
on-hand, followed by a determination that the available data did not 
comply with Congress' mandate. Further, the VA's plan to utilize the 
previously scheduled 2008 national survey as its compliance with 
requirement two of P.L. 108-454 will continue to be in non-compliance 
with that requirement. Moreover, the DAV does not believe that the VA 
could have possibly complied with the third requirement of P.L. 108-
454, that it recommend how to improve outreach and awareness 
activities, before it is able to understand the true results of the 
second requirement of P.L. 108-454.
    The DAV can only commend VA's outreach efforts concerning the 
newest generation of veterans--efforts that are unprecedented in the 
entire history of the VA. These new veterans will not live a single 
year, much less multiple decades, ignorant of the benefits that they 
have earned. Their lives, shattered by disability and the unshakable 
memories of war, will be set forth on a path of improvement and 
rebuilding immediately upon discharge from service.
    Nonetheless, we can and do condemn the VA for practically ignoring 
all other groups of veterans. In the 2004 legislation mentioned herein, 
Congress made clear its intentions for the VA to locate and reach out 
to those older groups of veterans, and we commend it for such. In turn, 
the VA failed to honor the mandate of Congress and it appears poised to 
continue such failure.
    Congress' mandate in the 2006 legislation mentioned herein 
concerning older groups of veterans was much more discretionary, 
however. See 38 U.S.C.A. Sec. 6301(a) (stating ``purpose'' of outreach 
services program as to ensure all veterans ``especially those who have 
been recently discharged . . . and those who are eligible for 
readjustment or other benefits . . .'' are provided assistance to aid 
and encourage them in obtaining benefits). While the statute's language is 
not all-inclusive to the newest generation of veterans, it is certainly 
suggestive of such. Therefore, we fault Congress for allowing this slight 
discretion--we fault the VA for capitalizing on such discretion.
    The DAV firmly believes that VBA's outreach efforts should be 
uniformly distributed across the veteran population, which includes the 
newest generation, the greatest generation, and everyone in-between. 
The reasons for this are obvious.
    For example, according to the 2001 National Survey of Veterans 
(NSV), there were approximately 25,095,000 living veterans in 2001. Of 
those, veterans of World War II, the Korean Conflict, and the Vietnam 
War, made up 73.5 percent, or 18,444,825 of all living veterans as of 
2001. Of those, 8,193,824 were reported as combat veterans. Yet, 
according to the survey, only 2.3 million total veterans were receiving 
compensation as of September 2000. In contrast; however, only 19,246 
veterans 56 years old and older began receiving benefits for the first 
time in 2001.\1\ In 2005, 68,195 veterans over the age of 56 began 
receiving benefits for the first time; 67,629 veterans over the age of 
56 began receiving benefits for the first time during FY 2006.\2\ The 
VA's ABR for FY 2007 has not yet been published. However, a 
recapitulation of DAV's monthly reporting system for the past 16 months 
reveals the DAV represented 2,611 World War II veterans, 3,391 Korean 
War veterans, and 26,869 Vietnam War veterans that received new awards 
for service-connected disabilities for the first time.
---------------------------------------------------------------------------
    \1\ VBA Annual Benefits Report Fiscal Year 2006 (ABR 2001 et seq.), 
Department of Veterans Affairs, Veterans Benefits Administration, p. 
20.
    \2\ ABR 2005, 2006.
---------------------------------------------------------------------------
    To put these numbers into a different perspective, approximately 10 
percent of World War II veterans, 5 percent of Korean War veterans, and 
12 percent of Vietnam War veterans are service-connected for 
disabilities incurred during military service. These numbers are scant 
when compared to the percentage of discharged OEF/OIF veterans already 
receiving benefits. By 2007, there was slightly more than 630,000 OEF/
OIF veterans discharged from service.\3\ Approximately 224,000 of these 
veterans filed disability compensation claims well before the end of 
2007, which is over 35 percent. Approximately 70 percent of those 
claims, or 156,800, which is nearly 25 percent of the total number of 
discharged OEF/OIF veterans, resulted in a favorable decision.\4\
---------------------------------------------------------------------------
    \3\ Blimes, Linda. Soldiers Returning from Iraq and Afghanistan: 
The Long-term Costs of Providing Veterans Medical Care and Disability 
Benefits. John F. Kennedy School of Government, Harvard University. 
Jan. 2007.
    \4\ VA Pamphlet 2-1-08.
---------------------------------------------------------------------------
    The above numbers do not show that OEF/OIF veterans are disabled at 
more than twice the rate of older veterans, but that they are receiving 
benefits at over twice the rate. The VA's current and unprecedented 
efforts of placing phone calls to nearly 600,000 OEF/OIF veterans will 
undeniably increase the rate of which the newest generation obtains 
benefits when compared to veterans of past wars, which is already, on 
average, an approximate 3 to 1 ratio.
    Do not interpret the DAV's position as one of disagreement with 
enhanced outreach for the nation's newest veterans. Rather, we feel 
that the lopsided degree of outreach to these new veterans in 
comparison to the outreach offered to our oldest veterans, has now 
reached a level of absurdity. World War II veterans are still receiving 
benefits, by the tens of thousands, for the first times in their entire 
lives--between six and seven decades after their service. This same 
group continues to die at approximately 1,000 per day. Many have died 
and will continue to die without ever receiving the benefits to which 
they are lawfully entitled, not because VA refused to grant such 
benefits, but because many simply never knew they were ever entitled to 
any benefits.
    In light of the laws passed in 2004 and 2006, it is apparent that 
the VA does not have any plans to reach out to the older groups of 
veterans in the same manner they are reaching out to the newest group 
of veterans. Congress can and should rectify this situation by removing 
the discretion provided to the VA in 38 U.S.C.A. Sec. 6301(a), which 
allows it to place emphasis on newly discharged veterans by stating: 
``especially those who have been recently discharged or released from 
active military, naval, or air service and those who are eligible for 
readjustment or other benefits and services under laws administered by 
the Department.'' This change would require VA to focus on outreach 
efforts that would apply equally to veterans of all wars.
    Mr. Chairman, this concludes my testimony and I will be pleased to 
consider any questions by you or other members of the Subcommittee.

                                 <F-dash>
                      Statement of Jacob B. Gadd,
  Assistant Director, Veterans Affairs and Rehabilitation Commission, 
                            American Legion

    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
view on the effectiveness of Veterans Benefit Administration's (VBA's) 
outreach efforts. The American Legion commends the Subcommittee for 
holding a hearing to discuss the importance of benefit outreach to 
veterans.
    The Department of Veterans Affairs (VA), in the last several years, 
has improved its outreach efforts, especially its efforts to reach and 
inform active duty service members preparing to leave the military. The 
American Legion remains concerned, however, that many transitioning 
service members, especially those returning from Operations Enduring 
Freedom (OEF) and Iraqi Freedom (OIF) are not being adequately advised 
of the benefits and services available to them from VA and other 
Federal and state agencies. This is especially true of Reserve and 
National Guard Units that are often demobilized at hometown Reserve 
Centers and National Guard armories, rather than active duty 
demobilization centers.
    VA and the Department of Defense (DoD) have made strides toward 
improved outreach. The number of Transitional Assistance Program (TAP) 
and other military services briefings conducted by VBA has steadily 
increased since 2003, as has the number of service members attending 
the briefings. VA also mails all recently separated or retired service 
members a ``Welcome Home'' package that includes both a pamphlet, 
summarizing available VA benefits, and a veterans' benefits timetable.
    Unfortunately, VA's efforts regarding TAP are hampered by the fact 
that only one of the services, the Marine Corps, requires its 
separating members to attend these briefings. This flaw in the system 
did not escape the Veterans' Disability Benefits Commission (VDBC) and 
resulted in the recommendation that Congress mandate TAP briefings and 
attendance throughout DoD. The American Legion strongly agrees with 
that recommendation. In order for all separating service members to be 
properly advised of all VA benefits to which they may be entitled, it 
is crucial that Congress adequately fund and mandate both TAP 
availability and attendance in all of the military services.
    VA also affords separating service members the opportunity to start 
the disability claims process, at least 6 months prior to separation 
from active duty, through its Benefits Delivery at Discharge (BDD) 
program. Unfortunately, this program is not available to all separating 
service members with service-related medical conditions as the program 
is only available at 140 military installations. Necessary measures, 
including adequate funding, should be taken to ensure that all 
separating service members, including members of the National Guard and 
Reserve, have the opportunity to participate in the BDD process, if 
they so desire.

Vet Centers
    The American Legion believes that VA needs to ensure that future 
Vet Centers are positioned to reach as many rural veterans as possible. 
Although Vet Centers have extensive outreach plans, more outreach is 
needed to reach other groups of veterans who may not know they are 
eligible to use Vet Centers or those who may not be familiar with the 
program in general. Many veterans learn of Vet Centers by word of 
mouth. Reaching veterans residing in rural areas will be a challenge. 
Surely, the 100 new Vet Center GWOT outreach coordinators that will be 
hired will also enhance outreach to eligible veterans. VA's plan to 
create 23 new Vet Centers by the end of 2008 will bring the number of 
Vet Centers to 232. This will improve access to readjustment services 
for many combat veterans and their families, some of which reside in 
underserved areas.

Other Outreach Efforts
    An overall weakness in VA's outreach program is that its efforts to 
target veterans already in the VA system. Often times, various 
informational mailings discussing changes in law, new benefit 
entitlements, and other pressing issues are only sent to individuals 
who are currently receiving VA benefits, or those who participated in 
one of VA's various registry programs, such as Gulf War or Agent 
Orange. VA also makes such information available at its medical centers 
and outpatient clinics. We realize that it may be easier to locate and 
contact veterans that are already being served by VA or have been in 
the past. Unfortunately, this method drastically limits the number of 
veterans reached since many are not currently receiving VA benefits or 
being treated at a VA medical facility. In fact, there are many 
veterans that have never even applied for VA benefits.
    These are the veterans who fall through the cracks, especially when 
it comes to being advised of changes in law or regulation, or the 
addition of new benefits to various presumptive categories, that could 
directly affect their eligibility to receive various benefits. For 
example, it is not unusual for American Legion Service Officers to 
encounter ``in-country'' Vietnam veterans diagnosed with type II 
diabetes that are not aware they are eligible to receive disability 
compensation and free VA health care for the condition, despite the 
fact the disability was recognized as an Agent Orange/herbicide 
presumptive disability 7 years ago. In most, if not all, of these cases 
the veteran was not currently in the VA system. It is very apparent 
that VA needs to expand its outreach efforts to reach these veterans.
    VA should expand its use and distribution of public service 
announcements, press releases and other media tools, especially in 
instances where the information affects a large number of veterans, in 
order to reach veterans that do not have any current or past 
affiliation with VA. The American Legion also encourages VA to enhance 
its outreach efforts by working closer with Veterans' Service 
Organizations (VSO), utilizing VSO publications to reach veterans VA 
may not otherwise be able to reach.

American Legion Outreach Programs
Department (State) Service Officers
    Department Service Officers have specialized training and 
experience with VA regulations and are familiar with the many VA 
programs and services. They provide an invaluable service to veterans 
as this service is free and the veteran does not have to be member. 
When a veteran contacts The American Legion National Headquarters, 
views our website, or speaks to a Legion member, they are referred to 
that state's Department Service Officer. A Post Service Officer's Guide 
is distributed to 14,000 posts nationwide to help answer benefit 
questions which also serves as a referral source for veterans wishing 
to file claims.

Heroes to Hometowns
    In an effort to increase transparency and cooperation between DoD 
and the American people, The American Legion entered into an 
understanding with the Office of the Secretary of Defense's (OSD) 
Office of Military Community and Family Policy (MCFP) under the 
authority of the Deputy Under Secretary of Defense for Military 
Community and Family Policy, Leslye A. Arsht, to assist in outreach and 
assistance efforts to transitioning severely injured service members. 
The American Legion agreed to provide outreach support to the military 
community's severely injured as they transitioned home through a 
program known as Heroes to Hometowns. This program embodies The 
American Legion's long standing history of caring for those ``. . . who 
have borne the battle . . .'' and their families.
    Heroes to Hometowns is designed to welcome home service members who 
no longer serve in the military. The American public's strong support 
for our troops is especially evident in their willingness to help 
service members who are severely injured in the war, and their ever-
supportive families, as they transition from the hospital environment 
and return to civilian life. Heroes to Hometowns is a program that 
focuses on reintegration back into the community, with networks 
established at the national and state levels to better identify the 
extraordinary needs of retuning families before they return home and 
the local community to coordinate Government and non-Government 
resources as necessary for as long as needed.
    There are three charter members in each State's Heroes to Hometowns 
Executive Committee, each uniquely able to contribute to overall 
support with the ability to tap into their national, state, and local 
support systems to provide essential links to Government, corporate, 
and non-profit resources at all levels and to garner the all important 
hometown support.
    State Heroes to Hometowns Committees are the link between the 
Military Treatment Facilities and the community. The charter members 
consist of the State Office of Veterans Affairs, the State Transition 
Assistance Office and the State's veterans community represented by The 
American Legion. Heroes to Hometowns is a collaborative effort and The 
American Legion leads communities in preparation to support returning 
service member in areas such as:

    <bullet>  Financial Assistance;
    <bullet>  Finding suitable homes and adapting as needed;
    <bullet>  Home and Vehicle repairs;
    <bullet>  Transportation for veterans to medical appointments;
    <bullet>  Employment and educational assistance;
    <bullet>  Child care support;
    <bullet>  Arrange Welcome home celebrations;
    <bullet>  Sports and recreation opportunities

    When transitioning veterans request assistance via a web-form or 
brochure available through The American Legion, the veteran's contact 
information is shared with the State Executive Committee. The American 
Legion State offices refer the veteran's request to the local Post, 
which connects with the veteran to provide assistance. The American 
Legion focuses on those needs not provided by Federal and state 
agencies.
    To assist in the coordination of community resources, The American 
Legion supports OSD's Military Homefront Online Support Network for 
military personnel and community organizations to connect and 
collaborate. Located at www.homefrontconnections.mhf.dod.mil, this 
online network is dedicated to citizens and organizations that support 
America's service men and women. Through the support network, veterans 
can easily identify and quickly connect with national, state and 
community support programs.
    In 2007, the Heroes to Hometowns program expanded its vision to 
include all transitioning service members, to include the underserved 
National Guard and Reserve components. Currently, the National Guard 
and Reserve do not have mandated TAP briefings when demobilizing. This 
hard to reach population primarily lives in rural America, disconnected 
from the traditional services provided by DoD or VA. The American 
Legion, with its 2.7 million members and 14,000 posts, reaches into 
these rural communities conveying a consistent message of strong 
support for America's military personnel; the veteran who return home; 
care for the veteran's family; and a patriotic pride in America. With 
the Heroes to Hometowns program, The American Legion reaches out to 
provide support long-after the deployment is over.
Department of Veterans Affairs Voluntary Service (VAVS) Program
    The American Legion is a staunch supporter of VA's Voluntary 
Service (VAVS) program. In fiscal year 2007, some 7,527 regularly 
scheduled Legionnaires volunteered 909,137 hours at 167 VA facilities. 
Legionnaires volunteer at VA Medical Centers (VAMCs), Community-Based 
Outpatient Clinics, Vet Centers, and many other locations in support of 
hospitalized veterans.
    The American Legion recently entered into a pilot program with VA 
in creating Heroes to Hometowns VA Volunteer Coordinators at 10 VAMCs. 
These coordinators will work with the VAMC Social Work offices and 
identify transitioning service members' needs with community resources. 
Currently, The American Legion is working with the VAVS program to 
increase the level of community support at VAMCs. By providing 
volunteer outreach training and resources to support a sustained 
outreach program, The American Legion is working to prepare the 
American Homefront for the return of our fighting men and women.
Department of Veterans Affairs OEF/OIF Welcome Home Celebration
    The American Legion is an active participant in the annual OIF/OEF 
``Welcome Home'' Celebration Event held at VAMCs nationwide. This event 
is designed to provide outreach services and offer valuable 
information, education and support to transitioning service members and 
their families. Legionnaires answer questions about veterans' benefits, 
filing claims and military discharge review requests. Here in 
Washington, D.C., during the Welcome Home event held at the DC VAMC, 
medical staff enrolled transitioning Marines into the VA medical system 
for their five years of free medical services, while community 
volunteers provided an environment of support with live music, food and 
valuable information about veterans' benefits and local community 
resources.

The American Legion Magazine
    The American Legion uses a multimedia approach to its outreach. The 
American Legion Magazine has historically provided valuable and timely 
information on the issues facing America's veterans. This tradition is 
carried on into the 21st century via The American Legion website, 
www.legion.org, a hub for information, resources and specific points of 
contact for local assistance. A full library of informative brochures, 
outline the leading issues facing America's veterans today to the 
furthest reaches of the American landscape. At any point, a 
transitioning veteran may receive assistance from The American Legion 
via informational brochures, printed media, web-based request forms, a 
1-800 call center, state veterans' service officers and most 
importantly, the local American Legion post.

The American Legion Local Post
    The American Legion Post is important in providing direct outreach 
as it provides a common meeting place for veterans and their families. 
The local Post may be the first place a veteran stops when returning 
home. It may be the first place where the community as a whole thanks a 
returning veteran for their service and sacrifice.
    Department of Virginia American Legion Post 270 is a leading 
example of the support provided by The American Legion family. Each 
year the food manufacturer ``Newman's Own'' awards financial grants to 
organizations that support the military. In 2004, Post 270 was awarded 
the Newman's Own ``Best Volunteer Program in the Country Supporting Our 
Active Duty Military and their Families'' for the post's outreach to 
Walter Reed Medical Center. All across America, American Legion Posts 
have partnered with businesses to assist returning veterans find 
gainful employment. Most notably, The American Legion has partnered 
with Military.com and Recruit Military on veteran-targeted job fairs.
    Within the past month, The American Legion worked with Walter Reed 
Medical Center to host a career and benefits fair for the injured 
service members in outpatient care. Employers, many veterans 
themselves, meet with injured servicemembers and their supporting 
family member in a relaxed atmosphere. Servicemembers and family 
members were able to have dinner and meet with employers from all 
across the nation.
    The American Legion works closely with the DoD, VA and the 
Department of Labor (DOL) to assist transitioning veterans in accessing 
their benefits and resources in order to reach their fullest potential, 
regardless of location or disabilities. The American Legion believes 
that more emphasis should be placed on Heroes to Hometowns and programs 
that allow transparency within the Government and utilizes the 
established resources with communities to fulfill the unmet needs of 
transitioning servicemembers. The American Legion has a proud history 
of securing and protecting the earned benefits of America's veterans. 
The American Legion stands ready to continue this legacy today by 
caring for those veterans returning from the current conflicts.
Conclusion
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important matters. As always, The American 
Legion welcomes the opportunity to work closely with you and your 
colleagues to reach solutions to the array of problems discussed here 
today that are in the best interest of America's veterans and their 
families.

                                 <F-dash>
           Statement of Kate Emanuel, Senior Vice President,
       Non-Profit and Government Affairs, The Advertising Council

    Mr. Chairman and distinguished members of the Committee, thank you 
for asking the Ad Council to testify today. My name is Kate Emanuel and 
I oversee nonprofit and Government affairs for the Ad Council.
Background about the Ad Council
    The Ad Council was founded in 1942 when the leading advertising 
executives of the day were asked to rally both funds and moral support 
necessary for America to win WWII. Working in tandem with the Office or 
War Information, the Ad Council created campaigns such as Buy War 
Bonds, Plant Victory Gardens, Rosie the Riveter's ``We Can Do it'' and 
``Loose Lips Sink Ships.'' After the war, the Ad Council's leadership 
decided to carry on their mission and help the country tackle peace-
time issues. More than sixty-five years--and thousands of campaigns--
later, the Ad Council remains America's leading producer of public 
service communications.
    The nonprofit Ad Council represents a unique collaboration between 
the advertising, media, and business communities. Advertising agencies 
throughout the country lend us their best and brightest talent to 
develop our campaigns pro bono and the media generously donate their 
advertising time and space to deliver our messages to the American 
people. Their collective donation of volunteer labor and free media is 
extraordinary: Last year, the Ad Council received over $2 billion in 
donated media on behalf of our fifty-plus PSA campaigns.
    Through the years, taglines like ``Only You Can Prevent 
Wildfires'', ''A Mind is A Terrible Thing to Waste'' and ``Friends 
Don't Let Friends Drive Drunk'' have become part of our society's 
vernacular. And as society has changed, so too has the Ad Council. 
Whether it was polio in the '50s, the Peace Corps or racial 
discrimination in the '60s, pollution in the '70s, AIDS in the '80s, 
recycling in the '90s, the Ad Council continues to address the most 
pressing social issues of the day. Today, the Ad Council's docket 
includes campaigns addressing childhood obesity, autism, global 
warming, Internet safety, financial literacy, and cyberbullying to name 
just a few.
    Although most Americans can assuredly recite Ad Council slogans, Ad 
Council PSAs are not just memorized--they mobilize. For example:

        -- Since its launch, the U.S. Department of Health and Human 
        Services' Adoption campaign has received $150 million in 
        donated media and more than 13,000 new families have started 
        the adoption process with the hope of giving a child from 
        foster care a permanent home.

        -- The Ready campaign--which encourages Americans to prepare 
        for all kinds of emergencies--has garnered more than $676 
        million in donated media over the last 4\1/2\ years. The 
        Ready.gov website has received more than 27 million unique 
        visitors and 2.1 billion hits.

        -- In just the first six months of the Big Brothers Big 
        Sisters' Mentoring campaign, calls to the hotline increased by 
        more than 2,000%. Mentoring applications soared from 90,000 a 
        year to 620,000 in nine months, a sevenfold increase.

        -- The first year of NHTSA's ``Buzzed Driving'' campaign 
        generated nearly $80 million worth of donated media support, 
        leading to campaign awareness of at least 4 in 10 members of 
        the target audience nationwide.

Ad Council's partnership with the Federal Government
    The Ad Council is an organization with a rich history of partnering 
with the Federal Government and stepping in when the country is facing 
a crisis. Just as the Ad Council created ads shortly after the attacks 
on Pearl Harbor, the organization created its ``I am an American'' 
campaign within days of the 9/11 attacks, providing inspiration, hope 
and healing to all Americans. Additionally, PSAs addressing the flu 
vaccine shortage sought to encourage Americans who weren't at risk to 
give others ``a shot''. The Ad Council also joined with former 
Presidents Bush and Clinton to urge Americans to support the tsunami 
relief efforts and later, Hurricane Katrina.
    Presently, we have 22 campaigns with the Federal Government which 
comprise approximately 50% of our docket. We work with many of the 
Federal departments and agencies, including Transportation, Justice, 
Energy, Treasury, Health and Human Services, Agriculture, Homeland 
Security, EPA and the Library of Congress. We address a host of social 
issues in tandem with these Federal partners, including obesity, gun 
violence, financial literacy, energy efficiency, wildfire prevention, 
drunk driving, disaster preparedness and literacy. A full list of our 
campaigns and summaries are attached.
    The way we work is that our ``sponsor''--either the Federal 
Government or a non-profit organization--pays for hard costs to produce 
the PSA campaign. They also serve as the issue expert. The Ad Council 
brings on a pro bono ad agency to develop the creative work and we then 
distribute the PSAs to the media, via a nationwide network of over 
33,000 media outlets (TV, radio, print, outdoor, out-of-home, and 
Internet).
    While most of our campaigns attempt to raise awareness, inspire 
action or change behaviors, we do have some historic campaigns that 
were created to promote awareness of Federal benefits. For example, in 
2003, we partnered with the National WIC association to generate 
awareness of the WIC program and communicate its benefits to women and 
children who are in need of assistance. We also partnered with HHS on a 
campaign to raise awareness about the SCHIP program in the early 
1990's.
    Somewhat related, we partnered with the Department of Defense's 
Employer Support of the Guard and Reserve (ESGR) on a campaign that 
targeted employers to continue their support for their employees in the 
Guard and Reserve during training or active duty periods. This nine-
year campaign encouraged employees to learn their rights and 
responsibilities for their active duty employees.
Ad Council's Best Practices
    Whether it is promoting awareness about a social issue or a Federal 
benefit, the Ad Council recommends the following best practices for 
creating effective, sustainable and motivating PSA campaigns.

    <bullet>  Identify a Core Target Audience: In the world of 
advertising, there is nothing more important than knowing your audience 
and public service advertising is no exception. A successful media 
campaign must know what the target audience thinks about the issue and 
the most effective way to communicate its message. In addition, a PSA 
should stick to one target audience and not try to be all things to all 
people. This entails gathering all credible and existing research about 
the campaign subject matter and obtaining new information through focus 
group research. This research will guide strategic development, help 
determine breakthrough language, and ensure the creation of a message 
that resonates with the target audience. In addition, target-audience 
attitudes and behaviors should be tracked before and throughout the 
course of any campaign to measure its impact.
    <bullet>  Know the PSA Proposition: A good PSA is one that takes a 
complex issue and drills it down to an individual action that is 
achievable. So, for example, we know that a PSA campaign can't 
eliminate health disparities, discrimination, poverty or global 
warming. But, if done right, a motivating and simplified campaign can 
encourage someone to speak out against racism, lead a healthy 
lifestyle, reduce their carbon footprint or mentor a child. And 
recognize when a PSA campaign is not the best way to go. Some issues 
simply don't work well with PSAs--messages that only affect a small 
percentage of the population, are time sensitive or messages that 
advocate.
    <bullet>  Stick to One Idea: An effective PSA--whether it's a TV or 
radio spot, newspaper or print ad, web banner or billboard--should say 
one thing. The most reliable way to ensure focused advertising is to 
start with a single-minded creative brief which serves as the strategic 
blueprint for your campaign. It should address these core elements: 1) 
background (why are we advertising?); 2) target audience (who are we 
talking to?), 3) strategic insight (what will get their attention?); 4) 
main message (what should the advertising say?); 5) support (why should 
they believe us?); 6) call to action (what do we want them to do?)
    <bullet>  Let your website do the heavy lifting: Keep your PSA 
message single-minded and let your ``back end'' (i.e. your website and 
collateral materials) convey in-depth information about your issue. All 
PSAs should include a concise and easy to remember url that links to a 
website that is easy to navigate and entertaining yet instructive. Make 
sure the website keeps to the campaign's message and doesn't overwhelm 
the user. Typically, the Ad Council creates separate campaign websites 
for our Federal Government partners so that the public is directed to a 
very user-friendly website. Please find attached screen grabs of the 
homepages of a handful of the Ad Council's campaigns with the Federal 
Government, including the U.S. Department of Health and Human Services 
(www.smallstep.gov), U.S. Army (www.boostup.org), U.S. Patent and 
Trademark Office (www.inventnow.org), EPA (www.noattacks.org), USDA 
(www.mypyramid.gov), U.S. Forest Service (www.smokeybear.com), SAMHSA 
(www.whatadifference.org) and U.S. Department of Homeland Security 
(www.ready.gov).

    Finally, allocate the proper resources for site updates and 
maintenance and refresh the content as often as you can.

    <bullet>  Think beyond your website: Once a PSA has been seen, 
heard, read or clicked, it needs to provide information so that the 
public can find out where to get help or offer their support. Depending 
on your target audience, you may want to go beyond just a website and 
have a comprehensive fulfillment program (i.e 1-800 number, collateral 
materials, curriculum, posters, etc.)
    <bullet>  Strive for Creative Excellence: Great creativity can 
strike a chord and motivate people to change. When creating PSAs, keep 
in mind these general creative themes:

        <bullet>  Talk to the audience as you would a friend
        <bullet>  If possible, entertain them
        <bullet>  If needed, make them uncomfortable . . . to a point
        <bullet>  Once you've got them, don't ask for too much (i.e. 
        ``Visit a website to learn more'', ``Speak to your kids about 
        their friends'', ``Take the keys from a drunk driver'')

    Highly motivational and creative advertising not only inspires 
consumers, but it's more likely to motivate the media (i.e. a PSA or 
community affairs manager) to donate their time or space. Establishing 
a review panel of experts from the advertising industry can help ensure 
first-rate creative messages. For example, to maintain its top quality 
creative work, the Ad Council has an advisory group comprised of the 
top creative minds in the advertising industry that reviews each 
campaign at specific points in the campaign development cycle 
(strategic development, concept development and rough cuts) in order to 
ensure the best execution of the research-based strategy.

    <bullet>  Think Long Term: Effective public service media campaigns 
require a sustained level of advertising--over the long term--to effect 
change. In the Ad Council's experience, in order for any campaign to 
penetrate the American collective consciousness and change overall 
behaviors, a PSA effort must be at least three years in duration and is 
most effective over five years or more. In fact, the Ad Council's most 
effective PSA campaigns are the longest running: ``Smokey Bear'', 
``McGruff the Crime Dog'', ``Friends Don't Let Friends Drive Drunk'', 
``A Mind is A Terrible Thing to Waste'', and ``Vince and Larry, the 
Crash Test Dummies''.
    <bullet>  Seek regular and frequent exposure: The most compelling 
PSA is powerless without regular public exposure, which is increasingly 
challenging in today's cluttered media PSA environment. Thus, creating 
a media outreach strategy and forming innovative partnerships with 
media outlets are critical to maximizing a PSA's exposure. In addition, 
conducting local and community media outreach greatly enhances a 
campaign's media support.
       Another factor contributing to high levels of donated media 
support is the number of options provided to media outlets. Ideally, 
PSAs should be produced in as many lengths or sizes as possible. This 
gives the PSA Directors the flexibility to run spots that target their 
specific audiences, and fit within their programming schedule needs.
    <bullet>  Rely on Multi-Media outlets: A PSA campaigns must be able 
to mold its message to the current media and remain flexible for 
change. Campaign messages should be produced and distributed in 
multiple media formats for maximum success, such as broadcast 
television, cable, radio, magazine, newspaper, outdoor, Internet and 
theater and other ``new'' media opportunities. Therefore, understanding 
the ongoing changes to the media landscape is essential to 
communicating effectively.
         In fact, some of the Ad Council's campaigns that target 
youth--such as our campaign with the U.S. Army on high school drop out 
prevention--actually lead with interactive components, not traditional 
PSAs. For example, the ``Boost up'' campaign consists of a virtual 
community of support for any teen struggling to make it to graduation. 
The campaign relies heavily on user-generated content and mobile 
messaging in addition to the most popular social networking sites--
MySpace, YouTube and Facebook. The website (www.boostup.org) serves as 
a hub, facilitating conversations and aggregating support, in addition 
to serving as a resource to parents and teens. All of these elements 
are designed to work together to encourage peer discussion about the 
importance of graduating from high school.
    <bullet>  Venture Outside the PSA Box: In today's cluttered media 
environment, you need to think beyond the PSA and employ a host of 
elements to make sure your message reaches your target audience. PSAs 
should therefore be part of an integrated, comprehensive approach that 
relies on all forms of media as well as new media, public relations, 
grassroots marketing, community events, cause marketing, etc. You 
should also stay on top of innovative communications tools such as 
podcasting, taxi cab tops, in-school programming and other emerging 
media outlets such as PDAs, video email, satellite radio and 
interactive television.
    <bullet>  Find experienced and well-regarded sponsors: Partnering 
with a reputable non-profit or Government sponsor, with a strong 
national grass-roots and community presence, can help secure donated 
media and further the reach of your campaign.
    <bullet>  Establish clear metrics for success: No matter how much 
donated media a PSA campaign receives, its true success should be 
measured by behavior change and awareness building. Establish realistic 
measures before your campaign launches, including:

        <bullet>  Donated media support
        <bullet>  Press coverage
        <bullet>  Visits to the website Calls to the toll-free number
        <bullet>  Changes in awareness levels
        <bullet>  Changes in behavior

         The Ad Council conducts extensive research and surveys to 
measure the impact of all of our campaigns. Success of a campaign is 
measured by tracking donated media (via quarterly reports), tracking 
visits to the campaign's website or calls to a toll-free number, and 
conducting pre- and post-campaign launch tracking studies that measure 
attitudinal, behavioral and awareness shifts among the campaign's 
target audience.
    <bullet>  Be Flexible and Proactive: Stay on top of consumer trends 
and evolve your message over time to maintain relevance. If possible, 
work with community-based groups and coalitions to amplify your message 
and give it a local face.
    <bullet>  Be Patient: Social change is not an overnight phenomenon. 
In nearly all instances, changing social norm from a behavior that is 
acceptable to unacceptable, or vice versa, takes time, dedication and 
continued funding.

Ad Council & IAVA campaign on Veteran Support:
    One campaign I'd like to briefly mention today is an effort we're 
doing in partnership with the Iraq & Afghanistan Veterans of America or 
IAVA.
    As you may know, IAVA, founded in 2004, is the nation's first and 
largest group dedicated to the troops and veterans of the wars in Iraq 
and Afghanistan. A nonprofit and non-partisan organization, IAVA 
represents more than 90,000 veteran members and civilian supporters in 
all 50 states.
    The goal of this campaign, which will include TV, radio, print, 
outdoor and Internet PSAs, is to decrease the depression and PTSD-
related outcomes among returning veterans. A separate and complementary 
effort will create overall support for veterans among the general 
public.
    As this Subcommittee well knows, as many as 50% of the 1.64 million 
veterans returning from Iraq and Afghanistan will struggle with serious 
mental health issues. Unfortunately, less than 40% of those with mental 
health issues are being treated. Many avoid seeking help because of the 
stigmas around seeking treatment or being diagnosed with a mental 
illness. Additionally, since Iraq & Afghanistan Veterans make up less 
than 1% of the U.S. population, this contributes to the isolation they 
feel once they are back in the U.S. and makes connecting with other 
vets challenging.
    The campaign's advertising objectives will be twofold:

        -- To increase the number of veterans who seek treatment for 
        their mental health issues by connecting them with other 
        veterans as they all readjust to civilian life.
        -- To encourage the families of these vets--relatives, friends 
        and loved ones--to initiate a discussion about the mental 
        health issues these vets may be facing. This is important 
        because we know that veterans who have received help often cite 
        their family as the catalyst. However, most families don't know 
        how to broach the subject constructively. The campaign will 
        provide resources and tips on how to start this oftentimes 
        difficult conversation.

    IAVA and the Ad Council will create a very comprehensive campaign-
specific website with links to resources and an online community 
exclusive to Iraq and Afghanistan veterans. The online community will 
allow vets to simply listen in or share their experiences in a 
judgment-free environment. Topics discussed might include jobs, re-
connecting with family, PTSD, benefits, and more. As we develop the 
campaign website, we would welcome any guidance the VA wishes to 
provide in terms of connecting veterans with the resources available to 
them through the VA.

Conclusion
    If done right, PSA campaigns can raise awareness, change behaviors 
and inspire action. Thank you again for the opportunity to share our 
best practices. The Ad Council is happy to provide additional expertise 
or assistance as the Subcommittee looks at ways to help our country's 
veterans obtain their Federal benefits.

   Sample of homepages of Ad Council's Federal Government-sponsored 
                               campaigns:

    EPA & childhood asthma (www.noattacks.org):

    [GRAPHIC] [TIFF OMITTED] T3055A.001
    

    U.S. Department of Health and Human Services & adult and childhood 
obesity (www.smallstep.gov):

[GRAPHIC] [TIFF OMITTED] T3055A.002


    U.S. Department of Homeland Security & citizen preparedness 
(www.ready.gov):

[GRAPHIC] [TIFF OMITTED] T3055A.003


    U.S. Department of Agriculture & nutrition education 
(www.mypyramid.gov):

[GRAPHIC] [TIFF OMITTED] T3055A.004


    U.S. Forest Service & wildfire prevention (www.smokeybear.com):

    [GRAPHIC] [TIFF OMITTED] T3055A.005
    

    Substance Abuse and Mental Health Services Administration & mental 
health anti-stigma (www.whatadifference.samhsa.gov):

[GRAPHIC] [TIFF OMITTED] T3055A.006


    U.S. Army & high school drop-out prevention (www.boostup.org):

    [GRAPHIC] [TIFF OMITTED] T3055A.007
    

    U.S. Patent and Trademark Office & inspiring invention 
(www.inventnow.org):

[GRAPHIC] [TIFF OMITTED] T3055A.008


                              Ad Council's

                 Federal Government-sponsored campaigns

    Presently, the Ad Council has 22 campaigns in partnership with the 
Federal Government:

    <bullet>  Adoption, Department of Health and Human Services
    <bullet>  Booster Seat Education, Department of Transportation
    <bullet>  Childhood Asthma, Environmental Protection Agency
    <bullet>  Drunk Driving Prevention, Department of Transportation
    <bullet>  Emergency Preparedness, Department of Homeland Security
    <bullet>  Fatherhood Involvement, Department of Health and Human 
Services/Office of Family Assistance
    <bullet>  Energy Efficiency, Department of Energy
    <bullet>  Financial Literacy, Department of Treasury
    <bullet>  High School Drop-out Prevention, U.S. Army
    <bullet>  Inspiring Invention, Department of Commerce/U.S. Patent 
Office
    <bullet>  Lifelong Literacy, Library of Congress
    <bullet>  Lupus Awareness, Office of Women's Health/HHS
    <bullet>  Mental Health Anti-Stigma, Substance Abuse and Mental 
Health Services Administration/HHS
    <bullet>  Nutrition Education, Department of Agriculture
    <bullet>  Obesity (adult and childhood) Prevention, Department of 
Health and Human Services
    <bullet>  Patient Involvement, Agency for Healthcare Research and 
Quality/HHS
    <bullet>  Reducing Gun Violence, Department of Justice
    <bullet>  Suicide Prevention, Substance Abuse and Mental Health 
Services Administration/HHS
    <bullet>  Teen Dating Violence, Department of Justice
    <bullet>  Underage Drinking prevention, Substance Abuse and Mental 
Health Services Administration/HHS
    <bullet>  Wildfire Prevention, Department of Agriculture

Campaign Summaries:
Adoption
    The campaign aims to significantly increase awareness of the urgent 
need for parents to provide loving, permanent homes for foster 
children. The campaign is sponsored by the U.S. Department of Health 
and Human Services' Administration for Children and Families, the 
Adoption Exchange Association and the Collaboration to AdoptUSKids.

Booster Seat Education
    This campaign, in partnership with the U.S. Department of 
Transportation's NHTSA, addresses the importance of having your child 
in a booster seat if they are under 4,9". The goal of this campaign is 
to educate parents that a booster seat is a life-saving transition to 
an adult safety belt. This campaign is a continuation of another 
historic campaign on seat belt education featuring the Crash Test 
Dummies, Vince and Larry.

Childhood Asthma
    In partnership with the U.S. Environmental Protection Agency, this 
campaign addresses the pervasiveness of asthma in children affecting 
one out of 13 kids under 15, or 5.5 million. The campaign highlights 
some unexpected items that can trigger asthma attacks and simple ways 
to take care of these items so that they are safer for a child with 
asthma. The PSAs direct parents to call 1-866-NO-ATTACKS or visit 
www.noattacks.org to learn how to stop asthma attacks before they 
start.

Drunk Driving Prevention
    This historic partnership with the U.S. Department of 
Transportation/NHTSA has saved thousands of lives with its iconic 
tagline Friends Don't Let Friends Drive Drunk. Recently, the objective 
of the campaign shifted to inspire dialogue and recognition of the 
dangers of ``buzzed'' driving and subsequently motivate people to stop 
driving buzzed. The campaign hopes to educate people that consuming 
even a few drinks can impair driving and that Buzzed Driving is Drunk 
Driving.

Emergency Preparedness
    In order to encourage more Americans to prepare themselves, their 
families and their communities, the U.S. Department of Homeland 
Security has sponsored this campaign to educate and empower Americans 
to prepare for and respond to all kinds of emergencies. While 91% of 
Americans believe it's important to be prepared for emergencies. 
However, only 55% of households report having taken any steps at all to 
prepare. The PSAs direct audiences to www.ready.gov, a comprehensive 
and easy-to-use site that gives Americans the information and tools 
they need to prepare for and respond to potential emergencies. The 
campaign also has a Spanish language component as well as kid and 
business targeted PSAs.

Energy Efficiency
    Sponsored by the U.S. Department of Energy, the objective of the 
Energy Efficiency campaign is to redefine how consumers approach energy 
efficiency. The campaign, still underdevelopment, targets grade school 
children and their parents to promote a lifelong interest in pursuing 
energy efficient behaviors.

Fatherhood Involvement
    In an effort to show dads the critical role they play in their 
children's lives, the Ad Council has partnered with U.S. Department of 
Health and Human Services' Office of Family Assistance on a campaign 
that communicates to fathers how essential they are to their children's 
well-being. The ads conclude with the tagline, ``Take time to be a dad 
today'' and encourage fathers to visit www.fatherhood.gov or call 1-
877-4DAD411 to learn how to be more involved dads.

Financial Literacy
    Currently in development, this campaign sponsored by the U.S. 
Department of Treasury, will target 18-24 year olds with providing 
awareness of financial literacy by educating and shaping their 
behaviors toward money management and credit before or as bad credit 
habits are forming.

High School Drop out Prevention
    The Boost campaign gives parents and at-risk teens (who might be at 
risk of dropping out of school), a boost to stay in school and 
graduate. The PSAs, in both Spanish and English, direct audiences to 
visit www.boostup.org for guidance on a range of teen issues, and how 
to help teens achieve their full potential and graduate high school.

Inspiring Invention
    In an effort to help inspire a new generation of inventors, the Ad 
Council has partnered with the United States Patent and Trademark 
Office and the National Inventors Hall of Fame Foundation to launch the 
Inspiring Invention campaign. The PSAs aim to help children realize 
that there is a role for every kind of unique curiosity and imaginative 
idea as it relates to invention. The ads urge children ages 8-11 to 
make innovation, invention and the development of new ideas an integral 
part of their lives and to visit www.InventNow.org, to recognize that 
``Anything's Possible. Keep Thinking.''

Lifelong Literacy
    The objective of the Lifelong Literacy campaign, in partnership 
with the Library of Congress, is to inspire fun and promote literacy in 
all types of learning, especially reading. From books to magazines to 
comics, reading gives kids the opportunity to explore their 
imaginations. The PSAs encourage youth to log on to www.literacy.gov to 
discover, learn and explore.

Lupus Awareness, Office of Women's Health/HHS
    This campaign, in partnership with the U.S. Department of Health 
and Human Services' Office of Women's Health, strives to increase 
awareness of lupus, its symptoms and health effects. The objective is 
to help women, especially minority women who are at greatest risk, 
decide whether professional medical evaluation and treatment is 
warranted. (Due to the low profile of lupus, its symptoms and health 
effects, more than half of those with lupus suffer four or more years 
and visit three or more doctors before obtaining a diagnosis. Late 
diagnosis contributes to significant morbidity, disability and 
mortality.)

Mental Health Anti-Stigma
    This campaign aims to decrease the negative attitudes that surround 
mental illness. Sponsored by the U.S. Department of HHS' Substance 
Abuse and Mental Health Services Administration, the campaign seeks to 
reach young adults (ages 18-25) with a message of acceptance and 
understanding of mental illness. The PSAs encourage friends to offer 
their support to a friend who has been diagnosed with a mental illness.

Nutrition Education
    This campaign motivates moms to encourage proper nutrition and 
physical activity for their families, emphasizing that a bright future 
starts with a healthy lifestyle. The notion that ``Good Nutrition Can 
Lead to Great Things'' reinforces that healthy eating and physical 
activity are fuel for a kid's mind and body. Sponsored by the U.S. 
Department of Agriculture, the campaign encourages viewers to visit 
www.MyPyramid.gov and use the USDA's Food Pyramid as an effective tool 
to help their children make healthy choices.

Obesity Prevention
    This campaign sponsored by the U.S. Department of Health and Human 
Services tackles the consequences of sedentary lifestyles and unhealthy 
eating habits that have taken over our country. The PSAs communicate 
that getting healthy is not impossible, especially if you take it one 
``Small Step'' at a time. The PSAs use humor to inspire overweight 
adults to incorporate some of the suggested small steps into their 
hectic lives.

Childhood Obesity Prevention
    This PSA campaign attempts to address the alarming obesity epidemic 
that is putting America's children at risk, including physical 
troubles, emotional stress and increase incidence of chronic disease. 
In partnership with the U.S. Department of Health and Human Services, 
this campaign, which features a fun, interactive website, helps kids 
see the lighter side of healthy eating and gives them new reasons to 
``eat better.''

Patient Involvement
    The Agency for Healthcare Research and Quality (AHRQ) is the lead 
agency within the U.S. Department of Health and Human Services with a 
mission of improving the quality, safety, efficiency and effectiveness 
of health care for the public. Gaps in the health care system open 
patients up to serious medical errors, even under routine 
circumstances. Asking questions at every step is an effective defense. 
This campaign encourages the public to be active members of their 
health care team and delivers actionable, simple ways for people to be 
more involved at www.ahrq.gov/questionsaretheanswer.

Reducing Gun Violence
    Funded by the U.S. Department of Justice and in partnership with 
Project Safe Neighborhoods, this campaign takes on the serious threat 
of gun violence to America's young people. The PSAs encourage youth to 
think about the repercussions of gun crimes and reminds them that the 
consequences, death or jail time, just as seriously affect their 
families.

Suicide Prevention
    The goal of the campaign, in partnership with the Substance Abuse 
and Mental Health Services Administration, is to encourage and educate 
parents on ways to get help for their teens who may be at risk for 
suicide. (Suicide is the third leading cause of death among 15 to 24 
year olds, following accidents and homicide.) The campaign is still 
under development.

Teen Dating Violence
    Still under development, this campaign in partnership with the U.S. 
Department of Justice, will help teens recognize the ``digital gray 
areas'' of teen dating violence.

Underage Drinking Prevention
    This campaign seeks to reduce and delay the onset of underage 
drinking by increasing communication between parents and youth. 
Sponsored by the Substance Abuse and Mental Health Services 
Administration, the PSAs encourage parents to talk to their children 
early and often about the dangers and consequences of underage 
drinking.

Wildfire Prevention
    The longest running campaign in Ad Council history, Smokey Bear and 
his famous warning, ``Only You Can Prevent Forest Fires,'' is sponsored 
by the USDA Forest Service and the National Association of State 
Foresters. Responding to the massive outbreak of wildfires in 2000, the 
campaign changed its focus to wildfires and Smokey's slogan to ``Only 
You Can Prevent Wildfires.'' The PSAs direct people to 
www.smokeybear.com to learn about wildfires and how we can protect our 
forests.

Prior Federal Government campaigns:
Volunteerism
    In partnership with USA Freedom Corps, the campaign encouraged 
every American to answer the President's Call to Service by engaging in 
service to their neighbors, to our Nation and the world. Audiences were 
urged to volunteer in a way that reflects their talents and their 
interests. To help them find such a volunteer opportunity, they were 
offered the option of visiting the USA Freedom Corps Web site, which 
features the largest clearinghouse of volunteer opportunities ever 
created, or calling a toll-free number (1-877-USA-CORPS) for 
information about service opportunities.

Hurricane Katrina:
          Hurricane Katrina Relief: Following the devastation of 
        Hurricane Katrina, the Ad Council created PSAs featuring former 
        Presidents H.W. Bush and William Clinton asking Americans to 
        donate to the USA Freedom Corp's Katrina fund.
    Hurricane Help for Schools
          In response to the destruction and devastation caused by 
        Hurricane Katrina, the U.S. Department of Education, in 
        partnership with the Advertising Council, produced three public 
        service announcements featuring Mrs. Laura Bush. The public 
        service announcements were created in support of school-related 
        relief efforts--Hurricane Help for Schools--for the hundreds of 
        thousands of displaced children.
    Hurricane Mental Health Awareness
          The campaign, sponsored by HHS's Substance Abuse and Mental 
        Health Services Administration (SAMHSA), helped the survivors 
        and first responders who were impacted by the hurricanes and 
        were in need of mental health services. Those affected are 
        encouraged to take a break, and assess how they and their 
        families are handling the recovery. They were invited to call a 
        confidential toll-free number to get help and speak to a 
        trained mental health professional.

Employer Support of the Guard and Reserve
    This longstanding campaign (1972-2001)--sponsored by the Department 
of Defense's National Committee for Employer Support of the Guard and 
Reserve (ESGR)--targeted employers and directed them to the ESGR to 
learn their rights and responsibilities for their active duty 
employees.

Voter Registration and Youth Civic Engagement
    The U.S. Department of Defense's Federal Voting Assistance 
Program's ``Get Out The Vote'' campaign has been a campaign of the Ad 
Council's since 1980. Originally created to promote voter registration 
and participation in the electoral process among Uniformed Services 
personnel stationed abroad, the campaign evolved over the years to 
increase civic engagement among 18-24 year olds. The PSAs urge these 
young adults (the largest group of non-voters in America) to become 
involved in their communities in any way they can, including voting in 
local elections, volunteering in their spare time or reading the 
newspaper and discussing current events with friends.

Troop Support
    Launched in 2006, this campaign, in partnership with the U.S. 
Department of Defense, encouraged Americans to participate in 
activities that show their support of the troops. The PSAs invited the 
public to log on to www.AmericaSupportsYou.mil to find ideas, both 
large and small, on how to show their support for the men and women of 
the military. (The campaign was an extension of the Department of 
Defense's ``America Supports You'' initiative, which launched in 
November 2004.)

                                 <F-dash>
                     Statement of Diana M. Rubens,
         Associate Deputy Under Secretary for Field Operations,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today. I am pleased to provide 
information on the Veterans Benefits Administration (VBA) outreach 
initiatives designed to address the needs of the brave men and women 
who are actively serving our country today and those of our 
distinguished veterans. I believe that each program I discuss 
exemplifies our pursuit of providing the best possible service to our 
Nation's greatest heroes.

Benefits Information at time of Induction into Service
    Since November 2004, everyone inducted into the five military 
branches receives a VA benefits pamphlet at the Military Entrance 
Processing Station. This pamphlet provides inductees with basic 
information on VA benefits and services at the start of their military 
active service. We want to be sure they know that VA will be there for 
them in the future.

Transition Assistance Program (TAP)
    Transition Assistance Program (TAP) briefings are conducted 
nationwide and in Europe to prepare retiring or separating military 
personnel for return to civilian life. At these briefings, 
servicemembers are informed of the array of VA benefits and services 
available, instructed on how to complete VA application forms, and 
advised on what evidence is needed to support their claims. Following 
the general instruction segment, personal interviews are conducted with 
those servicemembers who would like assistance in preparing and 
submitting their applications for compensation and/or vocational 
rehabilitation and employment benefits.

Disabled Transition Assistance Program (DTAP)
    The Disabled Transition Assistance Program (DTAP) is an integral 
component of transition assistance for servicemembers who may be 
released because of disability. Through VA's DTAP briefings, VBA 
advises transitioning servicemembers about the benefits available 
through VBA's Vocational Rehabilitation and Employment (VR&E) Program. 
The goal of DTAP is to encourage and assist potentially eligible 
servicemembers in making informed decisions about the VR&E program and 
to expedite delivery of these services to eligible servicemembers and 
veterans.
    While TAP and DTAP briefings are central to VA's efforts to inform 
servicemembers about VA benefits and services, VA also provides 
briefings to servicemembers about military separation and retirement 
services programs, military medical facilities, physical evaluation 
boards, casualty assistance services, and various other military 
liaison activities.
    The chart below reflects the number of briefings and personal 
interviews conducted by VBA representatives for the past five years. 
This includes briefings conducted for regular active duty military 
members, pre-and post-deployment briefings for Reserve and National 
Guard members, and briefings conducted overseas. VA has increased the 
number of briefings presented by 40 percent since 2003.

----------------------------------------------------------------------------------------------------------------
                      Fiscal Year                            Briefings          Attendees          Interviews
----------------------------------------------------------------------------------------------------------------
2003                                                                 5,840            210,015            102,402
----------------------------------------------------------------------------------------------------------------
2004                                                                 7,834            276,574            122,120
----------------------------------------------------------------------------------------------------------------
2005                                                                 8,184            326,664            124,092
----------------------------------------------------------------------------------------------------------------
2006                                                                 8,541            393,345             93,431
----------------------------------------------------------------------------------------------------------------
2007                                                                 8,154            296,855            100,976
----------------------------------------------------------------------------------------------------------------
2008 (Through                                                        3,962            161,749             39,917
March 2008)
----------------------------------------------------------------------------------------------------------------

Vocational Rehabilitation and Employment (VR&E)
    The Vocational Rehabilitation and Employment (VR&E) Program 
provides services and assistance necessary to enable veterans with 
service-connected disabilities to become employable or gains in 
independence in daily living.
    Job Resource Labs were fully deployed in all regional offices in 
2006. These labs include all the necessary equipment, supplies, and 
resource materials to aid VR&E staff and veterans in conducting 
comprehensive analyses of local and national job outlooks, developing 
job search plans, preparing for interviews, developing resumes, and 
conducting thorough job searches. These self-service job resource labs 
aid veterans in the job search process through the use of a 
comprehensive online employment preparation and job-seeking tool.
    VR&E is also continuing to expand the ``Coming Home to Work'' 
initiative, which is a collaborative partnership between VR&E and 
Federal agencies to provide civilian work experiences to interested 
service members who are in a medical-hold status at military treatment 
facilities and who meet the eligibility requirements for the VR&E 
program.

National Guard and Reserve Members
    In peacetime, outreach to Reserve and National Guard members is 
generally accomplished on an ``on call'' or ``as requested'' basis. 
But, with the onset of Operations Enduring Freedom and Iraqi Freedom 
(OEF/OIF) and the activation and deployment of large numbers of Reserve 
and National Guard members, VBA's outreach to this group has greatly 
expanded. VA has made arrangements with Reserve and Guard officials to 
schedule briefings for members being mobilized and demobilized. These 
benefits briefings for Guard and Reserve members increased from 821 
briefings for more than 46,000 attendees in FY 2003 to over 1,800 
briefings for more than 96,000 attendees in FY 2007.

Transition Assistance Advisors (TAAs)
    A memorandum of agreement was signed in 2005 between the Department 
of Veterans Affairs and the National Guard Bureau to institutionalize a 
partnership and to support better communication between the two. VA is 
encouraging state National Guard Coalitions to improve local 
communication and coordination of benefits briefings to assure that 
National Guard and Reserve members are fully aware of benefits. As a 
part of this partnership, the National Guard Bureau employs 57 
Transition Assistance Advisors (TAAs) for the 50 states and 4 
territories.
    The TAAs' primary function is to serve as the statewide point of 
contact and coordinator. They also provide information regarding VA 
benefits and services to Guard members and their families and assist in 
resolving any problems with VA healthcare, benefits, and TRICARE. VA 
and the National Guard Bureau teamed up at the beginning of the program 
in February 2006 to provide training to the TAAs on VA services and 
benefits. VA has participated in subsequent annual refresher training, 
as well as monthly TAA conference calls.

Veterans Assistance at Discharge System (VADS)
    The Veterans Assistance at Discharge System (VADS) generates a 
``Welcome Home Package'' for recently separated veterans (including 
Reserve and National Guard members) that contains a letter from the 
Secretary of Veterans Affairs, along with pamphlets describing VA 
benefits and services and a benefits timetable. VADS also sends 
separate packages that explain Education, Loan Guaranty, and Insurance 
benefits. In addition to the VADS mailings, a separate personal letter 
from the Secretary, along with benefits information, is sent to each 
returning OEF/OIF veteran. The VADs mailings are sent to the address 
provided to VBA by the Department of Defense at time of separation.

Benefits Delivery at Discharge
    In concert with the military services outreach program, VBA 
continues its Benefits Delivery at Discharge (BDD) Program through 
which servicemembers can apply for service-connected disability 
compensation within 180 days of discharge. The required physical 
examinations are conducted, service medical records are reviewed, and a 
preliminary rating decision is prepared prior to or shortly after 
discharge so that benefits can be awarded shortly after discharge. 
Current BDD program participants include 40 regional offices and 153 
military installations (142 DoD sites and 11 Homeland Security Coast 
Guard sites). This number includes five locations overseas (three in 
Korea and two in Germany). Participation in the BDD program is offered 
to servicemembers who are within 60 to 180 days of release from active 
duty and who are able to remain in the area in order to complete the 
medical examinations.

Disability Evaluation System (DES)
    In response to recommendations by the Dole-Shalala Commission, 
West/Marsh Independent Review Group, Secretary Nicholson's Global War 
on Terrorism Returning Heroes Commission, VA and DoD launched a 
Disability Evaluation System (DES) pilot on November 27, 2007. The DES 
pilot is scheduled to run for one year. The pilot program differs from 
the existing DoD DES process in the following significant ways:

    1.  VA is brought into the process at the Medical Evaluation Board 
(MEB) stage, counseling the servicemember and taking a claim for VA 
disability compensation.
    2.  One examination is performed according to VA protocols, 
normally done by VA, which forms the basis for the MEB and Physical 
Evaluation Board (PEB) decisionmaking as well as the VA disability 
rating, should the member be found medically unfit.
    3.  If the PEB determines that the member is medically unfit, VA 
assigns the evaluation for the unfitting condition(s) as well as any 
other claimed conditions.

    The VA rating for the unfitting condition is used by DoD for 
purposes of determining the amount of severance pay or placement on the 
temporary or permanent disability retired list. In conjunction with the 
DES pilot, VA is also initiating enhanced data sharing between DoD and 
VA regarding medical information.

Seamless Transition Program
    With the onset of Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF), VA established the Seamless Transition Program to 
ensure we are meeting the needs of servicemembers seriously injured in 
these operations.
    In 2003, VA began to assign permanent, full-time representatives at 
key military treatment facilities where seriously injured OEF/OIF 
returnees are hospitalized, including Walter Reed Army Medical Center, 
Bethesda Naval Medical Center, Eisenhower Army Medical Center, Brooke 
Army Medical Center, and Madigan Army Medical Center.
    VA representatives at these facilities provide benefits information 
and assist in filing claims. They monitor patient progress and 
coordinate the submission and smooth transfer of claims to VA regional 
offices. Each veteran's claim is then case-managed at the appropriate 
regional office of jurisdiction to expedite processing. Additionally, 
VA assigns special benefits counselors, social workers, and case-
managers to work with these servicemembers and their families 
throughout the transition to VA care and benefits systems to ensure 
expedited delivery of all benefits.
    VA and its Federal partners recently established a new Federal 
Recovery Coordinator Program Office and deployed Federal Recovery 
Coordinators to key military treatment facilities. These Coordinators 
help develop and implement individual recovery plans for seriously 
injured servicemembers.

Casualty Assistance_In-Service Deaths
    Casualty Assistance Officers (CAOs) from VA regional offices visit 
family members of servicemembers who died on active duty to assist them 
in applying for Dependency and Indemnity Compensation (DIC) and other 
survivors' benefits. These visits are coordinated with the military 
CAOs. A special brochure that outlines benefits and services for 
survivors of servicemembers is provided. The benefits application 
process is streamlined through the use of a simplified one-page 
application form that is faxed to the VA Regional Office and Insurance 
Center in Philadelphia. All of these claims are processed within 48 
hours of receipt of required documents. Because family members are in 
an acute stage of grief during the initial visit, a six-month followup 
letter is sent to ensure that surviving spouses and dependent children 
are aware of the full range of benefits available to them.

Survivors Benefits Web Site
    In 2005, VBA participated in a joint agency effort with the 
Department of Defense to create a single point of access to benefits 
information specific to survivors of OEF/OIF servicemembers. The Web 
site was launched in July 2005 and offers users a choice of information 
for survivors of servicemembers who died while on active duty, or 
survivors of veterans who died as a result of a service-connected 
disability.

Other Eligible Dependents & Survivors
    As required by Public Laws 107-14, section 6 (Outreach to Eligible 
Dependents) and 107-103, section 304 (Improvement of Veterans Outreach 
Programs), VA has developed pamphlets describing potential benefits. 
These are mailed out by the regional offices to approximately 600,000 
survivors a year that apply for a United States flag for burial 
purposes. A benefits pamphlet is also sent to all dependents and 
survivors who file original claims for DIC, Death Pension, Dependents' 
Educational Assistance, and proceeds of Government Life Insurance.

Homeless Veterans
    As part of Public Law 107-95, VBA established full-or part-time 
Homeless Veterans Outreach Coordinators (HVOCs) at all 57 regional 
offices. The HVOCs routinely meet with representatives from various 
Federal agencies, service organizations, associations, and other groups 
that are involved in homeless veterans programs, to learn more about 
programs that homeless veterans may access. HVOCs continue to actively 
participate in ``stand downs'' for homeless veterans. Stand downs are 
typically one- to three-day events providing food, shelter, clothing, 
health screenings, VA and Social Security benefits counseling, and 
referrals to a variety of other services, such as housing, employment, 
and substance abuse treatment.
    Since FY 2003, the VA Regional Offices have conducted personal and 
telephone interviews with more than 171,000 homeless veterans.

Former POW Outreach
    Each VA regional office has a Former Prisoner of War Coordinator 
who regularly disseminates benefits information and provides 
individualized assistance to former prisoners of war (POWs). A computer 
database is also maintained of all former POWs to ensure all former 
POWs and their surviving spouses are notified of outreach activities 
and information of general interest.
Gulf War Veterans
    Additional outreach to Gulf War veterans who served in the 
Southwest Asia Theater of Operations during the period of August 2, 
1990 to July 31, 1991 is provided through the Gulf War Review 
newsletter, which is issued three to four times annually and mailed to 
about 220,000 individuals. It contains information about Gulf War-
related issues and new legislation. A special Gulf War Helpline also 
supports Gulf War veterans with information and assistance.

Vietnam Veterans Exposed to Agent Orange
    The Agent Orange Review newsletter is published annually by the 
Veterans Health Administration in partnership with VBA and is mailed to 
approximately 600,000 Vietnam veterans.

Elderly Veterans
    VBA outreach coordinators have established relationships with local 
area agencies on the aging, Social Security Administration (SSA) 
offices, and other organizations that assist older Americans. VBA 
distributes 2 million copies of VA Pamphlet 20-00-1, A Summary of VA 
Benefits, to the more than 1,300 SSA offices nationwide annually.

Women Veterans
    Women Veterans Coordinators at regional offices continue to work 
closely with their counterparts in the Veterans Health Administration 
and Vet Centers, as well as with local service organization 
representatives. Through such partnering, local outreach events have 
been expanded to regional activities such as the annual Women Veterans 
Appreciation Day in Branson, Missouri. VBA representatives at the 
national and local levels continue to work with the Center for Women 
Veterans, the VHA Women Veterans Health Program, and the Secretary's 
Advisory Committee on Women Veterans, to improve outreach to women 
veterans. VBA is currently working with the Center for Women Veterans 
and Seamless Transition Offices to plan the June 2008 National Summit 
for Women Veterans.
    Mr. Chairman, VBA outreach programs provide wide dissemination of 
information on the array of benefits and services available to 
servicemembers, veterans, and their families. Our employees are 
dedicated to ensuring veterans receive the benefits and services they 
have earned through their service to our Nation, and we work diligently 
to provide information and assistance in a timely, thorough, accurate, 
understandable, and respectful manner.
    The effectiveness of our aggressive outreach efforts is 
demonstrated in the dramatic increase in the number of veterans who are 
filing disability claims. VBA's annual claims receipts have grown 45 
percent--from 578,773 claims received in 2000 to 838,141 in 2007, an 
increase of 259,368. In 2008, we anticipate claims receipts will exceed 
850,000.
    Mr. Chairman, this concludes my testimony. I greatly appreciate 
being here today and look forward to answering your questions.

                                 <F-dash>
     Statement of Leslye Arsht, Deputy Under Secretary of Defense,
    Military Community and Family Policy, U.S. Department of Defense

    Distinguished members of the committee: Thank you for the 
opportunity to discuss what the Department of Defense (DoD) is doing to 
provide Service members and their families with the information and 
resources necessary to facilitate a successful transition from military 
to civilian life.
    We require a great deal from our Service members and their 
families, whether they be Active, National Guard, or Reserve, and I 
want to affirm the Department's steadfast commitment to them.
    Returning to private life after serving in the military is a very 
complex undertaking. To assist them in doing so, we must empower our 
Service members with the tools and information they need to develop 
individual solutions to the challenges they may face as they return to 
civilian life. Service members' and their families most immediate goals 
are finding a job, changing careers, enrolling in higher education, and 
ultimately improving their economic quality of life.

Federal Collaboration
    I am impressed by the dedication and willingness of all our Federal 
partners to provide an assortment of highly desirable transition 
services. You can be truly proud of the manner in which the DoD, 
Department of Labor (DOL), and Department of Veterans Affairs (VA) have 
continued to enthusiastically support our men and women in uniform. The 
sustained interest and support of this Committee is also vital to our 
efforts.
    The three Federal departments have been working together in earnest 
for well over a decade. The many professionals within these departments 
are bringing DoD, DOL, and the VA even closer together for a common 
goal of preparing Service members and their families for military life 
and transition into the civilian community at a pace greater than at 
any time before. Examples of our increasingly focused efforts include 
the Transition Assistance Program Steering Committee and the Secretary 
of Labor's Advisory Committee on Veterans Employment, Training, and 
Employer Outreach (ACVETEO). DoD and VA also continue to partner 
extensively though the VA/DoD Joint Executive Council (JEC), the 
Benefits Executive Council (BEC), and the Health Executive Council 
(HEC).
    The rest of my statement today will touch on the many programs, 
actions, and activities under way that reflect the shared commitment to 
delivering transition assistance, employment assistance, and benefits 
information to our servicemembers and their families.

Office of Personal Finance and Transition (PF&T)
    The DoD has undergone a paradigm shift and adopted a new philosophy 
with respect to assisting our transitioning Service members and their 
families. Recognizing that financial readiness, military and veterans 
benefits, and transition assistance are closely linked to one another 
and must be addressed as a whole, The Office of the Deputy Under 
Secretary of Defense for Military Community and Family Policy (ODUSD 
(MC&FP)) established its newest directorate, the Office of Personal 
Finance and Transition (PF&T), this past March.
    Combining oversight for both the Financial Readiness Program and 
the Transition Assistance Program (TAP), previously operating 
independently within separate Office of the Secretary of Defense 
directorates, the office is responsible for a broad range of policies, 
educational programs, and resource services that address both the 
financial readiness and transition assistance needs of military members 
and their families.
    Through education, counseling, and an inventory of high-tech and 
interactive resources and programs, PF&T is responsible for ensuring 
all military members and their families have access to the tools 
necessary to attain economic security throughout their military careers 
and beyond and to make educated decisions regarding their next military 
career milestones and ultimate transitions to the civilian workforce. 
Ensuring military members and their families have an accurate and 
complete understanding of both military and veterans' benefits, and how 
application of those benefits affects their individual transition and 
economic security plans, can have significant retention implications, 
which, in turn, can contribute to mission and force readiness. Part of 
the office's philosophy is that military life is a series of key 
transitions, and that ``transition assistance'' is a lifelong process, 
required for these transitions within the military just as much as it 
is for the transition out of the military.
    With a mission inclusive of all services and components (Active 
Duty, National Guard, and Reserve) and their families, PF&T is 
establishing a national network of financial and transition 
professionals and resources through a ``train-the-trainer'' approach to 
ensure the DoD is responsive to the financial readiness and transition 
needs of state Adjutant Generals and Governors, military regions and 
installations, and individual units. Additionally, this new approach 
will ensure 24/7 global access of educational resources and 
individualized financial and transition plans using the latest 
technology and multiple delivery methodologies throughout the Service 
members' and their families' life cycle.
    However, while this represents the future vision of the nature of 
transition assistance, it is important to discuss the formal TAP as it 
exists today to show how it currently assists our troops and families.

Transition Assistance Program
    Since its inception in 1990, the goal of TAP has been to provide 
Service members and their families the skills, tools, knowledge, and 
self-confidence necessary for a successful reentry into the Nation's 
civilian workforce. The goal is to help prepare them to move into the 
job market or an educational institution. We deliver TAP through a 
collaborative effort involving DOL, the Military Services, VA, the 
Department of Homeland Security (DHS), the Department of Education 
(ED), the Small Business Administration (SBA), the National Veterans 
Business Development Corporation, and other Federal, state, local and 
non-profit organizations. The Veterans Service and Military Service 
Organizations provide outstanding support to TAP and to our Service 
members and their families at both the national and local levels.
    There are four key components to TAP, the responsibility for each 
shared among DoD, Labor, and the VA.
    Preseparation Counseling is the first component of TAP. This 
counseling is mandatory for separating and retiring Service members and 
all eligible demobilizing members of the National Guard and Reserve. 
The Military Services are responsible for providing Preseparation 
Counseling. Service members are introduced to information about 
employment opportunities and how to go about finding a job. Also during 
this phase of TAP, Active Component Service members, looking for a job 
post-military, are encouraged to attend a DOL TAP Employment Workshop. 
For the National Guard and Reserve, similar information is provided, 
geared to their needs. The Guard and Reserve receive a Uniformed 
Services Employment and Reemployment Rights Act (USERRA) briefing. 
USERRA briefings are scheduled at installation demobilization sites in 
coordination with the demobilization commander. National Guard and 
Reserve personnel are also informed, during the Preseparation 
Counseling session, about the services available to them at the DOL 
One-Stop Career Centers. Surveys show that the overwhelming majority of 
the Guard and Reserve activated have jobs when they are activated; 
therefore, they have jobs to which they will return. However, members 
looking for jobs or a career change are encouraged to visit and 
register with the One-Stop Career Center nearest their residence, once 
they return home.
    While at the demobilization station, they get information about 
their eligibility to receive employment assistance and other transition 
services up to 180 days after demobilization from any of the Military 
Services Transition Offices and DOL One-Stop Career Centers.
    In addition to the DOL Employment Workshops, the Military Services 
provide a vast array of additional employment seminars and one-on-one 
counseling to Service members. This extensive assistance covers resume 
and cover letter writing, information about electronic job banks and 
Internet access to automated employment tools (resume writer, cover 
letter, and job assistance tutorials), tools on salary negotiation; 
location of job fairs, details about Federal employment workshops and 
seminars, opportunities for post military employment networking, 
relocation assistance, information about Government partnerships for 
employment and training, benefits for members who are involuntarily 
separated, employer panels, and information about Veterans benefits 
(including disability benefits).
    The second component of TAP is the DOL TAP Employment Workshop. 
Attendance is voluntary for Active Duty Service members and their 
spouses, with the exception of the Marine Corps, which has made 
attending the DOL Employment Workshop mandatory. The curriculum, 
facilitators, workshop materials, data collection and analysis related 
to the employment workshops are the responsibility of DOL. Service 
members receive information on labor market conditions, assessing 
individual skills and competencies, how to write effective resumes and 
cover letters, proper interviewing techniques, and the best methods of 
searching for jobs. They also learn how to use electronic employment 
data banks. Finally, they get information addressing the special 
employment needs of those separating with a disability.
    The third component of TAP is the VA Benefits Briefing. Attendance 
at the VA Benefits Briefing is voluntary for Active Component Service 
members. The briefing addresses education and training, health care, 
home loans, life insurance, vocational rehabilitation and employment 
(VR&E), disability benefits, burial benefits, and dependents' and 
survivors' benefits.
    Demobilizing National Guard and Reserve Service members receive a 
VA briefing which also includes information on Disabled Transition 
Assistance Program (DTAP). The materials, information, counselors, and 
all data collection and analysis related to the VA Benefits Briefings 
are the responsibility of the VA.
    The fourth component of TAP is the Disabled Transition Assistance 
Program. Attendance at DTAP is voluntary for Active Component Service 
members and is a separate briefing. DTAP is for servicemembers and 
veterans who have, or suspect they have a service-connected disability 
or an injury or illness that was aggravated by service. During the DTAP 
briefing, VA addresses VR&E, sometimes referred to as Chapter 31. DTAP 
addresses the five tracks to employment: re-employment, rapid access to 
employment, employment through long term services, independent living 
services, and self employment. DTAP also addresses other services such 
as medical, dental, optical, mental health treatment, special adapted 
housing, vet centers, vocational/educational counseling and special 
hiring authorities for Federal employment. VA provides all materials 
and information, counselors, data collection, and any analysis related 
to DTAP.
    We also cannot overlook the many options for Federal employment 
such as Veterans Recruitment Appointment (VRA), Veterans Employment 
Opportunities Act (VEOA), Appointment of 30% or More Disabled Veterans, 
Federal Career Intern Program (FCIP), SBA, and the National Veterans 
Business Development Corporation Programs for those who want to start 
their own business or franchise.
    Finally, as a result of recommendations from the VA's Returning 
Global War on Terror Heroes Task Force, DoD has established a goal for 
TAP and DTAP attendance of 85% for separating Service members and 
demobilizing National Guard and Reserve Forces. To meet this goal, we 
have tasked the services to allow Service members to attend these 
sessions so they have access to the employment resources they need to 
help them transition into the workforce or into an educational 
institution. In partnership with the DOL and VA, a lifelong learning 
approach to transition assistance is being developed, to include the 
redesign and modernization of existing TAP curriculum and course 
objectives for the four components of TAP. TAP will be designed into a 
``purple'' solution for transition assistance using highly interactive 
features hosted on the TurboTAP website and multi-media mobile learning 
technologies (m-learning) to deliver program modules as standalone, 
web-based, and hybrid courses with a blend of web-based and traditional 
classroom instruction. The TAP will also provide instructors and 
facilitators with access to the latest interactive technologies and 
teaching methodologies to maximize student participation and increase 
effectiveness and value of course curriculum, regardless of delivery 
location. This modernization of the TAP programs will provide global 
24/7 access and increased quality control of TAP and enable commanders 
to meet the 85% goal while enhancing the Service members' and their 
spouses' learning experience.

TurboTAP
    There is much concern about how we can better serve the National 
Guard and Reserve Components coming from Operation Enduring Freedom 
(OEF)/Operation Iraqi Freedom (OIF). As I've stated earlier, we are 
leveraging technology in its many forms to change how the National 
Guard and Reserve members transition out of the military, in addition 
to serving as a valuable tool for the Active Component Service members 
as well. This leveraging has resulted in what we call ``TurboTAP''.
    When TAP was originally developed in 1990, we did not design it 
with the needs of the National Guard and Reserves in mind. Their 
mission has changed dramatically since 9-11 and the requirements, with 
respect to TAP, warrant a fresh look. To better meet the needs of the 
Guard and Reserves, DoD, with the cooperation and collaboration of the 
Military Services, National Guard Bureau (NGB), DOL, VA, ED, SBA, and 
the National Veterans Business Development Corporation, has designed a 
dynamic, automated web-based system for delivery of transition 
assistance and related information. The TurboTAPweb portal, launched in 
2007, allows each Service member, regardless of component, to obtain a 
lifelong account and a tailored Individual Transition Plan based on 
their transition needs which can also connect them to information on 
military and veterans benefits, many of which have significant cash 
value. Examples include the Montgomery GI Bill, the Thrift Savings Plan 
and the Savings Deposit Program.
    This portal architecture is the backbone of the updated DoD TAP 
process for National Guard and Reserve Service members. Usability, 
flexibility, adaptability, and individual customization are the keys to 
successful implementation of this new technology-enabled process. The 
goal for this system is to increase Service member participation, 
satisfaction, and ultimately, enhance awareness of military benefits 
for recruitment, retention, and transition.
    We continue to be encouraged by the possibilities for TurboTAP. 
Military personnel can access a comprehensive Transition Guide for 
Guard and Reserve and a Pre-separation Guide for the Active Component, 
obtain employment information, build a resume online, conduct a job 
search, contact and locate their local One-Stop Career Center for 
employment assistance, locate the nearest VA Regional Office, Vet 
Center, and Medical Center, use helpful checklists reminding troops of 
key things to do prior to leaving the service, be connected to 
information about VA benefits, services, and programs, and the list 
goes on.
    TurboTAP better meets the needs of the National Guard, Reserve, and 
Active Component Service members and their families because the website 
gives them the tools to connect and access the information to meet 
their needs when they are ready--present or future. This is a 21st 
century approach to delivering individualized information and benefits 
to Service members and families. We plan to make the transition to an 
online transaction, much like banking and bill paying have become. The 
success and accountability of the transition will be managed online 
versus a form being hand carried to a personnel file. As we continue to 
expand the capabilities of the website, we will solicit your approval 
and legislative support.
    The site can be accessed at www.TurboTAP.org.

Outreach, Counseling, and Decision-Making Tools
    There are multiple ``high-tech, high-touch'' initiatives, both 
online and in person, that exist to better serve our troops and 
families with their transition, financial readiness, and benefits 
awareness needs.
    In the Fall of 2007, DoD TurboTAP Mobile Training Teams began 
training the National Guard and Reserves. These highly specialized 
outreach teams travel to State level deployment support and 
reintegration programs at the request of National Guard and Reserve 
Component leaders to connect Service members to the benefits they have 
earned through military service. The TurboTAP Mobile Training Teams 
provide information about transition assistance, service-related 
benefits, and related on-demand financial counseling services. By the 
end of 2009, DoD's goal is to have the TurboTAP Mobile Training Teams 
fully integrated into deployment support, transition assistance, and 
financial awareness programs in all 50 states. By coupling financial 
assistance with transition assistance, Service members will better 
understand how their benefits can help them reach their military 
career, personal and family goals and provide economic security 
throughout their lifetime.
    DoD is expanding and enhancing its network of financial 
professionals to provide financial counseling and planning services to 
meet the needs of all our Service members and families, ranging from 
budgeting and debt consolidation to advanced financial planning. To 
augment our own network of contracted financial professionals, DoD is 
building and expanding relationships with United States Department of 
Agriculture Cooperative Extension educational institutions, community 
colleges, universities, non-profit financial readiness partner 
organizations, financial planning associations, and DoD on-installation 
banks and credit unions to provide our troops with a variety of 
financial planning and counseling resources. A key to the success of 
expanding resources and partnerships is the train-the-trainer program 
being developed by DoD. The websites and multimedia mobile learning 
technologies (m-learning) will deliver train-the-trainer program 
modules as stand--alone, web-based, and hybrid courses with a blend of 
web-based and traditional classroom instruction. Benefits awareness and 
an understanding of how these benefits fit into a larger financial 
wellness plan can act as a powerful retention tool, or, should the 
member still decide to leave the service, can assist tremendously with 
the decisionmaking process for a second career.
    Additionally, at the request of National Guard and Reserve units, 
the Department is dispatching consultants with financial readiness 
specialties to attend special events such as drill weekends, 
reintegration, pre-deployment, and wellness fairs, to meet with Guard 
and Reserve members and families and provide education on many aspects 
of financial readiness and transition.
    One of the newest key outreach and benefits awareness initiatives 
is the Joint Family Support and Assistance Program (JFSAP). Originally 
started in 15 States and now projected to expand to all 50 (to include 
the four territories) by the end of 2009, the JFSAP facilitates 
partnerships among Federal, state and local organizations, builds 
benefits and transition assistance outreach for deploying units, and 
resources a vital state by state database for around the clock family 
assistance. Through partnerships with such groups as the Red Cross, 
JFSAP will help reach Service members and their families within each 
State, especially the geographically dispersed families of the National 
Guard and Reserve, to ensure they are aware of and can easily be 
connected to benefits within their area. In this manner, we can 
contribute to the financial well-being of all troops and families, and 
in keeping with the new DoD philosophy, leverage this awareness as a 
retention tool.
    Regarding financial tools, DoD is committed to providing our 
Service members and families with those that will enable them to truly 
enhance their financial wellness and economic security. DoD is building 
a catalog of resources through technology, expanding online counseling 
and mentoring tools, and researching and providing more decisionmaking 
calculators for financial career decisions to help troops address the 
question that all Service members eventually have to confront: ``Should 
I go or should I stay?''
    Three of the key online resources sponsored by DoD that contain 
transition, financial, and benefits information are Military OneSource 
(www.militaryonesource.com), Military Home Front 
(www.militaryhomefront.dod.mil), and TurboTap (www.turbotap.org).
    Military OneSource provides support services 24/7 for all troops 
and their families, including the Guard and Reserves, regardless of 
their mobilization status, and offers free, convenient access to 
confidential resource and referral support. When a Service member or 
spouse calls or emails, a master's level consultant provides 
assistance. Military OneSource is especially beneficial to those 
geographically separated from installation services or those who are 
unable to seek assistance during traditional working hours. The ``Money 
Matters'' section of Military OneSource contains financial calculators, 
DVDs, CDs, and informational pamphlets to assist a family in its 
financial plan. Additionally, Military OneSource now features 
telephonic financial counseling to augment those programs provided by 
the services.
    Military Home Front is DoD's ``Google'' for quality of life 
information. As a sister site to Military OneSource, MilitaryHOMEFRONT 
is the library of DoD information on quality of life issues--to include 
transition and financial readiness--useful to installation staff and 
policy makers. In Fiscal Year 2007, there were over 1.7 million visits 
to the site.
    MilitaryHOMEFRONT, in coordination with the JFSAP, has introduced 
the MySTATE database (www.mystate.mhf.DoD.mil), a powerful new tool 
providing State and local Service members and their families across the 
Nation with access to various organizations and businesses that offer 
special discounts and services specifically for military personnel and 
their families. MySTATE includes State directories, locations of 
programs and services, maps, directions and much more. The website also 
gives users the opportunity to provide feedback on the organizations or 
businesses listed.

Credentialing and Certification
    While in the service, Service members receive extensive, high-
quality training in a wide range of military professional fields 
(referred to as MOS's and Rates). The training, combined with military 
work experience, contributes significantly to a highly skilled 
workforce. Making the conversion from military occupations and skill 
sets to civilian jobs and certification presents challenges for 
transitioning military members. It is critical that DoD assist these 
troops in overcoming these challenges since credentials help pave the 
way to immediate employment in the civilian world and long-term 
economic security
    In response, DoD, in partnership with the DOL, formed the 
Credentialing Working Group to address the issue of the conversion of 
military training and experience into nationally recognized industry 
accepted certifications. The Working Group is carrying out its mission 
by expanding current information, leveraging assistance resources, and 
promoting uniformity and reciprocity across the States with regard to 
certification, licensing, and apprenticeship to assist and prepare 
individuals to transition into civilian life with credentials for high-
wage high-demand jobs that can provide economic security.

Conclusion
    In conclusion, our Service members and their families have 
sacrificed much in support of the Global War on Terror. Our military is 
experiencing a dynamic deployment cycle of unprecedented levels. It is 
DoD's duty to provide our troops with the decisionmaking tools they 
need to help them with the key financial and transition decision points 
in their lives to enable them to execute their individual career and 
economic security plans. The new DoD Office of PF&T, in partnership 
with other Federal and private agencies, will get us there.
    On behalf of the men and women in the military today and their 
families, I thank you and the members of the Committee for your 
steadfast support during these demanding times.

                                 <F-dash>
 Statement of Kevin Crowley, Deputy Director, Manpower and Personnel, 
           National Guard Bureau, U.S. Department of Defense

Introduction
    Chairman Hall, Ranking Member Lamborn and distinguished members of 
the subcommittee, on behalf of Chief of the National Guard Bureau, H. 
Steven Blum, I am here to testify before on the effectiveness of the 
Veterans Benefits Administration's outreach efforts. I greatly 
appreciate your commitment to veterans and current members of the Armed 
Services and am grateful for the chance to testify regarding veterans 
outreach for the National Guard.
    In the National Guard, we recognize that our people are our most 
valuable resource. Accordingly, we understand the importance of 
assuring that our Soldiers and Airmen returning from deployments 
receive the support they need to continue to serve in the National 
Guard and effectively transition to civilian life.

NGB Interactions with the Veterans Benefits Administration
    In the fall of 2004, LTG Blum met with the Secretary of the 
Department of Veterans Affairs to develop a strategy to support 
National Guard members who had been deployed. As a result a working 
group was established that developed a memorandum of agreement which 
was signed by LTG Blum and the Department of Veterans Affairs, Under 
Secretary for Benefits and Under Secretary for Health. In addition to 
the national memorandum of agreement, 48 states and territories have 
signed local memorandum of understandings that include the Regional 
Veterans Benefits Administration offices.
    Since May 2005, 62 National Guard Transition Assistance Advisors 
have been jointly trained by the National Guard and Department of 
Veterans Affairs. Transition Assistance Advisors work at the State 
Joint Force Headquarters and are responsible for educating National 
Guard members and their families on Veterans benefits. Transition 
Assistance Advisors also act as a conduit between the National Guard 
and local Veterans Affairs personnel. Of the 62 Transition Assistance 
Advisors 57 are Veterans, 30 of which are disabled Veterans, and the 
remaining Transition Assistance Advisors are spouses of active National 
Guard members.
    The Transition Assistance Advisor initial training was held in 
February 2006 at the Veterans Benefits Administration Training Academy 
in Baltimore. This training was conducted jointly between the National 
Guard Bureau and the Department of Veterans Affairs and covered basic 
information on all Veterans Benefit Administration programs preparing 
Transition Assistance Advisors to act as an advocate for National Guard 
members and a liaison to the Department of Veterans Affairs.
    Since that initial training, the National Guard Bureau and 
Department of Veterans Affairs have conducted annual refresher training 
that includes representatives from the Veterans Benefit Administration, 
Veterans Health Administration, and State Directors of Veterans 
Affairs. Annual training is supplemented by monthly phone calls jointly 
hosted by the National Guard Bureau and Veterans Affairs Central Office 
with representatives from the Veterans Benefits Administration on-call 
to answer questions. This training is further supported by a jointly 
written and published Transition Assistance Advisor quarterly 
newsletter that includes up-to-date information on Veterans Benefit 
Administration issues. We were pleased in January 2008 when the State 
Directors of Veterans Affairs also joined our newsletter to continue to 
emphasizing state benefits.

What the National Guard is doing to assure returning service members 
        know about their VA Benefits
    When National Guard members return from an overseas deployment, 
they learn about Veterans benefits available to them through various 
means. These include briefings during the demobilization process, state 
reintegration programs, post deployment health reassessments, and 
numerous other state sponsored events. We believe that the most 
effective briefings are those delivered locally. First, it allows 
National Guard members to follow up with the same individuals who 
briefed them. Second, it allows family members to be present, and we 
find that Guard families play a pivotal role in the education of our 
Airmen and Soldiers. Families also play a key role in National Guard 
members following through on applying for health benefits.
    At the National Guard Bureau, we continue to educate our 
Transitional Assistance Advisors and National Guard leadership on 
Veterans benefits. Additionally, in April 2008, we published our first 
Warrior Support newsletter that is specifically directed at the 
benefits of National Guard members. This newsletter is distributed 
through the local Transition Assistance Advisors who add local contact 
information.
    Each month, Transition Assistance Advisors submit a monthly report. 
At the request of the Department of Veterans Affairs, in January 2008, 
the report was modified to include referral information to the Veterans 
Benefit Administration, Veterans Health Administration and Vet Centers. 
This information will be used by the National Guard Bureau and 
Department of Veterans Affairs to measure the effectiveness of our 
education and outreach programs and to make modifications and 
improvements where necessary.

Best practices in the states or at NGB for reintegration of returning 
        servicemembers that we have seen
    There are numerous examples where the National Guard has partnered 
with the Department of Veterans Affairs at the local level to deliver 
innovative programs that educate National Guard members. We believe the 
Beyond the Yellow Ribbon initiative will continue to improve the 
collaboration between local National Guard and Department of Veteran 
Affairs personnel.

Conclusion
    Few areas, if any, are more important to the National Guard Bureau 
as veterans outreach programs. We have appreciated the support we have 
received from the Department of Veterans Affair, and we thank them for 
their service to all Veterans.
    We welcome the opportunity to discuss these important matters with 
Congress and I look forward to working with your Committees to ensure 
that these programs remain robust. I would like to thank the committee 
for its continued support of the men and women of the Armed Forces.

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                       June 2, 2008

Ms. Diana M. Rubens
Associate Deputy Under Secretary for Field Operations
Veterans Benefits Administration
Department of Veterans Affairs
810 Vermont Avenue
Washington DC 20420

Dear Ms. Rubens:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs hearing on 
``Examining the Effectiveness on VBA Outreach Efforts'' on May 22, 
2008, I would appreciate it if you could answer the enclosed hearing 
questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Megan Williams by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                        Questions for the Record
                  The Honorable John J. Hall, Chairman
       Subcommittee on Disability Assistance and Memorial Affairs
                   House Veterans' Affairs Committee
                              May 22, 2008
          Examining the Effectiveness of VBA Outreach Efforts

    Question 1: At the hearing you said you would pursue this 
opportunity. Did you find out why with the JEC, BEC, HEC, and SOC, 
there are no links to the VA homepage on the DoD websites?

    Response: The Department of Defense (DoD) currently has a link to 
the Department of Veterans Affairs (VA) Web site on the DoD DefenseLink 
Web site under the ``Web sites'' dropdown menu. Two other military 
websites Navy.com and MyArmyBenefits.us.army.mil have links to the VA 
Web site. A link is also provided on MilitaryOneSource.com.

    The VA/DoD Benefits Working Group, a subgroup of the Benefits 
Executive Council (BEC), is working to provide links to the VA Web site 
on all the main DoD Web sites. The BEC will ensure the links are placed 
on the appropriate sites.

    Question 2(a): At the hearing, the DAV mentioned the biennial plan 
for outreach activities due to Congress on October 1, 2007, what has 
happened to that report?

    Response: The outreach report required by Public Law (PL) 109-233 
is due to Congress on December 1, 2008. The Department of Veterans 
Affairs Office of Policy and Planning has the lead role in coordinating 
and preparing the report.

    Question 2(b): DAV also mentioned plans for a 2008 National Veteran 
Survey. Has the process begun?

    Response: The National Survey of Veterans was awarded by the Office 
of Policy and Planning on May 28, 2008, to Westat, Inc. of Rockville, 
Maryland.

    Question 3(a): Can you tell me how many of those briefed during the 
last five years of TAP classes were active duty, national guard, 
reserve, survivors or other family members?

    Response: Prior to fiscal year (FY) 2007, VA collected data only on 
active duty and reserve/guard attendees. In FY 2007, VA began 
collecting the information by type of briefing and included family 
members.

             Total VA Benefits Briefings (FY 2004-FY 2006)

----------------------------------------------------------------------------------------------------------------
                  Fiscal Year                        Active Duty          Reserve/Guard             Total
----------------------------------------------------------------------------------------------------------------
2004                                                        188,208                88,366               276,574
----------------------------------------------------------------------------------------------------------------
2005                                                        208,006               118,658               326,664
----------------------------------------------------------------------------------------------------------------
2006                                                        299,984                93,361               393,345
----------------------------------------------------------------------------------------------------------------

            VA Transition Assistance Program (TAP) Briefings

----------------------------------------------------------------------------------------------------------------
               Fiscal Year                   Active Duty      Reserve/Guard    Family Members         Total
----------------------------------------------------------------------------------------------------------------
2007                                              145,846            15,662             3,345           164,853
----------------------------------------------------------------------------------------------------------------
FYTD 2008 *                                        98,476            12,218             2,109           112,803
----------------------------------------------------------------------------------------------------------------

    * Through May 2008.

                 Other VA Benefits Briefings (Non-TAP)

----------------------------------------------------------------------------------------------------------------
               Fiscal Year                   Active Duty      Reserve/Guard    Family Members         Total
----------------------------------------------------------------------------------------------------------------
2007                                               94,777            27,439             9,786           132,002
----------------------------------------------------------------------------------------------------------------
FYTD 2008 *                                        54,673            31,396             1,266            87,335
----------------------------------------------------------------------------------------------------------------

    * Through May 2008.

    Question 3(b): Why have the numbers gone down significantly between 
2006 and 2007?
    Response: The number of military benefits briefings conducted in FY 
2007 declined for a number of reasons.
        <bullet>  DoD closed a number of military bases in FY 2007. As 
        a result of fewer military bases, the number of briefings 
        scheduled/conducted in FY 2007 was less than the number in FY 
        2006.
        <bullet>  During FY 2007, DoD increased the deployment period 
        from 12 months to 15 months. Many servicemembers who would have 
        separated in FY 2007 were extended into FY 2008.
        <bullet>  The deployment of additional units (``surge'') placed 
        more soldiers on ``stop loss.'' This ``stop loss'' in FY 07 
        reduced the number of servicemembers attending benefits 
        briefings.

    Question 3(c): Why are the numbers you reported for briefings and 
attendees about double of those reported by DOL and DoD for the same 
time period?

    Response: The numbers reported by VA in the May 22 testimony were 
for briefings for regular active duty military members, pre- and post-
deployment briefings for Reserve and National Guard members, and 
briefings conducted overseas. Those numbers included not only VA's TAP 
to prepare retiring or separating military personnel for return to 
civilian life and disabled transition assistance program (DTAP) 
briefings for servicemembers who may be released because of disability, 
but also other VA benefits briefings. Other VA benefits briefings 
include briefings such as Commanders' Calls on VA's educational 
programs and VA's loan guaranty program.

    Question 4: In examining the TAP program, it was brought to the 
Subcommittee's attention that one of the major problems with conducting 
TAP briefings is that the VBA personnel don't always show up for their 
portion of the briefing. How do the regional offices ensure that they 
are present at all of the TAP briefings and how do you handle it when 
your staff are no-shows or cancel?

    Response: A TAP Steering Committee is responsible for the ongoing 
coordination of TAP activities both in the United States and overseas. 
The Committee includes representatives from the four military service 
branches. If a VA employee does not show up for a briefing, the local 
Transition Assistance Office would contact the regional office of 
jurisdiction to address the issue. If the issue could not be resolved 
at the local level, the TAP Steering Committee would notify the 
Veterans Benefit Administration (VBA) central office who would 
intercede in the matter. To ensure VA representatives are present at 
all TAP/DTAP briefings, the local transition assistance office manager 
coordinates the schedule requirements with the local regional office.

    Question 5: At the hearing you mentioned that you were developing a 
process to provide unique benefits briefings to survivors and for 
caregivers of the severely injured who will need assistance in 
accessing the additional supportive resources, such as aid and 
attendance or housing adaptation. Can you tell me more about that 
process, its strategic plan and timeline?

    Response: VA has implemented special outreach programs for 
veterans' survivors and caregivers of severely injured servicemembers. 
Casualty assistance officers from the local VA regional office visit 
family members of service members who died on active duty and assist 
them in applying for VA benefits. These visits are coordinated with the 
military casualty assistance officers. A special brochure targeted at 
surviving family members outlines our benefits and services. The 
benefits application process is streamlined through the use of a 
simplified one-page application form faxed to the VA Philadelphia 
Regional Office and Insurance Center. All survivor claims are processed 
within 48 hours of receipt of required documents. Because family 
members are in an acute stage of grief during the initial visit, a 6-
month followup letter is sent to ensure the family is aware of the full 
range of VA benefits available to them. Additional outreach is 
scheduled as needed.
    VBA liaisons are assigned to military treatment facilities to 
support our severely injured service members and provide VA benefits 
information and assistance. They meet with the service members and 
their caregivers to provide information about the full range of VBA 
services, including aid and attendance, specially adapted housing 
benefits, education benefits, and vocational rehabilitation. The 
liaisons assist service members in completing their claims and in 
gathering supporting evidence.
    Additionally, each VA regional office has a designated Operation 
Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) coordinator for 
outreach activities. This coordinator is the primary VBA point of 
contact for severely disabled service members and their caregivers. VBA 
has distributed guidance to field staff to ensure the roles and 
functions of OEF/OIF coordinators are fully understood and proper 
coordination of benefits and services takes place at the local level.

    Question 6: Does VA track the response rate generated from the VADS 
mailings it sends out? If so, what is it?

    Response: VA has an expansive outreach program. We have no means to 
track whether a claim was made in response to the veterans assistance 
at discharge system (VADS) mailing or another outreach effort.

    Question 7: It seems VA was having success with its Office of 
Seamless Transition and was establishing a better working relationship 
with VBA, VHA, and DoD. Why did VA close that office?

    Response: The Office of Seamless Transition is not dissolved; 
rather, it is reorganized to best allow for the operation and 
management of the component parts. The component parts evolved as the 
mission expanded, and the logical placement of the work became evident. 
The Office of Seamless Transition has been reorganized into the 
following three categories: policy, care management, and outreach.
    Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) 
Executive Director Office (Policy): The Under Secretary for Health 
(USH) established the OEF/OIF Program Office and the Executive Director 
position. The Executive Director serves as an advisor to the USH on 
issues regarding the transition and continuity of care for OEF/OIF 
veterans seeking health care in the Department of Veterans Affairs 
(VA). The office also provides strategic direction for policy and 
coordination of the transition of health care services and works with 
the Department of Defense (DoD) and other agencies to ensure a smooth 
continuum of care for service members as they become veterans. This 
office collaborates with other VA offices, including the Office of 
Policy and Planning (OPP) and the Veterans Benefit Administration (VBA) 
to specify remedies for barriers and challenges as they are identified. 
The office also serves as the USH's daily contact point for Senior 
Oversight Committee activities.
    Care Management and Social Work Service (Care Management): VA 
created this office, within the Office of Patient Care Services (PCS), 
in October 2007 in response to a need for clinical case management of 
OEF/OIF service members, veterans, and their families. This realignment 
brought together several key clinical programs engaged in coordinating 
and managing care for OEF/OIF service members and veterans. Care 
management and social work staff work closely with the staff from 
polytrauma, rehabilitation, nursing, and mental health services, as 
these programs are all under the single Veterans Health Administration 
(VHA) organizational structure of the PCS office. Military liaisons, 
VBA and our internal social work and nursing staff members are 
responsible for patient issues.
    This new office's mission is to coordinate patients' health care 
and to partner with VBA in addressing their benefits. OEF/OIF 
coordinators at each VA medical center and benefits office coordinate 
with DoD discharge staff to facilitate a continuum of care and services 
at locations nearest the veteran's residence after their military 
discharge. This coordination ensures that service members and veterans 
are receiving patient-centered, integrated care and benefits. These 
essential programs now work in concert at every organizational level, 
including the national level, to efficiently and effectively meet the 
needs of our OEF/OIF service members and veterans.
    The VHA/DoD Coordination Office (Outreach): This office provides a 
national focus on VHA's systematic efforts to identify new veterans and 
to provide information on services available to them. This component 
works closely with DoD and the Reserves and National Guard. Starting in 
May 2008, the VA/DoD Coordination Office began making phone calls to 
15,000 veterans who may have a need for care management, and more than 
500,000 separating service members who may not be aware of VA benefits 
to which they are entitled. The VA/DoD Coordination Office also 
coordinates efforts with Reserve and National Guard units on DoD's 
post-deployment health reassessment (PDHRA) program. During the period 
of November 2005 through May 2008, VHA staff have supported over 1,400 
PDHRA events and DoD's 24/7 PDHRA call center. These Reserve and 
National Guard PDHRA activities have generated over 60,000 referrals to 
VA medical centers and vet centers.

    Question 8: In the JEC Annual Report there are several special 
categories of veterans with exposure issues that VA notes it provides 
outreach. This included Agent Orange, Gulf War, SHAD, and Edgewood. Why 
has VA not included the women from Ft. McClellan in its efforts; 
knowing how much less likely women are to identify with VA programs?

    Response: Women veterans who were stationed at Ft. McClellan have 
recently expressed concerns about exposure to biological or chemical 
agents. VA contacted DoD for any information regarding possible 
exposure and was advised that no women were tested or exposed to 
chemical agents while stationed at Ft. McClellan. If DoD does inform VA 
that a service member was exposed to chemical agents, a letter is sent 
to them explaining how to apply for benefits. VA has designated women 
veteran coordinators (WVC) at each VBA regional office to actively 
conduct outreach activities to women service members and veterans. The 
WVCs are available to provide benefits counseling and assist in 
obtaining VA services.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                       June 2, 2008
Ms. Leslye Arsht
Deputy Under Secretary of Defense
Military Community and Family Policy
Military OneSource
Department of Defense
1300 Defense Pentagon 30844
Washington, DC 20301

Dear Ms. Arsht:
    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs hearing on 
``Examining the Effectiveness on VBA Outreach Efforts'' on May 22, 
2008, I would appreciate it if you could answer the enclosed hearing 
questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Megan Williams by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.
            Sincerely,
                                               John J. Hall
                                                           Chairman

                               __________

                        Questions for the Record
                  The Honorable John J. Hall, Chairman
       Subcommittee on Disability Assistance and Memorial Affairs
                   House Veterans' Affairs Committee
                              May 22, 2008
          Examining the Effectiveness of VBA Outreach Efforts
                  Linking DoD Web Sites to VA Homepage

    Question 1: At the hearing we discussed the DoD websites 
(Defenselink, Military OneSource, and Military Homefront) that offer 
supportive services to service members and their families, but found 
that they don't easily link to the VA homepage. The Chairman asked if 
that would be possible. Is it?

    Answer: Yes, that is possible. We will link TurboTAP and 
MilitaryHOMEFRONT to the Department of Veterans Affairs (VA) website 
homepage. We are working with the Armed Forces Information System to 
link Defenselink to the VA homepage.

         VA Benefits Training for Military OneSource Operators

    Question 2: At the hearing, we discussed what happened when the 
Subcommittee called the Military OneSource (MOS) toll free line and 
asked about veterans' benefits, and we were told to contact the 
Department of Veterans Affairs (VA) for any information, but we were 
given a toll free line for VA's Health Revenue facility, which was the 
wrong number. You mentioned that the Department of Defense (DoD) does 
provide training to Military OneSource operators on VA benefits. Can 
you provide the protocol for this training and who gives it? What kind 
of quality checks do you do on Military OneSource referral information?

    Answer: Please be assured that VA's Health Revenue Center is the 
proper source for veteran's benefits information and that the correct 
number was provided to the caller. To obtain this information, we used 
our internal recovery process, a tool to recover information and 
provide quality control checks on answers that have been provided to 
callers. We were able to access this information by tracking the calls 
pertaining to VA.
    There are two VA toll-free numbers that provide benefit assistance: 
877-222-8387 for the Health Revenue Center and 800-827-1000 for VA's 
Telephone Assistance Service. MOS consultants refer these numbers to 
callers seeking information about VA benefits, pay, Medicare Part D 
forms, VA health care enrollment, locations, directions, etc. The MOS 
consultant will stay on the line with the caller, if desired. MOS 
consultants also have access to VA contact information via the VA 
website and have resource materials at their desks with these numbers.
    The MOS staff is provided training on the use of the VA website 
(https://iris.va.gov/scripts/iris.cfg/php.exe/enduser/cci/
phonenbrs.php) as one of the primary reference points for VA callers. 
The Department and the military services provide training to ensure up-
to-date and accurate information is being presented. All training 
materials are reviewed on a quarterly basis.
    If it is learned after the fact that the caller was dissatisfied 
and if the caller has provided his/her name, MOS will initiate a 
recovery process based on the person's name to determine what 
information was incorrect and will then provide an additional resource. 
If the caller has provided his/her name and telephone number, the MOS 
consultant follows up within three days to ensure the resource was 
appropriate and met the needs of the requester. In this particular 
case, the call was anonymous; therefore, it wasn't possible to initiate 
a recovery process based on the caller's name or to follow up.
    Prior to providing referral information to an individual, the 
consultant validates the resources. If the MOS consultant is providing 
a ``warm handoff,'' the MOS consultant will contact the resource, 
describe the request and stay on the line with the caller until the 
caller agrees it is okay for the MOS consultant to hang up.

                Possibility of VA OneSource Sister Site

    Question 3: Could there be more information on VA benefits 
integrated into Military OneSource or does VA need a ``Veteran 
OneSource'' counterpart?

    Answer: Military OneSource is available to all active duty, Guard 
and Reserve members and their families with resources to manage the 
mobile military lifestyle. As troops transition to Veterans, a warm 
handoff to the Department of Veterans Affairs is arranged if the caller 
agrees. The consultant will stay on the line to ensure the referral 
will provide the requested assistance.
    If the caller prefers for the information to be sent to them, it is 
researched and provided within 72 hours of the initial call. After the 
information is sent, the consultant will follow up with the caller and 
ask if the information was received, if it was helpful and what follow 
up questions or concerns may be addressed.

                Joint Executive Council oversight of TAP

    Question 4: What is the Joint Executive Council oversight doing 
regarding TAP attendance and ensuring that VA knows when the briefings 
are taking place and why was TAP data removed from its 2007 Annual 
Report?

    Answer: The Department of Veterans Affairs (VA) Task Force on 
Returning Global War on Terror Heroes examined transition assistance 
program (TAP) attendance, and as a result, Secretary Gates pledged to 
the President that the Department of Defense (DoD) would increase 
attendance at TAP and VA Disabled TAP (DTAP) sessions to 85% of those 
separating Service members and demobilizing National Guard or Reserve 
members. The Joint Executive Council (JEC) will continue to reflect 
this commitment to increasing TAP attendance in future Joint Strategic 
Plans.
    DoD strongly encourages attendance at the four separate parts of 
the TAP process:

    1.  Pre-separation counseling, conducted by DoD, is mandatory by 
law for all separating or transitioning Service members and provides a 
broad overview of transition resources available. During the 
counseling, Service members can decide which topics they would like to 
learn more about through formal TAP classes. While Service members, 
other than Marines, can opt-out, they are encouraged to take advantage 
of all of these sessions.
    2.  Attendance to the Department of Labor (DOL) Employment 
Workshop, while not mandatory, is very highly encouraged by DoD. DOL 
tracks attendance by both servicemembers and spouses and reports those 
numbers to DoD on a quarterly basis. National Guard and Reserve members 
are also provided a Uniformed Services Employment and Reemployment 
Rights Act briefing to ensure they understand their rights and the 
responsibilities of their employers as they transition back to their 
jobs. DOL workshops are scheduled by installation TAP managers or 
individual units and are made available on a frequent, recurring basis 
at appropriate intervals on installations or at demobilization points 
to accommodate the flow of transitioning Service members.
    3.  The VA benefits briefing covers VA benefits and the claims 
process for departing Service members. As with the DOL workshops, 
attendance to VA benefit briefings is strongly encouraged. The VA 
provides attendance reports to DoD on a recurring basis.
    4.  The VA DTAP provides more detail about the special benefits 
afforded to those transitioning servicemembers who may have a Service-
connected disability. Reports on attendance are provided to DoD. 
Generally, coordination for both the VA benefits briefings and DTAP is 
done on the local level, working with VA Regional Offices to ensure 
these sessions are scheduled at appropriate times on installations and 
at demobilization sites.

    DoD is working in concert with VA and DOL to overcome the 
challenges which can disrupt attendance at any of TAP's four 
components. In many cases, demobilizing National Guard and Reserve 
members are afforded precious few days to demobilize, which can affect 
attendance at formal TAP classes. Additionally, operational 
requirements may keep a Service member on station longer than 
anticipated, which can also limit the number of available days to out-
process prior to separating. Finally, physical attendance at a TAP 
class, which has been considered the optimal method to deliver 
necessary TAP information, may not be the preferred method of receiving 
information by younger Service members.
    Increasing access to TAP information through multiple delivery 
methodologies (i.e.--interactive websites available 24/7, info 
reminders via e-mail or cell phones/blackberries, and interactive 
Compact Disks and Digital Video Disks) would be a force-multiplier in 
getting TAP information into the hands of the separating Service member 
and would deliver an invaluable complement to formal TAP classes in a 
format in which younger Service members routinely and comfortably 
operate. In this spirit of increasing access, DoD, DOL, and VA have 
collaborated to launch TurboTAP (www.turboTAP.org), an online 
repository of TAP information which allows the user to establish a 
lifelong account featuring information tailored to the Service member's 
interests and personal transitioning needs. TurboTAP is not designed to 
replace the formal TAP process; it is provided as a supplement to which 
even a veteran, having long departed from the military, can refer back 
to review and learn about separation programs and policies.
    Finally, to transform the old paradigm for TAP where Service 
members are educated on resources and programs close to the end of 
their service, DoD has embraced a new philosophy where Service members 
will be educated on their available benefits and transition resources 
early on and throughout their careers. Adopting this practice, Service 
members will be better-informed and make more educated decisions about 
their transition from military service; doing this has already proven 
to actually increase retention. The Office of Personal Finance and 
Transition, the newest office within DoD, is dedicated to combining the 
personal finance and transition assistance programs, looking at both 
programs holistically, and communicating the benefits and resources for 
each throughout a Service member's career. This, in turn, would 
mitigate those instances where transitioning Service members may want 
to return home rather than attend classes following a deployment.
    In response to your question about the absence of TAP data from the 
2007 Annual Report, we are working with VA to include current 
information in their 2008 report. The VA Office of Seamless Transition 
addressed the TAP data issue in the last report submitted in 2006.

                                 <F-dash>


                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                       June 2, 2008
Mr. Kevin Crowley
Deputy Director
Manpower Personnel
National Guard Bureau
U.S. Department of Defense
1300 Defense Pentagon 30844
Washington, DC 20301

Dear Mr. Crowley:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs hearing on 
``Examining the Effectiveness on VBA Outreach Effort's'' on May 22, 
2008, I would appreciate it if you could answer the enclosed hearing 
questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Megan Williams by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.
            Sincerely,
                                               John J. Hall
                                                           Chairman
                               __________
                        Questions for the Record
                 The Honorable John J. Hall, Chairman,
      Subcommittee on Disability Assistance and Memorial Affairs,
                   House Veterans' Affairs Committee
                              May 22, 2008
          Examining the Effectiveness of VBA Outreach Efforts
    Question: At the hearing you offered to submit the following 
information for the record: You mentioned that the advisors submit a 
monthly report and have included VBA referral information. Do you know 
how many Guardsmen transitioned and how many were referred to VA?

    Answer: For the month of April 2008 (the first month with all 
states/territories reporting), there were 781 referrals from a National 
Guard transition assistance advisor (TAA) to the Veterans Benefits 
Administration. This number just represents the month of April 2008. 
Since this is a new report, we believe this number may be low. Some of 
our TAAs are new; however, reporting methodologies are in their 
infancy. We will continue to track these numbers.

                                 <all>

</pre></body></html>
